<html>
<title> - PROTECTING AND RESTORING AMERICA'S ICONIC WATERS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                   PROTECTING AND RESTORING AMERICA'S
                             ICONIC WATERS

=======================================================================

                                (116-25)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 25, 2019

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-625 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------                            
                             

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    PETER A. DeFAZIO, Oregon, Chair

ELEANOR HOLMES NORTON,               SAM GRAVES, Missouri
  District of Columbia               DON YOUNG, Alaska
EDDIE BERNICE JOHNSON, Texas         ERIC A. ``RICK'' CRAWFORD, 
ELIJAH E. CUMMINGS, Maryland         Arkansas
RICK LARSEN, Washington              BOB GIBBS, Ohio
GRACE F. NAPOLITANO, California      DANIEL WEBSTER, Florida
DANIEL LIPINSKI, Illinois            THOMAS MASSIE, Kentucky
STEVE COHEN, Tennessee               MARK MEADOWS, North Carolina
ALBIO SIRES, New Jersey              SCOTT PERRY, Pennsylvania
JOHN GARAMENDI, California           RODNEY DAVIS, Illinois
HENRY C. ``HANK'' JOHNSON, Jr.,      ROB WOODALL, Georgia
Georgia                              JOHN KATKO, New York
ANDRE CARSON, Indiana                BRIAN BABIN, Texas
DINA TITUS, Nevada                   GARRET GRAVES, Louisiana
SEAN PATRICK MALONEY, New York       DAVID ROUZER, North Carolina
JARED HUFFMAN, California            MIKE BOST, Illinois
JULIA BROWNLEY, California           RANDY K. WEBER, Sr., Texas
FREDERICA S. WILSON, Florida         DOUG LaMALFA, California
DONALD M. PAYNE, Jr., New Jersey     BRUCE WESTERMAN, Arkansas
ALAN S. LOWENTHAL, California        LLOYD SMUCKER, Pennsylvania
MARK DeSAULNIER, California          PAUL MITCHELL, Michigan
STACEY E. PLASKETT, Virgin Islands   BRIAN J. MAST, Florida
STEPHEN F. LYNCH, Massachusetts      MIKE GALLAGHER, Wisconsin
SALUD O. CARBAJAL, California, Vice  GARY J. PALMER, Alabama
Chair                                BRIAN K. FITZPATRICK, Pennsylvania
ANTHONY G. BROWN, Maryland           JENNIFFER GONZALEZ-COLON,
ADRIANO ESPAILLAT, New York            Puerto Rico
TOM MALINOWSKI, New Jersey           TROY BALDERSON, Ohio
GREG STANTON, Arizona                ROSS SPANO, Florida
DEBBIE MUCARSEL-POWELL, Florida      PETE STAUBER, Minnesota
LIZZIE FLETCHER, Texas               CAROL D. MILLER, West Virginia
COLIN Z. ALLRED, Texas               GREG PENCE, Indiana
SHARICE DAVIDS, Kansas
ABBY FINKENAUER, Iowa
JESUS G. ``CHUY'' GARCIA, Illinois
ANTONIO DELGADO, New York
CHRIS PAPPAS, New Hampshire
ANGIE CRAIG, Minnesota
HARLEY ROUDA, California

                                  (ii)

  
            Subcommittee on Water Resources and Environment

                 GRACE F. NAPOLITANO, California, Chair

DEBBIE MUCARSEL-POWELL, Florida,     BRUCE WESTERMAN, Arkansas
Vice Chair                           DANIEL WEBSTER, Florida
EDDIE BERNICE JOHNSON, Texas         THOMAS MASSIE, Kentucky
JOHN GARAMENDI, California           ROB WOODALL, Georgia
JARED HUFFMAN, California            BRIAN BABIN, Texas
ALAN S. LOWENTHAL, California        GARRET GRAVES, Louisiana
SALUD O. CARBAJAL, California        DAVID ROUZER, North Carolina
ADRIANO ESPAILLAT, New York          MIKE BOST, Illinois
LIZZIE FLETCHER, Texas               RANDY K. WEBER, Sr., Texas
ABBY FINKENAUER, Iowa                DOUG LaMALFA, California
ANTONIO DELGADO, New York            BRIAN J. MAST, Florida
CHRIS PAPPAS, New Hampshire          GARY J. PALMER, Alabama
ANGIE CRAIG, Minnesota               JENNIFFER GONZALEZ-COLON,
HARLEY ROUDA, California               Puerto Rico
FREDERICA S. WILSON, Florida         SAM GRAVES, Missouri (Ex Officio)
STEPHEN F. LYNCH, Massachusetts
TOM MALINOWSKI, New Jersey
PETER A. DeFAZIO, Oregon (Ex 
Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Grace F. Napolitano, a Representative in Congress from the 
  State of California, and Chairwoman, Subcommittee on Water 
  Resources and Environment:

    Opening statement............................................     1
    Prepared statement...........................................     2
Hon. Bruce Westerman, a Representative in Congress from the State 
  of Arkansas, and Ranking Member, Subcommittee on Water 
  Resources and Environment:

    Opening statement............................................     3
    Prepared statement...........................................     3
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chairman, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     4
    Prepared statement...........................................     4
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure, prepared statement.............................    69

                               WITNESSES

Preston D. Cole, Secretary, Wisconsin Department of Natural 
  Resources:

    Oral statement...............................................     7
    Prepared statement...........................................     9
Dave Pine, Supervisor, First District, San Mateo County Board of 
  Supervisors, and Chair, San Francisco Bay Restoration 
  Authority:

    Oral statement...............................................    13
    Prepared statement...........................................    15
Laura L. Blackmore, Executive Director, Puget Sound Partnership:

    Oral statement...............................................    18
    Prepared statement...........................................    19
William C. Baker, President, Chesapeake Bay Foundation:

    Oral statement...............................................    22
    Prepared statement...........................................    23
Kristi Trail, Executive Director, Lake Pontchartrain Basin 
  Foundation:

    Oral statement...............................................    33
    Prepared statement...........................................    35
Tom Ford, Director, Santa Monica Bay National Estuary Program and 
  Executive Director, The Bay Foundation, also on behalf of the 
  Association of National Estuary Programs:

    Oral statement...............................................    40
    Prepared statement...........................................    41

                       SUBMISSIONS FOR THE RECORD

Statement of Hon. Jackie Speier, a Representative in Congress 
  from the State of California, Submitted for the Record by Hon. 
  Napolitano.....................................................    69
Letter of June 25, 2019, from Hon. Elaine G. Luria, a 
  Representative in Congress from the State of Virginia, 
  Submitted for the Record by Hon. Napolitano....................    71
Letter of June 24, 2019, from Hon. Gretchen Whitmer, Governor of 
  Michigan, Submitted for the Record by Hon. Napolitano..........    71
Letter of June 24, 2019, from Thomas Wegner, Board Chairman, and 
  Adam Payne, County Administrator, Sheboygan County, Wisconsin, 
  Submitted for the Record by Hon. Napolitano....................    73
Letter of June 21, 2019, from Darren J. Nichols, Executive 
  Director, Great Lakes Commission, Submitted for the Record by 
  Hon. Napolitano................................................    74
Letter of June 25, 2019, from Chad Lord, Policy Director, Healing 
  Our Waters-Great Lakes Coalition, Submitted for the Record by 
  Hon. Napolitano................................................    78
Statement of Jim Murdaugh, Ph.D., President, Tallahassee 
  Community College, Tallahassee, FL, Submitted for the Record by 
  Hon. Webster...................................................    82

                                APPENDIX

Questions from Hon. Grace F. Napolitano to Preston D. Cole, 
  Secretary, Wisconsin Department of Natural Resources...........    87
Questions from Hon. Grace F. Napolitano to Dave Pine, Supervisor, 
  First District, San Mateo County Board of Supervisors, and 
  Chair, San Francisco Bay Restoration Authority.................    94
Questions from Hon. Denny Heck to Laura L. Blackmore, Executive 
  Director, Puget Sound Partnership..............................    96
Questions from Hon. Grace F. Napolitano to William C. Baker, 
  President, Chesapeake Bay Foundation...........................    99
Questions from Hon. Grace F. Napolitano to Kristi Trail, 
  Executive Director, Lake Pontchartrain Basin Foundation........   100
Questions from Hon. Garret Graves to Kristi Trail, Executive 
  Director, Lake Pontchartrain Basin Foundation..................   105
Questions from Hon. Frederica S. Wilson to Tom Ford, Director, 
  Santa Monica Bay National Estuary Program and Executive 
  Director, The Bay Foundation, also on behalf of the Association 
  of National Estuary Programs...................................   106
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                             June 21, 2019

    SUMMARY OF SUBJECT MATTER

    TO:       Members, Subcommittee on Water Resources and 
Environment
    FROM:   Staff, Subcommittee on Water Resources and 
Environment
    RE:       Subcommittee Hearing on ``Protecting and 
Restoring America's Iconic Waters''

                                PURPOSE

    The Subcommittee on Water Resources and Environment will 
meet on Tuesday, June 25, 2019, at 10:00 a.m. in Room 2167 of 
the Rayburn House Office Building, to receive testimony from 
state and local officials, and non-governmental organizations 
related to ``Protecting and Restoring America's Iconic 
Waters.'' The purpose of this hearing is to review the 
successes, challenges, and need for continued funding for 
restoration efforts related to the Chesapeake Bay, Great Lakes, 
San Francisco Bay, Puget Sound, Lake Pontchartrain Basin, and 
the National Estuary Program (NEP).

                               BACKGROUND

    This memorandum summarizes the National Estuary Program and 
efforts to protect and restore the Great Lakes, San Francisco 
Bay, Puget Sound, Chesapeake Bay, and Lake Pontchartrain Basin, 
as well as the need to continue funding these initiatives. 
These programs are overseen by the Environmental Protection 
Agency (EPA) under the Clean Water Act (CWA).

NATIONAL ESTUARY PROGRAM (NEP)

    Estuaries are bodies of water that receive both fresh water 
outflows from rivers and tidal inflows from the ocean, and are 
transition zones between fresh water rivers and saline water 
from the ocean. Estuaries contain a wide range of habitats and 
support a diversity of wildlife. These areas serve as natural 
filters for pollutants and also provide commercial value in 
tourism, fishing, and recreation. As part of the Clean Water 
Act Amendments of 1987, Congress established the NEP, a non-
regulatory program to protect and restore these vital 
environments and their surrounding watersheds.\1\
---------------------------------------------------------------------------
    \1\ P.L. 100-4 (33 U.S.C. 1330).
---------------------------------------------------------------------------
    Currently, 28 estuaries \2\ nationwide are designated NEPs 
that receive funding, guidance, and technical assistance from 
EPA.\3\ Each program designs its own plans and strategies 
(generally known as a Comprehensive Conservation and Management 
Plans) to address water quality and ecological challenges 
unique to its estuary. Community-wide engagement is met with 
science-based strategies to reduce pollution from urban storm 
water and agricultural runoff, eutrophication, habitat loss, 
introduced invasive species, and altered freshwater flows. 
These collaborative efforts across local governments, 
communities, businesses, and other stakeholders allow high 
leveraging of federal dollars with non-federal sources of 
funding--$19 for every $1 of federal money on average,\4\ with 
several programs leveraging higher.
---------------------------------------------------------------------------
    \2\ https://www.epa.gov/nep/local-estuary-programs (contact 
Subcommittee Majority staff for district overlap with programs).
    \3\ https://www.epa.gov/nep/overview-national-estuary-program.
    \4\ https://www.epa.gov/nep/financing-strategies-used-national-
estuary-program.
---------------------------------------------------------------------------
    Estuaries under the NEP have also seen great success, 
restoring or protecting over 2 million acres since 2000.\5\ 
Collectively, NEP estuaries score higher than non-NEP estuaries 
for water quality indices, and this success has brought 
continued interest from 38 additional estuaries to be included 
in the NEP, according to EPA. This popularity comes from its 
collaborative non-regulatory watershed-based approach, which 
provides an opportunity to address environmental problems 
affecting communities with local participation and provides 
flexibility in deciding which approaches will best suit the 
community. The NEP has made huge strides in educating the 
public about environment problems, fostering better management 
of water resources, reducing pollution, and restoring habitats.
---------------------------------------------------------------------------
    \5\ https://www.epa.gov/nep/national-results-national-estuary-
program.
---------------------------------------------------------------------------
    The National Estuary Program was reauthorized in 2016 \6\ 
to provide $26,500,000 for each of the fiscal years 2017-2021. 
Appropriated amounts for that time period have been above the 
authorized levels, at $26,723,000. For FY 2020, H.R. 3055, 
which includes the Interior, Environment, and Related Agencies 
Appropriations bill in Division C, includes $31,723,000 in 
funding for the program, an increase of $5,000,000.
---------------------------------------------------------------------------
    \6\ P.L 114-162.
---------------------------------------------------------------------------

THE GREAT LAKES

    The Great Lakes Basin includes parts of the states of 
Minnesota, Wisconsin, Illinois, Indiana, Ohio, Pennsylvania, 
and New York, all of the State of Michigan, and part of 
Ontario, Canada. The Great Lakes Basin is home to more than 30 
million people, representing one tenth of the U.S. population 
and nearly one third of the Canadian population.\7\ The Great 
Lakes is the largest freshwater system in the world, holding 
about 21 percent of the world's fresh water supply and about 84 
percent of the U.S. fresh water supply.\8\
---------------------------------------------------------------------------
    \7\ https://www.epa.gov/greatlakes/facts-and-figures-about-great-
lakes.
    \8\ Ibid.
---------------------------------------------------------------------------
    Agriculture, industrialization, and development have 
impacted the Great Lakes ecosystem. The Great Lakes are 
particularly vulnerable to contamination because outflow rates 
from most of the Lakes are very slow and they do not flush 
pollutants out quickly. As a result, some pollutants discharged 
into the Great Lakes have settled into the sediments at the 
bottom in portions of the Lakes.
    Non-indigenous species and excessive nutrients from a 
variety of sources have significantly impacted portions of the 
Great Lakes ecosystem, causing ecological and economic damage. 
For example, in 2014, Toledo, Ohio, implemented a drinking 
water ban that affected 500,000 people in response to a harmful 
algal bloom caused in part by excessive nutrient runoff. In 
addition, decades of industrial activity in the region have 
left a legacy of polychlorinated biphenyl (PCB) and other 
contamination in sediments.\9\ While efforts have been made to 
address these problems, there remain serious concerns in 
numerous areas.
---------------------------------------------------------------------------
    \9\ GAO-15-841T, Testimony Before the Subcommittee on Water 
Resource and Environment, Committee on Transportation and 
Infrastructure, House of Representatives, Great Lakes Restoration 
Initiative: Some Information on Projects and Progress Made Available to 
Congress and the Public.
---------------------------------------------------------------------------
    In 2004, Executive Order 13340 was issued, creating the 
Great Lakes Interagency Task Force (Task Force). The Task 
Force's charge is to address nationally significant 
environmental and natural resource issues involving the Great 
Lakes. In 2010, Congress established the Great Lakes 
Restoration Initiative (GLRI) to provide additional resources 
toward critical long-term goals for the Great Lakes ecosystem, 
and its progress is overseen by the Task Force.\10\ Task Force 
agencies conduct work themselves or through agreements with 
state, local, or tribal government entities, nongovernmental 
organizations, academic institutions, or other entities.
---------------------------------------------------------------------------
    \10\ 33 U.S.C. Sec. 1268.
---------------------------------------------------------------------------
    The Great Lakes program is authorized by section 118 of the 
Federal Water Pollution Control Act (33 U.S.C. Sec. 1268; 
commonly referred to as the Clean Water Act). The President's 
FY 2020 budget originally requested $30 million for the GLRI, 
and then subsequently changed the request to $300 million. 
Congress funded this program at $300 million in FY 2019. H.R. 
3055, which includes the Interior, Environment, and Related 
Agencies Appropriations bill in Division C, includes $320 
million in FY 2020 funding for GLRI.

SAN FRANCISCO BAY ESTUARY

    The San Francisco Bay Estuary is one of the largest 
estuaries on the west coast, encompassing roughly 1,600 square 
miles and draining more than 40 percent of the State of 
California. The San Francisco Bay is one of three major 
geographic areas within the San Francisco Bay Delta watershed, 
which cumulatively provides drinking water to nearly 25 million 
Californians and irrigates over 4 million acres of 
farmland.\11\ The Bay is located in an area that produces over 
$370 billion in goods and services a year and is home to more 
than 3.5 million jobs. The Estuary is home to an array of flora 
and fauna, with nearly half of the birds that migrate along the 
Pacific Flyway and about two-thirds of the State's salmon 
passing through the Estuary.\12\
---------------------------------------------------------------------------
    \11\ https://www.epa.gov/sfbay-delta/about-watershed#about.
    \12\ EPA, National Estuary Program Coastal Condition Report, EPA-
842/B-06/001 (2006).
---------------------------------------------------------------------------
    The San Francisco Bay experiences exceedances in State 
water quality standards for pesticides, invasive species, 
mercury, and other metals and toxic substances. Beaches have 
elevated levels of bacteria because of sewage spills and 
crumbling sewage infrastructure. According to the EPA, the Bay 
has lost more than 90 percent of shoreline wetlands and 40 
percent of the total San Francisco Bay aquatic ecosystem in the 
past 150 years due to habitat destruction.\13\
---------------------------------------------------------------------------
    \13\ https://www.epa.gov/sfbay-delta/what-are-challenges.
---------------------------------------------------------------------------
    In 1993, the San Francisco Estuary entered the EPA's NEP. 
Through the NEP, a Comprehensive Conservation and Management 
Plan (CCMP) was developed and serves as the blueprint for 
addressing the San Francisco Bay's challenges.
    In August 2018, the Government Accountability Office (GAO) 
published a report on the coordination of watershed restoration 
efforts between Federal and nonfederal entities in the San 
Francisco Bay Delta Watershed.\14\ GAO found that ``information 
on the status of all restoration efforts across the watershed, 
including their accomplishments, is unknown because information 
is not being fully collected or reported.'' \15\ As a result, 
GAO recommended that the Department of Interior work with the 
Council on Environmental Quality to update or revise the 
Interim Federal Action Plan for the California Bay-Delta to 
reflect different entity roles and responsibilities. 
Additionally, GAO also noted that the lack of sufficient 
federal funding is one of the biggest risks to long-term 
restoration efforts.\16\
---------------------------------------------------------------------------
    \14\ GAO-18-473, San Francisco Bay Delta Watershed: Wide Range of 
Restoration Efforts Need Updated federal Reporting and Coordination 
Roles.
    \15\ GAO-18-473, San Francisco Bay Delta Watershed: Wide Range of 
Restoration Efforts Need Updated federal Reporting and Coordination 
Roles.
    \16\ Ibid.
---------------------------------------------------------------------------
    The San Francisco Bay Restoration Act, H.R. 1132, has been 
introduced to establish a San Francisco Bay Restoration Grant 
Program and to authorize appropriations for Bay restoration 
activities. H.R. 3055, which includes the Interior, 
Environment, and Related Agencies Appropriations bill in 
Division C, includes $5,019,000 in FY 2020 funding for the San 
Francisco Bay.

PUGET SOUND

    The Puget Sound is the nation's second largest estuary, 
supporting more than 4.5 million people, more than $365 million 
in gross domestic product, and a wide variety of species. 
However, according to the CCMP for the Puget Sound, development 
and human use have degraded its water quality and habitat, and 
harmed critical species like salmon and killer whales.
    In July 2018, GAO published a report on numerous Federal 
and state efforts that support Puget Sound restoration, and the 
efficacy of their coordination.\17\ GAO found that Federal and 
Washington State entities engaged in a number of activities, 
including habitat protection, water quality improvement, and 
monitoring.\18\ Funding for these efforts came from a variety 
of sources, including the EPA, which reported spending about 
$142 million for activities in Puget Sound through the NEP and 
the Puget Sound Geographic Program from 2012 to 2016.
---------------------------------------------------------------------------
    \17\ GAO-18-453, Puget Sound Restoration: Additional Actions Could 
Improve Assessments of Progress.
    \18\ Id.
---------------------------------------------------------------------------
    Federal and nonfederal entities coordinate restoration 
efforts through two primary interagency groups: the state-led 
Puget Sound Management Conference and the Puget Sound Federal 
Task Force. The task force complements the work of the 
management conference by coordinating the efforts of Federal 
agencies to support the CCMP.
    The PUGET SOS Act, H.R. 2247, has been introduced to 
support Puget Sound programs and to provide funding for 
restoration activities. H.R. 3055, which includes the Interior, 
Environment, and Related Agencies Appropriations bill in 
Division C, includes $33 million in FY 2020 funding for the 
Puget Sound.

CHESAPEAKE BAY

    The Chesapeake Bay is the largest of the Nation's 
estuaries. Primarily located between Maryland and Virginia, it 
is nearly 200 miles long, 35 miles wide at its largest point, 
and covers more than 4,500 square miles. The watershed includes 
the District of Columbia and parts of six states: Delaware, 
Maryland, New York, Pennsylvania, Virginia, and West Virginia. 
The Chesapeake Bay covers approximately 64,000 square miles and 
is a rich habitat for a wide variety of plants and animals. It 
is home to more than 3,700 species of plants and animals 
including blue crabs, ducks, herring, oysters, shad, and 
striped bass.
    In 1983, the states of Maryland, Pennsylvania, and 
Virginia, the District of Columbia, the Chesapeake Bay 
Commission (the Bay Commission),\19\ and the EPA signed an 
initial Chesapeake Bay Agreement (the Bay Agreement) with the 
aim of protecting and restoring the Bay. The Bay Agreement 
established the Chesapeake Executive Council and created the 
Bay Program, a partnership between Federal, state, and local 
entities, as well as academic institutions, and nonprofit 
organizations that direct and conduct activities towards the 
restoration of the Bay.
---------------------------------------------------------------------------
    \19\ The Bay Commission is a tristate commission representing 
Maryland, Pennsylvania, and Virginia.
---------------------------------------------------------------------------
    Subsequent Bay Agreements were signed by the states of 
Maryland, Pennsylvania, and Virginia, the District of Columbia, 
the Bay Commission, and the EPA in 1987, 1992, and 2000, with 
West Virginia adding its signature in 2002. In 2006, senior EPA 
managers, and in 2007, the Executive Council acknowledged that 
the water quality goals of Chesapeake Bay Agreement 2000 would 
not be achieved. As a result, in 2010, the Bay Program and EPA 
established a Total Maximum Daily Load (TMDL) for the bay and 
upstream waters in the watershed. According to the EPA, the 
TMDL is an allocation of allowable waste loadings to the Bay 
from various sources that should result in the restoration of 
water quality in the Chesapeake Bay watershed. The Program is 
authorized through section 117 of the Clean Water Act.\20\ The 
EPA's Chesapeake Bay Program Office, based in Annapolis, 
Maryland, provides support to the Bay Program.
---------------------------------------------------------------------------
    \20\ 33 U.S.C. Sec. 1267.
---------------------------------------------------------------------------
    The Chesapeake Bay ecosystem, including water quality, is 
under stress. Sustained and elevated levels of pollution have 
resulted in water quality and habitat degradation and have also 
contributed to the decline in population of some species. 
According to the EPA, the key to restoring water quality in the 
Chesapeake Bay watershed is to achieve significant reductions 
in nutrients (nitrogen and phosphorus) and sediment loads. The 
sources of these pollutants consist of agricultural runoff, 
wastewater treatment facilities, land-use changes and urban 
stormwater runoff, and atmospheric deposition.\21\
---------------------------------------------------------------------------
    \21\ EPA, Chesapeake Bay Compliance and Enforcement Strategy, May 
2010. https://www.epa.gov/sites/production/files/2015-04/documents/
chesapeake-strategy-enforcement-2.pdf
---------------------------------------------------------------------------
    In 2017, the EPA completed a midpoint assessment of state 
and Federal agency efforts to reduce nutrient and sediment 
pollution into the Chesapeake Bay. The EPA found that the six 
Chesapeake Bay watershed states and the District of Columbia 
have made considerable progress in reducing pollution to local 
waters and the Chesapeake Bay, resulting in record acreage of 
underwater grasses and the highest estimates of water quality 
standards attained in more than 30 years.\22\
---------------------------------------------------------------------------
    \22\ EPA, Midpoint Assessment of the Chesapeake Bay Total Maximum 
Daily Load, July 27, 2018. https://www.epa.gov/sites/production/files/
2018-07/documents/factsheet-epa-midpoint-assessment-chesapeake-bay-
tmdl.pdf
---------------------------------------------------------------------------
    The President's FY2020 budget requested $7.3 million for 
the Chesapeake Bay Program. Congress funded this program at $73 
million in FY 2019. H.R. 3055, which includes the Interior, 
Environment, and Related Agencies Appropriations bill in 
Division C, includes $85 million in FY 2020 funding for the 
Chesapeake Bay Program.

LAKE PONTCHARTRAIN BASIN

    The Lake Pontchartrain Basin watershed covers a 5,000 
square mile area and includes 16 Louisiana parishes and four 
Mississippi counties. Approximately 2.2 million people live in 
the area of Lake Pontchartrain, the 630 square mile lake at the 
center of the basin, making it the most densely populated area 
in Louisiana. The Basin also includes Lakes Borgne and 
Maurepas. Together these three lakes comprise one of the 
largest estuaries in the U.S. The Basin supports numerous 
species of fish, birds, mammals, and plants, and its fisheries 
contribute over $35 million to the local economy by providing 
much of the seafood harvested in the Gulf Coast.\23\
---------------------------------------------------------------------------
    \23\ https://saveourlake.org/about-us/our-basin/basin-issues.
---------------------------------------------------------------------------
    Although Lake Pontchartrain and its surrounding area 
continue to face environmental challenges, the Basin and its 
resources have made a significant comeback. Much of this 
success is due to a collaborative effort between Federal, 
state, and local entities who share an interest in a clean, 
healthy Lake and Basin.
    The Lake Pontchartrain Basin Restoration Program was 
created in 2000 as part of the Estuaries and Clean Waters 
Act.\24\ H.R. 3055, which includes the Interior, Environment, 
and Related Agencies Appropriations bill in Division C, 
includes $948,000 in FY 2020 funding for the Lake Pontchartrain 
Basin.
---------------------------------------------------------------------------
    \24\ P.L. 106-457.
---------------------------------------------------------------------------

                               WITNESSES

    <bullet>  Preston D. Cole, Secretary, Wisconsin Department 
of Natural Resources
    <bullet>  Dave Pine, Supervisor, District 1, San Mateo 
County Board of Supervisors, Chair of the San Francisco Bay 
Restoration Authority Governing Board
    <bullet>  Laura Blackmore, Executive Director, Puget Sound 
Partnership
    <bullet>  William C. Baker, President, Chesapeake Bay 
Foundation
    <bullet>  Kristi Trail, Executive Director, Lake 
Pontchartrain Basin Foundation
    <bullet>  Tom Ford, Director, Santa Monica Bay National 
Estuary Program, The Bay Foundation

 
            PROTECTING AND RESTORING AMERICA'S ICONIC WATERS

                              ----------                              


                         TUESDAY, JUNE 25, 2019

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2167 Rayburn House Office Building, Hon. Grace F. 
Napolitano (Chairwoman of the subcommittee) presiding.
    Mrs. Napolitano. Good morning, everybody. It is good to 
have you here today.
    I am calling this meeting to order.
    Today we will discuss the importance of the Environmental 
Protection Agency's, EPA's, geographic programs and National 
Estuary Program, the NEP.
    EPA's geographic programs help to identify and assist 
specific areas across a region, often across multiple States. 
Funding for these programs has been key to protecting and 
restoring some of the most cherished waterways in the Nation.
    The National Estuary Program focuses on restoring and 
protecting 28 estuaries of national significance across the 
country.
    Estuaries and coastal areas are major economic drivers, 
accounting for some 28 million jobs, and these areas are 
locations for ports and harbors. They need protection since 
impaired estuaries can actually impact fishing and tourism 
revenues, cause costly damage from flooding, shoreline erosion, 
and damaged infrastructure.
    The Trump administration has proposed drastically cutting 
funding for the geographic programs and the NEP. Fortunately, 
Congress has restored funding for these important efforts.
    However, we need to renew our commitment to these programs 
and the protection of our Nation's waters. Despite efforts by 
the States, and in some places, voluntary efforts, progress has 
been slow, and we need to do more to protect and restore our 
Nation's iconic waters.
    Congress needs to step up and provide funding and the 
appropriate authorities to EPA to restore these watersheds. 
That is why I appreciate the efforts of my colleagues to 
prioritize and fund these programs.
    Congresswoman Luria has legislation to reauthorize and 
increase funding for the Chesapeake Bay Program. Congressman 
Heck has legislation to authorize a program for Puget Sound.
    Congresswoman Speier has legislation to address pollution 
issues in the San Francisco Bay, and I expect that we will see 
later this Congress legislation to address the Great Lakes 
Restoration Initiative and the National Estuary Program.
    I thank my colleagues for stepping up to deal with this 
important water quality issue. Today's hearing will be an 
opportunity to hear about the current impairments, challenges, 
and recommendations for improving these waters.
    I look forward to hearing from our witnesses today on the 
value of our Nation's water and estuaries to our country.
    Thank you to the witnesses for being here today, and to all 
of you, I am pleased to see you.
    Thank you especially to Mr. Tom Ford, executive director of 
The Bay Foundation who is here today to talk about the Santa 
Monica National Estuary Program in southern California, my 
area.
    I look forward to everybody's testimony.
    [Mrs. Napolitano's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Grace F. Napolitano, a Representative in 
Congress from the State of California, and Chairwoman, Subcommittee on 
                    Water Resources and Environment
    Today, we will discuss the importance of the Environmental 
Protection Agency's (EPA's) Geographic Programs and the National 
Estuary Program (NEP).
    EPA's Geographic Programs help to identify and assist specific 
areas across a region, often across multiple states. Funding for these 
programs has been key to protecting and restoring some of the most 
cherished waterways in the nation. The National Estuary Program (NEP) 
focuses on restoring and protecting 28 estuaries of national 
significance across the country.
    Estuaries and coastal areas are major economic drivers, accounting 
for some 28 million jobs. These areas are locations for ports and 
harbors. They need protection since impaired estuaries can impact 
fishing and tourism revenues, and cause costly damage from flooding, 
shoreline erosion, and damaged infrastructure.
    The Trump administration has proposed drastically cutting funding 
for the Geographic Programs and the NEP. Fortunately, Congress has 
restored funding for these important efforts. However, we need to renew 
our commitment to these programs and the protection of our nation's 
waters.
    Despite efforts by the States and, in some places, voluntary 
efforts, progress has been slow and, we need to do more to protect and 
restore our nation's iconic waters. Congress needs to step up and 
provide funding and the appropriate authorities to the EPA to restore 
these watersheds.
    That is why I appreciate the efforts of my colleagues to prioritize 
and fund these programs. Congresswoman Luria has legislation to 
reauthorize and increase funding for the Chesapeake Bay Program; 
Congressman Heck has legislation to authorize a program for the Puget 
Sound; and Congresswoman Speier has legislation to address pollution 
issues in San Francisco Bay. I expect that we will see legislation 
later this Congress to address the Great Lakes Restoration Initiative 
and the National Estuary Program. I thank my colleagues for stepping up 
to deal with these important water quality issues.
    Today's hearing will be an opportunity to hear about current 
impairments, challenges, and recommendations for improving these 
important waters. I look forward to hearing from our witnesses today on 
the value of our nation's waters and estuaries to our country.
    Thank you witnesses for being here today. Thank you especially to 
Tom Ford, Executive Director of The Bay Foundation, who is here today 
to talk about the Santa Monica National Estuary Program in Southern 
California.
    I look forward to everyone's testimony.

    Mrs. Napolitano. At this time I am pleased to yield to my 
colleague, the ranking member of our subcommittee, Mr. 
Westerman, for any thoughts he may have.
    Mr. Westerman. Thank you, Chairwoman Napolitano.
    And thank you all for being here today.
    This subcommittee is meeting today to hear testimony on 
regional watershed programs and water bodies in areas that are 
part of EPA's National Estuary Program.
    Estuaries are unique and highly productive waters that are 
important to the ecological and economic basis of our Nation. 
Fisheries, wildlife, recreation, and tourism are heavily 
dependent on healthy estuarine systems.
    For example, the Lake Pontchartrain Basin in Louisiana is 
home to 22 essential habitats, and its fisheries provide much 
of the seafood harvested along the gulf coast. Yet despite 
their value, most estuaries in the United States have 
experienced stress from physical alteration and pollution, 
often resulting from development and rapid population growth in 
coastal areas.
    EPA's estuary program identifies nationally significant 
estuaries that are threatened by pollution, land development, 
and overuse, and provides grants that support development of 
management plans to protect and restore them.
    This program is designed to resolve issues at the watershed 
level, integrate science into the decisionmaking process, 
foster collaborative problem solving, and involve the public.
    Unlike many other EPA and State programs that rely on 
conventional top-down regulatory measures to achieve 
environmental goals, the estuary program uses a framework that 
focuses on stakeholder involvement and interaction in tailoring 
solutions for problems that are specific to that region.
    This approach helps achieve protection and restoration 
goals. We need to be sure that the individual estuary programs 
continue to effectively implement their management plans for 
protecting and restoring estuaries.
    We also need to be careful not to add new layers of 
programmatic bureaucracy on any of the programs that could 
divert valuable resources away from actually implementing their 
plans.
    I look forward to the testimony of our witnesses today and 
learning about the progress that is being made in these 
estuaries and watersheds.
    [Mr. Westerman's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Hon. Bruce Westerman, a Representative in 
 Congress from the State of Arkansas, and Ranking Member, Subcommittee 
                   on Water Resources and Environment
    The Subcommittee is meeting today to hear testimony on regional 
watershed programs and water bodies and areas that are part of EPA's 
National Estuary Program.
    Estuaries are unique and highly productive waters that are 
important to the ecological and economic bases of our nation. 
Fisheries, wildlife, recreation, and tourism are heavily dependent on 
healthy estuarine systems. For example, the Lake Pontchartrain Basin in 
Louisiana is home to 22 essential habitats, and its fisheries provide 
much of the seafood harvested along the Gulf Coast.
    Yet, despite their value, most estuaries in the United States have 
experienced stress from physical alteration and pollution, often 
resulting from development and rapid population growth in coastal 
areas.
    EPA's Estuary Program identifies nationally significant estuaries 
that are threatened by pollution, land development, and overuse, and 
provides grants that support development of management plans to protect 
and restore them. This program is designed to resolve issues at a 
watershed level, integrate science into the decision-making process, 
foster collaborative problem-solving, and involve the public.
    Unlike many other EPA and state programs that rely on conventional 
top-down regulatory measures to achieve environmental goals, the 
Estuary Program uses a framework that focuses on stakeholder 
involvement and interaction in tailoring solutions for problems that 
are specific to that region. This approach helps achieve protection and 
restoration goals.
    We need to be sure that the individual estuary programs continue to 
effectively implement their management plans for protecting and 
restoring estuaries.
    We also need to be careful not to add new layers of programmatic 
bureaucracy on any of the programs that could divert valuable resources 
away from implementing their plans.
    I look forward to the testimony of our witnesses today and learning 
about the progress made in these estuaries and watersheds.

    Mr. Westerman. And I yield back.
    Mrs. Napolitano. Thank you, sir.
    The Chair now recognizes Mr. DeFazio, for any statement he 
may have.
    Mr. DeFazio. I thank the chair. Thank you for holding this 
extraordinarily important hearing.
    We can approach the issue from one of many ways. If you are 
really hard-hearted and you really do not believe in protecting 
the environment and the cost of protecting the environment or 
enhancing and restoring the environment, you can just look at 
the economic impact.
    In coastal States, the estuaries contribute $116 billion 
annually to the economy. Two million people are employed by 
ocean estuary-based tourism and recreation. Eighty percent of 
the commercial and recreational fish caught depend on estuaries 
for part of their lives.
    So those are just a few of the reasons why we need to 
support these programs.
    There is a lot of talk about tropical forests as the lungs 
of the world. Well, the estuary is the beating heart of a 
healthy marine ocean system.
    And so, I am pleased that we are here today. The Chesapeake 
has made scant progress, unfortunately, and needs more 
attention.
    The Great Lakes, we have ongoing issues. The Puget Sound, 
in particular, down in the southern part of the sound, has 
issues. I was up there for some meetings. I think it was the 
year before last. They made me an honorary member of the Puget 
Sound Caucus.
    Of course, I represent Oregon. I have critical estuaries in 
my district which are in much better shape, much less known, 
and of course, we did add the Columbia River Basin to the list 
of geographic programs in 2016.
    So we have at least begun to focus on the problems, but a 
heck of a lot more work needs to be done, and that is why we 
are here today.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
     Congress from the State of Oregon, and Chairman, Committee on 
                   Transportation and Infrastructure
    Estuaries are critical water bodies for the ecological and economic 
health of our communities, and there is a national interest in their 
protection and enhancement. These waters are economic centers in 
coastal states, delivering more than 80 percent to U.S. employment and 
contributing $116 billion annually to the economy. More than two 
million people are employed by ocean and estuary-based tourism and 
recreation. Almost 80 percent of the commercial and recreational fish 
caught depend on estuaries for part of their lives. These are just a 
few of the reasons why we need to protect and restore these waters.
    As we know, healthy coastal areas are also important to ameliorate 
the impacts of extreme weather events and ensure the resiliency of our 
communities. By restoring and protecting our coasts, we can lessen the 
impacts of hurricanes and other storm events that cause physical and 
economic damage to our communities.
    Today, we will be hearing from stakeholders from different parts of 
the country about the importance of the Environmental Protection 
Agency's (EPAs) Geographic Programs and the National Estuary Program 
(NEP). I look forward to learning about the successes of and challenges 
to these programs and hearing recommendations on how to ensure 
continued restoration and protection of these important watersheds.
    We have seen results when we invest in our national, natural 
treasures. The Geographic Programs have made great strides in improving 
the health of places like the Chesapeake Bay and the Great Lakes, and 
in 2016, we were successful in adding the Columbia River Basin to the 
list of Geographic Programs. Similarly, EPA's National Estuary Program 
has made strides towards improving our nation's estuaries.
    NEPs support local stakeholders as partners to develop solutions 
and fund local priorities. NEPs engage industries, businesses, and 
other community members to develop solutions that everyone can support. 
The strength of the National Estuary Program is the 28 unique, 
voluntary programs established under the Clean Water Act to protect and 
restore estuaries of national significance.
    Each NEP marshals its local community in a non-regulatory, 
collaborative, and science-based strategy that strengthens the overall 
success of our national response. For each dollar the Federal 
government provides, NEPs leverage their response with $19 in local 
funds. These funds are used to protect and improve coastal 
environments, communities, and assets of national significance, and 
economies.
    Investing in these programs is an investment in America's future. 
Protecting our estuaries, regional watersheds, and coastal areas is 
necessary to protecting our economy, fish and wildlife, and the homes 
and jobs of millions of people.
    Unfortunately, the Trump administration does not seem to understand 
the importance of these programs and continues to propose cutting 
severely or altogether eliminating programs focused on protecting our 
nation's important waters--unless, of course, there is a political 
advantage for supporting these programs. For example, the Trump 
administration recently decided to support $300 million in funding for 
the Great Lakes after initially proposing only $30 million in the 
President's budget.
    This is short-sighted given the economic importance of estuaries 
and coastal areas, investing in their health will result in more 
economic benefits.
    We need to set a better example than the current administration and 
use our Congressional authority to continue these programs and to fund 
the restoration of geographically-important regions and estuaries.

    Mr. DeFazio. And I thank the gentlelady for holding the 
hearing.
    Mrs. Napolitano. Thank you, Mr. DeFazio.
    Next, I will recognize Mr. Garret Graves.
    Mr. Graves of Louisiana. Thank you, Madam Chair.
    Madam Chair, I appreciate the opportunity to be here today, 
and I want to thank you all for hosting this hearing. These are 
some of the most important estuaries that our Nation has to 
offer that are represented here on the panel today, but I am 
especially excited to introduce Ms. Kristi Trail from Lake 
Pontchartrain Basin Foundation.
    She is a great asset to the State of Louisiana. The Lake 
Pontchartrain Basin Foundation is a critical organization. I 
remind this committee often that we drain from Montana to New 
York to three Canadian Provinces and all drain down through our 
area.
    Right now we are seeing record time of flood stage in the 
Mississippi River system. We normally open the Bonnet Carre 
spillway that flows through Lake Pontchartrain once every 10 
years. We have opened it four times in the last 4 years.
    Congressman Rodney Davis from Illinois calls Louisiana his 
sewage treatment plant. I am not sure that is a compliment, but 
the bottom line is that all of this development and everything 
that happens in the upper basin comes down and affects our 
State.
    And while I know that everyone has their challenges in 
managing these estuaries, Ms. Trail, environmental engineer, 
LSU grad, and much corporate work experience in the engineering 
field is, again, a great asset to the organization. It is 
fantastic and they have some incredible challenges dealing with 
the complexity of the ecosystem.
    So I appreciate you inviting her and allowing her to be 
here today.
    Mrs. Napolitano. Thank you, Mr. Graves.
    I ask unanimous consent that the following statements be 
made part of today's hearing record:
    Representative Jackie Speier in support of the San 
Francisco Bay Restoration Act;
    Representative Elaine Luria, in support of the Chesapeake 
Bay Program Reauthorization Act;
    Michigan Governor Whitmer; Sheboygan County, Wisconsin; the 
Great Lakes Commission; and Healing Our Waters-Great Lakes 
Coalition, in support of the Great Lakes Restoration 
Initiative.
    Any objection?
    [No response.]
    Mrs. Napolitano. So ordered.
    [The information is on pages 69-82.]
    Mrs. Napolitano. We will proceed to hear from our witnesses 
who are going to be testifying today. Thank you for being here, 
and welcome.
    We have Secretary Preston Cole with the Wisconsin 
Department of Natural Resources.
    Supervisor Dave Pine with the San Mateo County Board of 
Supervisors.
    Ms. Laura Blackmore, executive director of the Puget Sound 
Partnership.
    Mr. William C. Baker, president of the Chesapeake Bay 
Foundation.
    Since Mr. Graves already introduced Ms. Kristi Trail, I 
will turn it over to my colleague, Mr. Rouda, to introduce the 
witness, Mr. Tom Ford, director of the Santa Monica Bay 
National Estuary Program.
    Mr. Rouda. Thank you, Chairwoman.
    I am pleased to introduce Tom Ford, the director of the 
Santa Monica Bay National Estuary Program and executive 
director of The Bay Foundation.
    Tom has been engaged in the study and restoration of kelp 
forests since he first moved to L.A. in the 1990s, and his 
efforts to promote fisheries and increase coastal resilience 
has been internationally recognized.
    His work helps ensure that residents and visitors from 
around the world are able to enjoy and benefit from the Santa 
Monica Bay's over 55 miles of coastline that contains some of 
the world's most loved beaches.
    Estuaries like the Santa Monica Bay play an important role 
in coastal economies, habitat protection, and as key buffer 
zones for coastal communities and inland waterways, especially 
in the wake of continued sea level rise, increasingly severe 
storm surges, and dangerous flooding.
    I commend Tom's longstanding commitment to restoring, 
preserving, protecting, and enhancing the Santa Monica Bay 
National Estuary, and I appreciate the many hours that he has 
dedicated to ensuring the high quality of life with the 
approximately 5,000 species and over 4 million people that call 
the Santa Monica Bay and its watershed home.
    Southern California is better off for his continued 
research, critical pollution and ecological monitoring, and 
advocacy work, and I am grateful for his participation in 
today's hearing.
    Thank you. I yield back.
    Mrs. Napolitano. Thank you, Mr. Rouda.
    Without objection, your prepared statements will be entered 
into the record, and our witnesses are asked to limit your 
remarks to 5 minutes.
    Mr. Cole, you may proceed.

 TESTIMONY OF PRESTON D. COLE, SECRETARY, WISCONSIN DEPARTMENT 
 OF NATURAL RESOURCES; DAVE PINE, SUPERVISOR, FIRST DISTRICT, 
SAN MATEO COUNTY BOARD OF SUPERVISORS, AND CHAIR, SAN FRANCISCO 
   BAY RESTORATION AUTHORITY; LAURA L. BLACKMORE, EXECUTIVE 
DIRECTOR, PUGET SOUND PARTNERSHIP; WILLIAM C. BAKER, PRESIDENT, 
 CHESAPEAKE BAY FOUNDATION; KRISTI TRAIL, EXECUTIVE DIRECTOR, 
 LAKE PONTCHARTRAIN BASIN FOUNDATION; AND TOM FORD, DIRECTOR, 
    SANTA MONICA BAY NATIONAL ESTUARY PROGRAM AND EXECUTIVE 
DIRECTOR, THE BAY FOUNDATION, ALSO ON BEHALF OF THE ASSOCIATION 
                  OF NATIONAL ESTUARY PROGRAMS

    Mr. Cole. Thank you, Madam Chair.
    I am coming to you on the heels of the Great Lakes and St. 
Lawrence Governors and Premiers Conference held in Milwaukee, 
Wisconsin, and where Governor Tony Evers is the chair of that 
group, and certainly I am representing him here today from the 
great State of Wisconsin.
    Chairwoman Napolitano, Ranking Member Bruce Westerman and 
Mr. DeFazio, thank you for this opportunity to speak with you 
today on behalf of the Governor of Wisconsin, Tony Evers, and 
the eight Great Lakes States.
    As you have seen in my written testimony, the Great Lakes--
Superior, Huron, Michigan, Ontario, and Erie--are a national 
treasure, with 30 million Americans depending on them for 
clean, fresh water.
    Sometimes referred to as the ``Nation's fourth coast,'' the 
Great Lakes are a breathtaking place to watch a sunrise or the 
perfect backdrop for making memories.
    But our Great Lakes are more than just nice to look at. 
These are waters that are the largest source of freshwater on 
the planet, a lifeline for millions of people. They provide a 
backbone for a $6 trillion regional economy, making it the 
third largest regional economy in the world.
    And they generate more than 1.5 million jobs and $60 
billion in wages each year, which is why protecting and 
restoring these irreplaceable waters is a nonpartisan priority 
for the people in the Great Lakes region.
    Wisconsin is part of this region, and it is home to an 
abundance of natural resources, including our precious waters. 
With more than 1,000 miles of shoreline, the Great Lakes have a 
profound effect on Wisconsin's environment, our economy, our 
culture, and our quality of life.
    To give you an idea of the impact on Wisconsin, consider 
this. More than 1.6 million Wisconsinites get their drinking 
water from Lake Michigan or Lake Superior.
    Nearly 50 percent of the State's gross domestic product 
originates in coastal counties.
    More than $7 billion in cargo moves through Wisconsin's 
ports each year, contributing to $1.1 billion of business 
revenue and generating $241 million in taxes.
    In Wisconsin, the Great Lakes and rivers that feed them 
have a long history as important centers of trade and industry.
    But as our cities grew, these economic hubs, rivers, and 
harbors were polluted. Vital fish and wildlife habitats were 
lost. Polluted runoff from excess nutrients has caused harmful 
algal blooms from Green Bay to Lake Erie.
    And now, these impacts are keeping us from experiencing 
these waters in their fullest potential.
    But all is not lost. In 2010, Congress led to establish the 
Great Lakes Restoration Initiative, which is providing an 
enormous boost for the projects that restore our waters.
    For the last 8 years, more than $380 million in Federal 
funding through GLRI has made over 500 projects possible 
throughout Wisconsin and the Great Lakes Basin.
    In many cases, the GLRI funds are leveraged with State 
funds, local units of government, and private funding. This 
cost sharing allows big-ticket projects to be accomplished that 
would be simply too expensive for any one entity to pay for 
alone.
    In Wisconsin, the GLRI is helping protect citizens and our 
natural resources. For example, in the Milwaukee Estuarial 
Concern, more than $31 million of GLRI funds were matched with 
$12 million of Wisconsin State funds to remove 119,000 cubic 
yards of contaminated sediment from the Milwaukee Estuary near 
the heart of the city.
    The end result was the removal of more than 11,000 pounds 
of toxic PCBs from rivers that flow into Lake Michigan.
    It is about an hour's ride from Milwaukee along the lake to 
the Sheboygan River Area of Concern where more than $50 million 
of GLRI funds were matched by $33 million of State funds to 
remove 300,000 cubic yards of contaminated sediment.
    As a result, 39,000 pounds of toxic PCBs were removed, and 
yet thousands of acres of wildlife habit were restored.
    The Demonstration Farms Network in the lower Fox River 
Basin in northeastern Wisconsin is yet another shining example 
of the important contribution that GLRI is making towards 
enhancing Wisconsin's environment and our economy.
    Through this effort, which is led by the NRCS, with support 
from the State and county conservation agencies, farmers are 
demonstrating cutting-edge management practices and sharing 
valuable lessons learned with their peers, from how to improve 
soil health to reducing nutrient runoff into Lake Michigan.
    Mrs. Napolitano. Mr. Cole, your time has expired.
    Mr. Cole. Yes, ma'am.
    However, serious threats still remain. Cutting restoration 
funding will only make projects harder and more expensive.
    We see the Federal Government as a partner in our shared 
goals of healing the lakes through the world's largest 
freshwater projects. Without your help, there will be trouble 
in the water.
    To be candid, at a time when many citizens are concerned 
about what the Federal Government will do for them or to them, 
the Great Lakes Restoration Initiative is a shining example of 
what the Federal Government is doing for them.
    Mrs. Napolitano. Thank you very much, sir.
    Mr. Cole. And thank you for your time.
    [Mr. Cole's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Preston D. Cole, Secretary, Wisconsin Department 
                          of Natural Resources
    Members of the subcommittee. I'm honored to provide this testimony 
and speak with you today regarding this incredible resource that 
accounts for 90% of the United States' fresh surface water--the Great 
Lakes.
    I am also happy to be here today on behalf of my boss, Wisconsin 
Governor Tony Evers. Governor Evers has made clean water a priority, 
declaring 2019 as the Year of Clean Drinking Water in Wisconsin. In 
addition, as chair of the Great Lakes St. Lawrence Governors and 
Premiers, Governor Evers is continuing to lead a regional effort that 
has as its hallmark, broad bipartisan support for these lakes as both 
an environmental and economic juggernaut for North America. In fact, 
nearly two decades ago, the Great Lakes Governors identified nine 
regional priorities that became the basis for the 2005 Great Lakes 
Regional Collaboration Strategy. That ``blueprint for action'' at the 
time estimated that at a minimum we would need $20 billion to address 
all the priorities and since then the region has moved forward with one 
voice, in support of significant federal investment in this strategy to 
protect and restore our Great Lakes.
    Our Great Lakes are the largest system of fresh waters on Earth. It 
is a treasured system, but we need to continue to invest in our Great 
Lakes. The Great Lakes Restoration Initiative (GLRI) has jump started 
the federal commitment to implementing the 2005 collaboration strategy. 
The GLRI is clearly working, but much more needs to be done. Your 
ongoing bipartisan support of the Great Lakes is commendable and a 
testament to the importance of the Great Lakes to our region and 
nation. Over 30 million Americans rely on the Great Lakes for drinking 
water; and the Great Lakes region, if it was a nation, would have the 
world's third largest regional economy at $6 trillion annually, and 
directly generates more than 1.5 million jobs.
    The GLRI investment of more than $3 billion to date is significant 
and represents a healthy down payment to protect and restore the most 
significant fresh, surface water resource on the planet--our Great 
Lakes. Protecting and restoring them is a non-partisan priority for the 
people of Wisconsin, Minnesota, Michigan, Illinois, Indiana, Ohio, 
Pennsylvania, and New York. To date, the GLRI has funded more than 
4,500 projects throughout the region, cleaning up toxic hot spots, 
restoring critical habitat, preventing the spread of invasive species 
and reduce polluted runoff into the region's waterways. These 
investments are not only producing great environmental results, but 
great economic results as well.
    This is why, speaking on behalf of Governor Evers and for the state 
of Wisconsin, I am urging Congress to reauthorize the GLRI for five 
years at $475 million per year--the amount first appropriated in 2010. 
This increase, from the current authorization of $300 million a year 
will build on the important foundation built over the last decade, 
which has proven to be not only a tremendous ecological investment, but 
a wonderful economic investment as well.
                        Economy and Environment
    We have made some important strides in cleaning up our Great Lakes 
and this work we do together has resulted in environmental benefits and 
economic revitalization critical to quality of life of the region and 
nation. Our communities have seen direct benefits with economic 
recovery and people are reconnecting to the water. The GLRI provides 
critical funding for protection and restoration efforts. Since 2010 the 
multi-agency GLRI has provided funding to 15 federal organizations to 
strategically target the biggest threats to the Great Lakes ecosystem 
and to accelerate progress toward achieving the following long-term 
goals:

    <bullet>  Fish safe to eat
    <bullet>  Water safe for recreation
    <bullet>  Safe source of drinking water
    <bullet>  All severely polluted sites, known as ``Areas of Concern 
\1\'' cleaned up
---------------------------------------------------------------------------
    \1\ Areas of Concern were designated by the International Joint 
Commission as geographically-defined sites in the Great Lakes Basin 
having severe environmental pollution. They were designated in 1987 as 
part of an international agreement between the U.S. and Canada known as 
the Great Lakes Water Quality Agreement. There are 43 Areas of Concern 
listed: 26 in the United States, 17 in Canada. So far, four AOCs in the 
U.S. and three in Canada have been cleaned up and removed from this 
list (``delisted''). https://www.epa.gov/great-lakes-aocs
---------------------------------------------------------------------------
    <bullet>  Harmful algal blooms eliminated
    <bullet>  No new self-sustaining invasive species
    <bullet>  Existing invasive species controlled
    <bullet>  Native habitat protected and restored to sustain native 
species.

    For the first year of GLRI, Congress allocated $475 million in 
federal fiscal year 2010. Congress has since allocated approximately 
$300 million for each of the following nine federal fiscal years \2\.
---------------------------------------------------------------------------
    \2\ 2017. U.S. Environmental Protection Agency. Great Lakes 
Restoration Initiative Report to Congress and the President. Pp 26-27. 
https://www.glri.us/sites/default/files/fy2017-glri-report-to-congress-
201902-36pp.pdf. See also: https://www.glri.us/projects#map
---------------------------------------------------------------------------
    State and local governments and nonprofit organizations are 
eligible to receive grants from the U.S. Environmental Protection 
Agency for projects addressing:

    1.  toxic substances;
    2.  invasive species;
    3.  nonpoint source pollution;
    4.  habitat protection and restoration; and
    5.  monitoring.

    Non-governmental groups, industries, businesses, cities, states, 
and tribal governments are forging partnerships and working with 
federal agencies to clean up toxic hot spots, restore fish and wildlife 
habitat, and combat invasive species.
                  Environmental and Economic Benefits
    Cleaning up the Great Lakes is critical for the health and quality 
of life of the region and nation. Here are a few examples:

    <bullet>  GLRI funding is accelerating cleanup of Great Lakes toxic 
hotspots. Work in one of these hotspots in Muskegon, Michigan, is 
projected to increase property values by nearly $12 million, contribute 
$600,000 in new tax revenues annually, and attract 65,000 new visitors, 
generating more than $1 million in new recreational spending.
    <bullet>  GLRI funding is cleaning up a legacy of toxic sediments 
in waterfront areas. Cleanups are ready to begin at 10 sites in five 
states, with 50 contaminated sediment cleanups projected over the next 
five years. Nearly $90 million is needed for toxic sediment cleanups in 
FY 2020, which are projected to leverage more nearly $60 million from 
non-federal partners.
    <bullet>  GLRI funding is helping protect drinking water for 48 
million people by working with farmers to prevent nearly 800,000 pounds 
of phosphorous from polluting the Great Lakes and causing harmful algae 
blooms. In 2014, a toxic bloom cut off access to clean drinking water 
for more than 500,000 people. Blooms also threaten Lake Erie's critical 
$15 billion tourism industry.\3\
---------------------------------------------------------------------------
    \3\ Great Lakes Commission. Mar. 2019. The Great Lakes Restoration 
Initiative: Creating Jobs and Revitalizing Communities. https://
www.glc.org/wp-content/uploads/GLC-GLRI-FactSheet-March2019-FINAL.pdf

    The Great Lakes Restoration Initiative is also creating jobs and 
revitalizing struggling communities across the eight-state Great Lakes 
region. The Great Lakes provide the backbone for a $6 trillion regional 
economy--the world's third largest regional economy. The Great Lakes 
directly generate more than 1.5 million jobs and $60 billion in wages 
annually.
    A recent economics study, sponsored by the Great Lakes Commission 
and the Council of Great Lakes Industries, released in September 2018, 
found that every $1.00 spent on the Great Lakes Restoration Initiative 
from 2010 through 2016 will produce at least $3.35 of additional 
economic activity in the Great Lakes region through 2036. The number 
was even higher in some Great Lakes communities (see chart). For 
instance, each dollar invested in Buffalo, NY and Detroit, MI will 
produce more than $4.00 of additional economic activity through 
2036.\4\
---------------------------------------------------------------------------
    \4\ 2018. University of Michigan Research Seminar in Quantitative 
Economics. Socioeconomic Impacts of the Great Lakes Restoration 
Initiative. https://lsa.umich.edu/econ/rsqe/impact-analysis/great-
lakes-restoration.html. See also: 2018. Great Lakes Commission. 
Assessing the Investment: The Economic Impact of the Great Lakes 
Restoration Initiative. https://www.glc.org/work/blue-economy/GLRI-
economic-impact.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    Other findings of this study conducted by economists at the 
University of Michigan, Central Michigan University, and Duke 
---------------------------------------------------------------------------
University include:

    <bullet>  GLRI has enhanced tourism in the Great Lakes region. 
Every dollar of GLRI project spending from 2010 through 2016 will 
generate $1.62 in economic value in tourism-related industries through 
2036.
    <bullet>  GLRI increased the value that residents place on living 
in coastal areas. Every project dollar spent between 2010 and 2016 
produced quality of life improvements in coastal communities worth 
$1.08 to residents as measured in housing values, which means that 
people place a higher value on living in those communities because of 
GLRI projects.
    <bullet>  The research also shows that, despite being envisioned as 
an environmental program, the GLRI created or supported as many jobs 
per dollar of investment as would be created by a conventional federal 
stimulus program designed to boost job growth. The GLRI created or 
supported an average of 5,180 jobs per year and increased personal 
income by an average of $250 million per year in the Great Lakes region 
from 2010-2016.\5\
---------------------------------------------------------------------------
    \5\ Ibid.

    These economic outcomes are possible because of restoration 
---------------------------------------------------------------------------
successes like these:

    <bullet>  Four of the United States' Areas of Concern have been 
delisted, and an additional eight have completed all management actions 
necessary to delist.
    <bullet>  Between 2010 through 2017, 73 Beneficial Use Impairments 
have been removed in Illinois, Indiana, Michigan, Minnesota, New York, 
Ohio, Pennsylvania, and Wisconsin--more than six times the total number 
of impairments removed in the preceding 22 years. Beneficial Use 
Impairments are the benchmarks of environmental harm and characterize 
AOCs.
    <bullet>  Early detection and monitoring and vital support for the 
Asian Carp Regional Coordinating Committee has prepared the region to 
respond to new and existing aquatic invasive species. Also, federal 
agencies and partners funded work to protect over 18,000 acres from 
terrestrial invasive species. Since the GLRI's inception more than 
134,000 acres have been protected or treated.
    <bullet>  Combined with other funding, farmers implemented 
conservation actions on more than 750,000 acres of rural lands through 
2017 to reduce erosion and farm runoff that feeds toxic algal 
outbreaks. GLRI's supplemental funding helped double farmland under 
conservation around Western Lake Erie, Saginaw Bay, and Green Bay, 
reducing projected phosphorus runoff by nearly 770,000 pounds.
    <bullet>  Habitat connectivity for fish and wildlife is improving 
as the Fish and Wildlife Service, National Park Service, Natural 
Resources Conservation Service, and National Oceanic and Atmospheric 
Administration worked with many partners to restore, protect, or 
enhance over 200,000 acres of wetlands and other habitat. 4,967 river 
miles have also been cleared of dams and barriers resulting in fish 
swimming into stretches of river where they have been absent for 
decades.

    Thanks to the GLRI, environmental cleanup in communities across the 
Great Lakes Basin is paving the way for regional economic recovery and 
re-investment.
             We Must Maintain Support Until the Job is Done
    Even with the tremendous results we are seeing, the Great Lakes 
still face serious threats. Twenty-two U.S. Areas of Concern are still 
contaminated with toxic sediment, threatening the health of people and 
stunting the development of communities. Harmful runoff from farm 
fields continues to pollute our waters, causing toxic algae outbreaks 
that threaten water systems, public health, and economic vitality. 
Habitat loss and aquatic invasive species continue to damage our 
region's outdoor way of life. And communities across the Great Lakes 
region continue to grapple with crumbling, antiquated drinking water 
and wastewater infrastructure and are faced with a staggering $179 
billion over the next 20 years for needed improvements, upgrades, and 
repairs in the eight-state region. Most of these threats 
disproportionately impact people that have historically borne the brunt 
of environmental injustice, underscoring an urgency to address these 
issues for everyone in the region.
    Furthermore, our changing climate is exacerbating all our region's 
challenges. We are seeing effects such as changes in surface water 
temperatures, changes in the frequency and intensity of storm events, 
and more dramatic swings between record-breaking high and low water 
levels in the Great Lakes.
    Ongoing, human-induced climate changes will only bring additional 
changes to the lakes, making existing stresses worse. Increased storm 
intensity and frequency leads to increased loads of nutrients and other 
contaminants such as sediment, pathogens, and chemicals of emerging 
concern. This pollution comes from both nonpoint sources like 
agricultural fields and city streets, and from point sources like 
combined stormwater and sewage overflows in urban areas. These changes 
will challenge infrastructure in both rural and urban areas. The 
general warming of waters due to climate change will also bring both 
new aquatic invasive species threats (such as Asian carp) in addition 
to existing aquatic invasive species that will have new potential to 
expand their range northward. Invasive species already present in the 
lower lakes (such as water chestnut, European frog-bit, and flowering 
rush) all are poised to spread northward.
    Other climate impacts include alterations to lake temperature 
stratification; which changes oxygen levels, internal nutrient cycling, 
the entire ecosystem's food webs--and ultimately the entire assemblage 
of species that can live in these waters. Finally, climate change has 
implications for flooding, water level fluctuations, and sustainable 
water supplies with ongoing questions about overall impacts decades 
into the future. How these changes impact the people living in the 
basin is of great concern.
    The Great Lakes are also facing a new host of chemicals that were 
not understood just a decade ago. Nanoparticles, plastics, 
pharmaceuticals, personal care products, brominated flame retardants, 
per- and polyfluoroalkyl substances (PFAS) are being detected with 
increasing frequency. There are ongoing questions that remain 
unanswered about these new pollutants such as their sources, cycling, 
bioaccumulation through the food chain, exposures and effects, 
including potential implications of multiple chemical exposures.
    We do have solutions to these problems, but we need funding to 
enact them. Congress must continue to fund the Great Lakes Restoration 
Initiative and other fundamental restoration programs that produce 
results. Congressional investments will help communities replace lead 
pipes, address emerging contaminants like PFAS, clean up toxic 
sediments, end polluted stormwater runoff, fix aged sewer lines, and 
keep water affordable and safe for everyone. Congress must support 
action to stop Asian carp and other aquatic invasive species from 
invading the Great Lakes. Congress must support mitigating the damage 
from climate change to help the Great Lakes adapt to a changing 
climate. We also need strong clean water protections, as well as 
institutions that are adequately staffed and funded to enforce the 
protections that we all depend on.
    And the region is ready for these investments. With additional GLRI 
funds, 10 contaminated sediment cleanup projects--in the Detroit River 
(MI), St. Louis River (WI and MN), Niagara River (NY), Cuyahoga River 
(OH), and Milwaukee River (WI)--are ready to break ground in 2020. 
These projects are expected to require $88 million in federal funding 
under the Great Lakes Legacy Act (funded through the GLRI), with 
another $59 million to be provided by non-federal partners. Many other 
site investigations are underway to prepare for cleanup projects in 
coming years. Without GLRI funds, some of Minnesota's $25 million in 
bonding money, for example, could be left on the table.
                               Conclusion
    The Great Lakes Restoration Initiative is working, but much more 
needs to be done. When the initial regional collaboration document was 
developed in 2005, it was estimated that we needed $20 billion dollars 
to address all the needs. So while $3.1 billion appropriated to date 
may seem like a lot of money, it is still just a healthy down payment 
to protect and restore the most significant fresh, surface water 
resource on the planet--our Great Lakes. These investments are not only 
producing great environmental results, but great economic results as 
well. This is why we need to reauthorize the GLRI for five years at 
$475 million per year--the amount first promised in 2010, but only 
appropriated once in the first year.

    Mrs. Napolitano. Thank you.
    The Chair now recognizes Mr. Pine.
    Mr. Pine. Good morning. It is a privilege to testify before 
this committee today.
    San Francisco Bay is an iconic water second to none. It is 
the west coast's largest estuary and drains water from 
approximately 40 percent of California.
    Despite being surrounded by over 7 million people, San 
Francisco Bay is an ecological hot spot with more than 100 
endangered species.
    The bay provides an abundance of recreational 
opportunities, including the 365-mile San Francisco Bay Trail.
    And commercially, the bay contains six ports, is a major 
driver of the tourism industry, and offers an inviting backdrop 
for some of the largest and best known companies in the world, 
which are located on its shoreline.
    So, in short, San Francisco Bay is an ecological, 
commercial, and recreational marvel.
    Since the Gold Rush, there have been three chapters in the 
bay's evolution: degradation, preservation, and now 
restoration. Until the early 1960s, the bay was drastically 
altered by urbanization, salt production, and agricultural uses 
that reduced the bay's size by one-third and destroyed about 80 
percent of the bay's tidal wetlands.
    With the birth of the environmental movement, the second 
chapter of the bay's evolution began as we worked to preserve 
the bay and reduce pollution and bay spill.
    We have now embarked on a new chapter for the bay where we 
are enhancing and restoring this remarkable natural asset to 
the benefit of both people and wildlife.
    In 1999, scientists published the ``Baylands Ecosystem 
Habitat Goals,'' calling for the creation of 100,000 acres of 
healthy tidal wetlands. And tidal wetlands are vitally 
important to the bay's ecosystem. They trap food in runoff, and 
they also provide natural protection against flooding and sea 
level rise.
    Starting from about 30,000 acres of original wetlands, we 
have restored or are in the process of restoring about 18,000 
additional acres. But with approximately 44,000 acres yet to 
restore, much remains to be done.
    A few notable milestones. In 2003, 15,000 acres of South 
Bay saltponds were purchased and are now being restored, and 
this is the largest restoration project in the country west of 
the Mississippi.
    In 2008, the San Francisco Bay Restoration Authority was 
created to raise and allocate local funding for restoration.
    In June 2016, Measure AA, a 20-year, $12 parcel tax was 
passed by 70 percent of the voters across all nine bay area 
counties. Measure AA provides about $25 million annually, or 
$500 million over 20 years, to fund restoration projects.
    In 2018, we initiated the Bay Restoration Regulatory 
Integration Team to expedite and coordinate permitting across 
the six State and Federal agencies.
    But against this positive backdrop, in 2015, scientists 
issued a very serious warning and wake-up call. They reported 
that without accelerating the pace of wetland restoration, 
existing sites that could be restored will be drowned by the 
rising bay waters. They emphasized that tidal marshes 
established by 2030--that is 11 years away--are more likely to 
flourish.
    And that is because at a gradual rate of sea level rise, 
such as what we are experiencing now, marshes can trap sediment 
and keep up as sea level rise accelerates.
    So it is clear we are in a race against time. While many 
building blocks are in place to restore the bay, we are 
hampered by inadequate Federal funding.
    Over the last 10 years, only 28 percent of the funds spent 
on acquisition and restoration of the baylands were from 
Federal sources, and now this is despite the fact that much of 
the restoration has involved property owned by the Federal 
Government.
    Traditionally, Federal funding for other major estuaries 
has dwarfed the amount that the San Francisco Bay has received. 
The EPA-administered San Francisco Bay Water Quality 
Improvement Fund program provides only $5 million annually.
    That is why the legislation introduced by Congresswoman 
Jackie Speier, H.R. 1132, the San Francisco Bay Restoration 
Act, is so timely and important. Her bill would authorize up to 
$25 million annually to the EPA to award grants to bay 
conservation and restoration projects.
    It would also establish a San Francisco Bay Program Office 
within the EPA.
    In conclusion, to restore the bay, we have put in place a 
comprehensive, science-based plan, a 20-year local funding 
source through Measure AA and a collaborative partnership to 
expedite permitting.
    But with sea level rise accelerating, we have limited time 
to complete the remaining restoration work that is needed. The 
missing ingredient is the necessary Federal funding to 
complement our local efforts.
    Thank you.
    [Mr. Pine's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Dave Pine, Supervisor, First District, San Mateo 
 County Board of Supervisors, and Chair, San Francisco Bay Restoration 
                               Authority
                              Introduction
    As a San Mateo County Supervisor, chair of the San Francisco Bay 
Restoration Authority, and a member of the San Francisco Bay 
Conservation and Development Commission, I have worked extensively on 
the intersecting issues of flood control, sea level rise and tidal land 
restoration in San Francisco Bay. It is a privilege to testify before 
this committee today. In my remarks I will review the importance of San 
Francisco Bay, how the Bay has evolved over time, the extensive Bay 
restoration efforts now underway, the urgency of Bay restoration given 
impending sea level rise, and the critical need for more federal 
funding to support this important work.
         Why is the San Francisco Bay an Iconic Body of Water?
    San Francisco Bay is one of our nation's greatest natural treasures 
and the defining feature of the Bay Area. It is the West Coast's 
largest estuary and its waters drain over 40 percent of the state of 
California. San Francisco Bay has over 275 miles of shoreline, which is 
half as long as the entire coast of California.
    Despite being surrounded by dense urban development including some 
of the largest and best known companies in the world, San Francisco Bay 
is one of the nation's most important ecological habitats. Species such 
as steelhead and salmon are present in Bay waters along with 
California's Dungeness crab and halibut. The Bay's salt marshes, 
provide key ecosystem services such as filtering pollutants from creeks 
and stormwater runoff. The Bay is home to more than 100 endangered 
species.
    The Bay is also a key link in the Pacific Flyway. Millions of 
waterfowl annually use the shallow waters of the Bay as a refuge and 
exposed bay muds provide important feeding areas for shorebirds.
    Commercially, the Bay is critically important to trade for the 
Western United States. The Bay contains six major ports for the 
shipping industry. The Port of Oakland is the eighth busiest container 
port in the United States. In addition, the Bay is a critical driver of 
the Bay Area's tourism industry and offers an inviting backdrop for our 
booming technology and biotech sector.
    The Bay also provides an abundance of recreational activities 
including sailing, kayaking, world class kite surfing, fishing, and 
walking, running and biking on the San Francisco Bay Trail. The Bay 
Trail, which just celebrated its 30th anniversary, is a planned 500-
mile path around the entire San Francisco Bay which will connect all 
nine Bay Area counties and 47 cities. To date, 335 miles of the Bay 
Trail have been completed.
    In short, the San Francisco Bay is an ecological, commercial and 
recreational marvel.
              Three Chapters in the history of the SF Bay
    Since the Gold Rush and the rapid growth of the Bay Area's 
population, there have been three chapters in the Bay's evolution: 
degradation, preservation and now restoration.
    Until the early 1960s, the Bay was drastically altered by 
urbanization, salt production and agricultural uses that reduced the 
Bay's size by one-third. During this period, 80% of the Bay's tidal 
wetlands, which once totaled 200,000 acres, were lost and the Bay was 
reduced in size by one third. At one point, the Bay was being filled in 
at a rate of two square miles per year, and raw sewage and chemicals 
flowed into it unchecked. There were dozens of trash dumps lining the 
Bay, and the public had access to less than six miles of shoreline.
    In 1961, the second chapter of the Bay's evolution began with the 
creation of Save The Bay and the movement to stop additional fill along 
the Bay shoreline and continued pollution of the Bay's waters. One 
significant outgrowth of this movement was the creation of the Bay 
Conservation and Development Commission (BCDC) in 1965. The mission of 
BCDC is to protect and enhance San Francisco Bay, minimize Bay fill, 
and increase public access within the Bay's 100-foot shoreline band. 
These efforts were remarkably successful in bringing the Bay back from 
the brink.
    We have now embarked on a new chapter for the Bay where we are 
enhancing and restoring this remarkable natural asset for the benefit 
of both people and wildlife. In 1999, scientists published the Baylands 
Ecosystem Habitat Goals report calling for 100,000 acres of healthy 
tidal wetlands to protect the ecosystem and provide natural flood 
protection. That work is now underway in earnest with approximately 
44,000 acres of healthy tidal wetlands in place and another 35,000 
acres in public ownership and available for restoration.
                     Restoration Milestones to Date
    The Bay Area has taken substantial steps to restore the Bay and is 
well prepared to undertake the vast amount of restoration that is still 
needed. Some notable milestones include the following:

    <bullet>  In 2003, under the leadership of U.S. Senator Dianne 
Feinstein, 15,000 acres of South Bay salt ponds were purchased from 
Cargill Inc. The purchase was funded with approximately $57 million in 
state funds, $35 million from four private foundations, and 
approximately $8 million in federal funds. The restoration of these 
former salt ponds, which are equal in size to Manhattan Island, is the 
largest restoration project in the country west of the Mississippi.
    <bullet>  In 2008, the California Legislature created the San 
Francisco Bay Restoration Authority. The Restoration Authority is a 
regional body with the power to raise and allocate much needed local 
funding for the restoration, enhancement, and protection of wetlands 
and wildlife habitat in the San Francisco Bay and along its shoreline.
    <bullet>  In 2016, the Restoration Authority placed Measure AA on 
the ballot in all nine Bay Area counties--the nation's first-ever 
regional effort to secure climate adaptation and restoration funding. 
The measure proposed a 20-year, $12 parcel tax to raise approximately 
$25 million annually, or $500 million over twenty years, to fund Bay 
restoration projects. The measure was backed by a broad coalition of 
environmental, business and labor leaders and passed with 70% approval 
across the region.
    <bullet>  The time consuming and expensive permitting process is a 
significant hurdles to accelerating the pace and scale of wetlands 
restoration in San Francisco Bay. To address this barrier, in 2018 the 
Restoration Authority, the State Coastal Conservancy and others funded 
the innovative Bay Restoration Regulatory Integration Team (BRRIT) to 
expedite permitting for wetland restoration projects. BRRIT is a group 
of dedicated, funded staff from six state and federal regulatory 
agencies that review Bay restoration projects and permit applications 
as a team to improve efficiency and timeliness. The BRRIT will enable 
investment in San Francisco Bay wetland restoration to go further and 
proceed faster.
    <bullet>  Another important local initiative that is supporting the 
restoration process is the Long Term Management Strategy for the 
Placement of Dredged Materials. This program is a collaborative 
partnership where the regulatory agencies, resource agencies and 
stakeholders work together to maximize beneficial reuse of dredged 
material in restoration projects and minimize their disposal in the Bay 
and the Pacific Ocean. The selection of San Francisco Bay by the US 
Army Corps in December of 2018 as one of ten pilot projects for the 
beneficial reuse of dredged materials has the potential to expand this 
effort.
    <bullet>  In 2018 and 2019, the Restoration Authority approved its 
first two rounds of Measure AA grants totaling $89 million. The 
thirteen projects receiving funding will advance a wide variety of 
restoration projects from landscape scale initiatives such as the South 
Bay Shoreline Project to smaller projects such as the San Leandro 
Treatment Wetlands which will test creative new techniques to combine 
habitat restoration with wastewater treatment.
    <bullet>  At two locations, the San Francisco Bay Living Shorelines 
Project is demonstrating the potential of establishing native eelgrass 
and oyster beds to protect the San Francisco Bay shoreline while 
creating biologically rich and diverse habitat that is resilient to 
changing environmental conditions.
    <bullet>  In May of this year, the San Francisco Estuary Institute 
and SPUR, an urban planning research center, released the San Francisco 
Bay Shoreline Adaptation Atlas. The Atlas outlines how San Francisco 
Bay communities can combat sea level rise with eco-friendly reefs, 
beaches and marshlands.
                       The Urgency of Restoration
    In 2015, scientists released an update to the Baylands Ecosystem 
Habitat Goals report warning that without rapid and significant 
investment in wetland restoration, rising seas and greater erosion will 
cause wetlands to shrink. The risk we face is that existing sites that 
could be restored will be drowned by the rising bay waters. Tidal 
wetlands could eventually retract to narrow strips or disappear 
altogether.
    Wetlands are the Bay's first line of defense--trapping polluted 
runoff before it reaches open water, buffering against flooding from 
rising sea levels and storms, preventing erosion, and capturing 
greenhouse gases to counter climate change. If our tidal marshes 
disappear, so will this vital and natural system of protection.
    The report makes clear that the San Francisco Bay is in a race 
against time with billions of dollars of property at risk. It 
emphasizes that tidal marshes established by 2030 are more likely to 
flourish and provide ongoing benefits when sea level rise accelerates 
in the middle of this century. To achieve this goal, the planning, 
permitting, and construction of restoration projects must be 
accelerated.
                  The Critical Role of Federal Funding
    While significant progress has been made to restore San Francisco 
Bay, much more needs to be done and time is running short. The 
fundamental challenge is that there is a wide gap between the funding 
that is needed and the funding that is available.
    In the first two rounds of grants made by the Restoration 
Authority, funding requests exceeded the funding available by a factor 
of 3 to 1. Similarly, the EPA administered San Francisco Bay Water 
Quality Improvement Fund program, which began in 2008 and provides 
grants to protect and restore San Francisco Bay, has received $176 
million in grant requests but has only been able to provide $50 million 
in funding.
    There is also a significant gap between funding from state and 
local sources and funding provided by the federal government. The San 
Francisco Bay Joint Venture estimates that of the funds spent on 
acquisition, restoration and enhancement of bay lands between 1997 and 
2018, only 28% were from federal sources. Moreover, in August 2018, the 
U.S. Government Accountability Office published a report on the SF Bay 
Delta Watershed and found that the lack of sufficient federal funding 
is one of the biggest risks to long-term restoration efforts.
    To restore the 35,000 acres in public ownership and available for 
restoration is estimated to cost at least $1.4 billion. Simply put, 
without significant federal funding it will not be possible to restore 
all of this acreage, much of which is owned by the federal government.
    Traditionally, federal funding for other major estuaries have 
dwarfed the amounts that the San Francisco Bay has received. For 
example, annual EPA funding for Puget Sound is approximately seven 
times the amount allocated for San Francisco Bay, which typically 
receives $5 million annually, despite the fact that the Bay Area's 
population is nearly twice that of Puget Sound. Similarly, EPA annual 
funding for San Francisco Bay falls substantially short of the $12 
million in annual EPA funding for the Long Island Sound, a much smaller 
estuary.
    This is why the legislation introduced by Congresswoman Jackie 
Speier this year, H.R. 1132, the San Francisco Bay Restoration Act, is 
so timely and important. Her bill would authorize up to $25 million 
each year for five years to the EPA to award grants to Bay conservation 
and restoration projects. It would also establish a San Francisco Bay 
Program Office within the EPA and authorize the EPA Administrator to 
appoint a Director of that Program Office to oversee federal funding.
                               Conclusion
    The Bay Area's quality of life and economy depend on a healthy and 
vibrant San Francisco Bay. To restore the Bay we have put in place 
comprehensive science based restoration plans, a 20 year local funding 
source through Measure AA, and local collaborative partnerships to 
expedite permitting and the beneficial reuse of dredge materials. But 
with sea level rise accelerating, we have limited time to complete the 
critical restoration work that is needed. The missing ingredient is the 
necessary federal funding to complement our local efforts to establish 
100,000 acres of healthy tidal wetlands.

    Mrs. Napolitano. Thank you, Mr. Pine.
    Next, we have Ms. Laura Blackmore, please.
    Ms. Blackmore. Chair Napolitano, Ranking Member Westerman, 
Chair DeFazio, and distinguished members of the subcommittee, 
thank you for inviting me here today.
    On behalf of my organization and our hundreds of partners, 
thank you for convening this important hearing to talk about 
protecting and restoring America's iconic waters, including my 
home, Puget Sound.
    Puget Sound is a beautiful place, and it is also a complex 
one with 16 major rivers, 20 federally recognized Tribes, 4\1/
2\ million people, and the headquarters of 11 Fortune 500 
companies. Our economy is roaring, and the natural beauty of 
Puget Sound and the recreational opportunities it offers help 
our businesses attract top talent.
    I would welcome the opportunity to host you or your staff 
for an up-close look at this breathtaking and energizing place.
    Unfortunately, Puget Sound is also slowly dying. Southern 
Resident orcas, Chinook salmon, and steelhead are all listed 
under the Endangered Species Act.
    We continue to pollute our waterways and our shellfish 
beds, and habitat degradation outpaces restoration. The people 
of Washington State realized something was wrong in the early 
2000s. A groundswell of public support led then-Governor 
Gregoire to establish a task force which recommended the 
creation of Puget Sound Partnership as a State agency in 2007.
    Congress at that time also included Puget Sound in the 
National Estuary Program. This highly effective program, which 
we will hear more about in a few moments from my counterpart, 
Tom Ford, charges us with developing and implementing a 
collaborative, nonregulatory blueprint for restoring and 
protecting this iconic water body.
    In Puget Sound, we call this blueprint the Action Agenda.
    Nothing tells the story of Puget Sound more profoundly than 
last summer's tragic loss of the newborn calf of Tahlequah, or 
J35, a Southern Resident orca. She grieved over the body of her 
dead calf for 17 days, and her pod accompanied her as she swam, 
1,000 miles through Canadian and U.S. waters of the Salish Sea 
with her calf's body.
    We watched Tahlequah suffer, and now the world watches us.
    This year, Washington State legislators passed significant 
policy and budget bills aimed at orca recovery. Because of 
their bold actions, we have hope that we will stave off 
extinction for the Southern Resident orcas. But State resources 
alone are not enough.
    Federal funding and cooperation are crucial. Here is why. 
Scientists say that we can still recover Puget Sound, but only 
if we act boldly now.
    We know what we need to do. The primary barriers between us 
and more food for orcas, clean and sufficient water for people 
and fish, sustainable working lands and harvestable shellfish 
are funding and political fortitude.
    Our data show that the funding received to recover Puget 
Sound and its salmon falls woefully short of the need. The 
funding gap for the 2016-2018 Action Agenda was 73 percent, and 
the funding gap for salmon recovery is 84 percent.
    Our monitoring shows that the funding levels were barely 
holding our ground, if not managing decline of the ecosystem. 
We cannot wait any longer to fully fund habitat restoration and 
salmon recovery in Puget Sound.
    The single greatest step we could take to ensure a durable, 
systematic, and science-based effort for Puget Sound recovery 
is to fully fund the implementation of these programs.
    H.R. 2247, the Promoting United Government Efforts to Save 
our Sound Act, or PUGET SOS, introduced by Congressmen Heck and 
Kilmer this year, would authorize up to $50 million in funding 
for Puget Sound recovery, a significant and very welcome jump 
from the $28 million we have been appropriated over the last 
several years.
    It also would align Federal agency brain power and 
resources. These are tremendous assets. Ensuring they are 
coordinated, setting goals, and holding each other accountable 
will help increase their effectiveness and provide yet another 
boost to Puget Sound recovery.
    Establishing the Puget Sound Program Office at EPA and 
requiring a Federal task force promises that these goals will 
be met.
    Passing the PUGET SOS bill would demonstrate to the Nation 
that Puget Sound is vital to the economic, cultural, and 
environmental security of the United States. By investing 
significantly in the health and well-being of Puget Sound, 
Federal decisionmakers demonstrate that Puget Sound is worth 
saving and is of critical importance to the national well-
being.
    Washington State, our Tribes, local governments, 
nonprofits, and the private sector are committed to success. We 
greatly appreciate the commitment of this subcommittee to 
ensuring that the Federal Government is a viable, willing 
partner in this race against time.
    Thank you again for the opportunity to appear before you 
today, and I look forward to your questions.
    [Ms. Blackmore's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Laura L. Blackmore, Executive Director, Puget 
                           Sound Partnership
    Chair Napolitano, Ranking Member Westerman, and distinguished 
members of the subcommittee, thank you for inviting me here today. On 
behalf of the Puget Sound Partnership and our hundreds of partners, I 
want to thank you for convening this important hearing today.
  Puget Sound--an Economic Engine, a Scenic Treasure, a National Draw
    Puget Sound is a deep fjord estuary that lies within the broader 
Salish Sea. Considered the largest estuary by volume in the United 
States, Puget Sound is a complex ecosystem encompassing mountains, 
farmlands, cities, rivers, forests, and wetlands. Sixteen major rivers 
flow to Puget Sound and 20 treaty tribes call the region home.
    Four and a half million people live in the Puget Sound area with 
another 1.3 million expected to live there by 2040. Last month the 
Seattle Times reported \i\ that Seattle was the second fastest growing 
city in the nation in 2018, and the fastest in 2017. We are a region of 
innovators and entrepreneurs: eleven Fortune 500 companies are 
headquartered in the Puget Sound area, many of which have shaped 21st 
century life. Our economy is roaring and our natural beauty and 
recreation opportunities help businesses and companies attract top 
talent.
---------------------------------------------------------------------------
    \i\ https://www.seattletimes.com/seattle-news/data/big-city-growth-
slows-across-u-s-but-seattle-still-ranks-no-2-in-2018/
---------------------------------------------------------------------------
    On the surface, Puget Sound looks beautiful, but the fact is Puget 
Sound is slowly dying. Southern Resident orcas, Chinook salmon, and 
steelhead are all listed under the Endangered Species Act. Toxic 
chemicals and pharmaceuticals continue to pollute our waterways, and 
shellfish beds are routinely closed to commercial and recreational 
harvest. Despite a significant investment of energy and resources from 
federal, tribal, state, and local governments, habitat degradation 
outpaces restoration. While this situation at times seems impossibly 
gloomy, the hundreds of passionate people who are devoted to seeing the 
return of a healthy and resilient Puget Sound give us hope.
                   About the Puget Sound Partnership
    The Puget Sound Partnership grew out of a groundswell of support 
from citizens concerned about the health of Puget Sound, its many 
culturally and ecologically significant species, and the well-being of 
the humans who also call this region home. Based on the recommendation 
of a task force headed by former EPA Administrator Bill Ruckelshaus, 
the Washington State Legislature formed the Partnership in 2007. On 
behalf of the people of Washington State, the Legislature charged us 
with recovering Puget Sound and achieving six goals:

    <bullet>  Healthy human population
    <bullet>  Vibrant quality of life
    <bullet>  Thriving species and food web
    <bullet>  Protected and restored habitat
    <bullet>  Abundant water quantity
    <bullet>  Healthy water quality

    Congress designated Puget Sound as an Estuary of National 
Significance in 1988. The Puget Sound Partnership participates in the 
EPA's National Estuary Program (NEP), created by Congress in 1987. This 
highly effective program, which incorporates 28 estuaries from every 
coast, charges us with developing and implementing a collaborative, 
non-regulatory blueprint for restoring and protecting this iconic water 
body.
    We fulfill these responsibilities in three primary ways:
Chart the course--Action Agenda and Puget Sound Salmon Recovery Plan
    The 2018-2022 Action Agenda for Puget Sound, which serves as the 
Sound's Comprehensive Conservation & Management Plan as authorized by 
the NEP, charts the course to achieving a resilient Puget Sound. It 
outlines regional strategies and specific actions required to make 
progress toward recovery. The actions proposed for funding in the 
Action Agenda offer the promise of effective investment in Puget Sound 
protection and restoration. As required under the NEP, the Partnership 
convenes a Management Conference composed of federal, tribal, state and 
local government agencies, businesses, the environmental community, the 
agricultural and timber industries, academic institutions, fishermen, 
shellfish growers, and other partners to develop and manage the 
implementation of the Action Agenda.
    The Partnership's Leadership Council also oversees the 
implementation of the Puget Sound Salmon Recovery Plan, approved by 
NOAA in 2007 as the region's recovery plan for Chinook salmon under the 
Endangered Species Act. The Salmon Recovery Plan includes strategies 
for recovering Chinook salmon populations in each watershed of Puget 
Sound. With federal and state funding, the Partnership supports local 
councils that manage each of these watershed-scale strategies.
Promote shared measures--State of the Sound report
    The biennial State of the Sound report improves understanding 
across the Management Conference and among decision-makers about how 
well the recovery effort is going. The State of the Sound answers the 
following questions:

    <bullet>  How is the ecosystem doing?
    <bullet>  What are the outstanding examples of recovery projects?
    <bullet>  How is management of recovery going?
    <bullet>  Who funds Puget Sound recovery?
    <bullet>  What is needed to see more progress in Puget Sound 
recovery?
Support partners--mobilize funding, communicate effectively, remove 
        barriers
    The Partnership supports the collective effort of our partners by 
advocating for enhanced and diversified funding sources, funding 
science and monitoring work to answer pressing questions, evaluating 
the effectiveness of recovery actions, convening forums to confront 
difficult issues, and ensuring effective communication throughout our 
partner network.
            Funding Shortfalls Threaten Puget Sound Recovery
    Nothing tells the story of Puget Sound more profoundly than last 
summer's tragic loss of the newborn calf of Tahlequah, a member of the 
endangered Southern Resident orca J pod. She grieved over the body of 
her dead calf for 17 days, and her pod accompanied her as she swam 
1,000 miles through Canadian and U.S. waters of the Salish Sea with the 
body of that calf. The world watched Tahlequah suffer, and now the 
world watches us.
    This year, Washington State legislators listened to their 
constituents and to Governor Inslee, to the pleas of the Governor's 
Southern Resident Orca Task Force, and to our Leadership Council and 
the multitude of Management Conference members. They passed significant 
policy and budget bills aimed at orca recovery. Because of the bold 
actions on the part of our state elected officials, we have hope that 
we will stave off extinction for the Southern Residents. But state 
resources alone are not enough. Federal funding is crucial. Here's why:
    Scientists say that we can still recover Puget Sound, but only if 
we act boldly now. We know what we need to do. The primary barrier 
between us and more food for orcas, clean and sufficient water for 
people and fish, sustainable working lands, and harvestable shellfish 
is funding. We cannot wait any longer to fully fund the Action Agenda 
and the Puget Sound Salmon Recovery Plan.
    The primary source of funding to implement the Action Agenda is the 
Puget Sound Geographic Program. Over the past several fiscal years, 
Congress has appropriated $28 million annually into this fund, managed 
by the EPA. National Estuary Programs nationwide leverage $19 for every 
$1 in federal funding,\ii\ and we are no exception. While this funding 
is significant and appreciated, estimates of the actual need to fully 
implement the Action Agenda show that the funding received falls far 
short of the need: the funding gap for the 2014-2015 Action Agenda was 
68 percent, and for the 2016-2018 Action Agenda it was 73 percent 
\iii\. The funding gap for salmon recovery is about 84 percent \iv\. 
Our monitoring shows that at these funding levels, we are barely 
holding our ground against further degradation, if not managing decline 
of the ecosystem.
---------------------------------------------------------------------------
    \ii\ US Environmental Protection Agency, 2018. National Estuary 
Program website, Financing Strategies Used by the National Estuary 
Program. Last updated June 4, 2018. Accessed June 20, 2019. https://
www.epa.gov/nep/financing-strategies-used-national-estuary-program
    \iii\ Puget Sound Partnership, 2017. 2017 State of the Sound. 
Olympia, Washington, November 2017. 84pp. www.psp.wa.gov/sos
    \iv\ Governor's Salmon Recovery Office, 2018. State of the Salmon 
Report, Executive Summary, page 9. Accessed June 20, 2019. https://
stateofsalmon.wa.gov/exec-summary/
---------------------------------------------------------------------------
    The single greatest step we could take to ensure a durable, 
systematic, and science-based effort for Puget Sound recovery is to 
fully fund the implementation of the Action Agenda and Salmon Recovery 
Plan on an on-going basis.
    The Promoting United Government Efforts To Save Our Sound (PUGET 
SOS) Act (H.R. 2247), introduced by Congressmen Heck and Kilmer this 
year, would authorize up to $50 million in funding for Puget Sound 
recovery, a significant and very welcome jump from the $28 million per 
year that Congress has appropriated for the last several fiscal years.
  Why Passage of the PUGET SOS Act is Critical to Puget Sound Recovery
    Puget Sound is a national treasure, as long as it is healthy. A 
dying Puget Sound is a national disgrace. Our Governor, state 
Legislature, local elected officials, Tribes, and network of 
organizations and individuals have proven their commitment to 
recovering Puget Sound. We need commensurate investment at the federal 
level. Passage of the PUGET SOS Act would demonstrate that federal 
commitment. Here's why this bill would be such a boon to Puget Sound:
    PUGET SOS aligns federal agency brainpower and resources. These are 
tremendous assets. Ensuring they are coordinated, setting goals, and 
holding each other accountable will help increase their effectiveness 
and provide yet another boost to Puget Sound recovery. Establishing the 
Puget Sound Program Office at EPA and requiring a Federal Task Force 
promises that these goals will be met.
    PUGET SOS protects and sustains a cherished resource and a 
cherished way of life. The investment of up to $50 million authorized 
in the PUGET SOS bill will enable us and our partners to more 
effectivelyplan and implement the projects that will recover Puget 
Sound.
    PUGET SOS demonstrates to the nation that Puget Sound is vital to 
the economic, cultural, and environmental security of the United 
States. By investing significantly in the health and well-being of 
Puget Sound, on par with other great waters like the Great Lakes and 
Chesapeake Bay, federal decisionmakers demonstrate that Puget Sound is 
worth saving. They affirm that it is of critical importance to national 
well-being, and that they too are concerned for the future of their 
children and grandchildren. They demonstrate that recovering an 
ecosystem is more than a one-time effort, that our fates are 
interlinked with the environment we live in, and that we must stay ever 
vigilant and ever active in protecting and restoring our home.
    Thank you again for the opportunity to appear before you today, and 
I look forward to your questions.

    Mrs. Napolitano. Thank you, Ms. Blackmore, and thank you 
for staying within the limit.
    Mr. Baker, you are on.
    Mr. Baker. Good morning. Thank you, Chairwoman Napolitano, 
Ranking Member Westerman, and members of the subcommittee.
    I am Will Baker. I have been president of the Chesapeake 
Bay Foundation for 37 years of the organization's 52-year 
history. Our mission is to protect and restore the bay and its 
rivers.
    The Chesapeake is America's largest estuary. When colonial 
settlers arrived more than 400 years ago, the water was 
pristine. Forty-four hundred Native Americans had little impact 
on the 64,000-square-mile watershed.
    Today, there are 19 million of us, and we have had a 
significant and, sadly, negative impact.
    By 1980, the bay was on life support. In a 1982 banner 
headline in the Baltimore Sun, it read in its entirety, ``Bay 
Is Dying Scientists Warn.''
    A bipartisan groundswell of concern arose, and in 1984 in 
his State of the Union Message, Ronald Reagan called for the 
Federal Government to help save this national treasure.
    Congress did its part. In 1987, the Chesapeake Bay Program 
was created. It includes multiple Federal agencies and EPA is 
the lead.
    Most basically, it helps to ensure that the six States and 
the District of Columbia, all in the watershed, work together.
    Also in that year, 1987, the States and Federal agencies 
signed an agreement to cut nitrogen and phosphorus pollution by 
40 percent by the year 2000. That goal was missed by a lot. So 
the deadline was simply extended 10 years to 2010.
    And yet by 2008, it was obvious to all involved that it, 
too, would be missed. The Chesapeake Bay Foundation sued EPA in 
a last-ditch effort to achieve an enforceable plan.
    Fortunately, Administrator Lisa Jackson negotiated a 
settlement with us. EPA agreed to develop what is now known as 
the landmark Chesapeake Clean Water Blueprint. It has been a 
game changer.
    Each jurisdiction has agreed to reduce its share of the 
pollution and to do it in 2-year incremental and reportable 
increments, ``milestones'' they are called, toward the 2025 
deadline. And EPA agreed to be the referee and to impose 
penalties if a State failed to meet its milestone targets.
    Here is the good news. It is working. Thirty-six years 
after that headline I just referenced, the same paper wrote a 
new headline, quote, ``Scientists Say They Are Confident 
Chesapeake Health Is Significantly Improving in 36 Years.''
    The Chesapeake Bay Program is the glue that holds this 
multistate restoration effort together. The Federal Government 
is the one jurisdiction which can do what science says must be 
done to treat the bay and all of its rivers as a single 
ecological system.
    Experts agree around the world--and believe me, it is 
around the world--that this is perhaps our best and last chance 
to save the bay. The bay program uses science proactively. It 
provides grants to reduce pollution, and it monitors progress.
    But we are not done. The recovery is fragile. Last year we 
had 80 inches of rain, twice the normal, and it delivered so 
much pollution that scientists believe we may see some of the 
worst levels of low dissolved oxygen this year in decades.
    Let's hope that such intense storm events are not the new 
normal under climate change, especially as regulatory rollbacks 
threaten progress. While most of the bay States are on track, I 
am sorry to report that Pennsylvania is way behind, and it is a 
critically important State.
    If the bay is to be saved, EPA must hold Pennsylvania 
accountable.
    I will conclude. The Chesapeake Clean Water Blueprint is an 
international model. The bay program is essential, and it must 
be fully funded.
    We thank you for the bipartisan support here in the House 
to do just that. Now it is on to the Senate.
    Thank you very much.
    [Mr. Baker's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of William C. Baker, President, Chesapeake Bay 
                               Foundation
                              Introduction
    Good morning Chairwoman Napolitano, Ranking Member Westerman, and 
members of the subcommittee, I am Will Baker, President of the 
Chesapeake Bay Foundation (CBF). Thank you for inviting me, on behalf 
of CBF's Board of Trustees, staff, and more than 275,000 members, to 
participate in today's hearing.
    For more than 50 years, the CBF has been working to protect and 
restore the Chesapeake Bay and its rivers and streams. The Chesapeake 
Bay is America's largest estuary and a unique and critical ecosystem. 
Its 64,000 square mile watershed--from Cooperstown, New York to Cape 
Henry, Virginia and westward to the Allegheny Mountains--is a large 
part of the Mid-Atlantic states. More than 18 million people live in 
the Chesapeake Bay watershed, a number that is increasing by roughly 
150,000 each year.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    The Chesapeake Bay is a national treasure, a resource of worldwide 
significance, and an economic resource for the region. The Chesapeake 
Bay produces approximately 500 million pounds of seafood a year.\1\ The 
Bay's iconic blue crabs and oysters are immensely important to the 
economy and culture of the Bay region. In 2016, Maryland and Virginia 
brought in $299.5 million in landings revenue, supported just over 
30,000 jobs, and generated approximately $726,391,000 dollars in 
sales.\2\ Recreational fishing supported 13,501 jobs, and generated 
$1.368 billion dollars in sales.\3\
---------------------------------------------------------------------------
    \1\ Chesapeake Bay Program, Facts and Figures, https://
www.chesapeakebay.net/discover/facts
    \2\ NOAA, Fisheries Economics of the United States, 106, 2017, 
https://www.fisheries.noaa.gov/resource/document/fisheries-economics-
united-states-report-2016
    \3\ Id.
---------------------------------------------------------------------------
    Unfortunately, due to decades of pollution, those numbers are only 
a fraction of what they once were. Historically every summer, excessive 
nitrogen and phosphorus pollution from human activities would plague 
the Chesapeake Bay and its tributaries with dead zones--areas with low 
amounts of oxygen in the Bay. With little or no oxygen, fish, crabs, 
oysters, and other aquatic animals literally suffocate. The decline of 
oysters over the last 30 years, for example, has meant a loss of more 
than $4 billion for Maryland and Virginia.\4\ Further, excess nitrogen 
and phosphorous fuels deadly algae blooms that block sunlight from 
reaching the critical underwater grasses habitat that crabs and fish 
rely on.
---------------------------------------------------------------------------
    \4\ Chesapeake Bay Foundation, On the Brink: Chesapeake's Native 
Oysters, July 2010, https://www.cbf.org/document-library/cbf-reports/
Oyster_Report_for_Release02a3.pdf
---------------------------------------------------------------------------
    Fortunately, we have a plan to save this critical natural resource: 
The Chesapeake Clean Water Blueprint. And the plan is working. 
Underwater grasses are growing, dead zones are getting smaller, and 
blue crab populations are rebounding. Studies estimate that a fully 
restored Bay is worth $22 billion per year.\5\
---------------------------------------------------------------------------
    \5\ https://www.cbf.org/document-library/cbf-reports/the-economic-
benefits-of-cleaning-up-the-chesapeake.pdf
---------------------------------------------------------------------------
                   History of Chesapeake Bay Cleanup
    The Bay cleanup has a long and storied history, but the road to get 
to this point has not been easy. The Chesapeake Bay is one of the most 
complex ecosystems in the world.
    The cleanup effort began in 1976 when Congress directed EPA to 
undertake a comprehensive study of the Bay focused on its water quality 
and living resources. Six years later, the U.S. Environmental 
Protection Agency (EPA) report identified nutrient pollution as the 
greatest threat to the Bay and recognized that the problem would need 
to be addressed by all of the watershed states, not just Maryland and 
Virginia. The report provided an innovative intergovernmental and 
inter-jurisdictional solution. The ``Chesapeake Bay Program'' was 
formed that December--with the governors of Maryland, Pennsylvania and 
Virginia, the Mayor of the District of Columbia, the Administrator of 
the EPA and the Chair of the Chesapeake Bay Commission signing the 
Chesapeake Bay Agreement of 1983.
    In February 1987, Congress passed the reauthorization of the Water 
Quality Act of 1987 (Clean Water Act), which included a provision, 
known as Section 117, that codified the Chesapeake Bay Program and 
authorized Congress to continue funding the important restoration 
effort at $13 million annually.\6\
---------------------------------------------------------------------------
    \6\ In 2000, Congress passed a reauthorization of Section 117 of 
the Clean Water Act, which did not substantially alter the approach or 
make up of the Chesapeake Bay Program but did increase the 
authorization level to $40 million annually. For the last several 
years, funding for the Bay Program has been around $73 million 
annually.
---------------------------------------------------------------------------
    This led to the 1987 Chesapeake Bay Agreement, which for the first 
time included specific quantitative goals and commitments; the 
centerpiece of which was to reduce nutrient pollution to the Bay by 40% 
by 2000.
    When the Chesapeake Bay partners missed their 40% nutrient 
reduction goal, the state governors, the mayor of DC, the EPA and the 
Chesapeake Bay Commission signed the Chesapeake 2000 agreement, which 
included more than a hundred ambitious commitments, including a re-
affirmation of the 40% nutrient reduction goal and a commitment to 
reduce sediment and nutrient loads sufficient to remove the Bay and its 
tidal rivers from the impaired waters list by a 2010 deadline. Also, in 
2000, both Delaware and New York signed a Memorandum of Understanding 
with the other Chesapeake Bay Program partners and agreed to adopt the 
Water Quality goals of the Chesapeake 2000 agreement. West Virginia 
followed suit in 2002.
    When the Chesapeake Bay Program failed to meet its water quality 
goals again in 2007, CBF along with several signatories to the 
Chesapeake Bay Agreements, and local partners sued the EPA for failure 
to comply with the Clean Water Act and the terms of the Chesapeake Bay 
Agreements. A settlement was finalized in May 2010 that explicitly 
incorporated the TMDL process, providing a legally binding, enforceable 
commitment that EPA would take specific actions to ensure that 
pollution to rivers, streams, and the Chesapeake Bay is reduced 
sufficiently to remove the Bay from the federal ``impaired waters'' 
list.
    In December 2010, the EPA and the Bay jurisdictions finalized the 
Chesapeake Bay total maximum daily load (TMDL), which sets limits on 
nitrogen, phosphorus and sediment pollution necessary to meet water 
quality standards.\7\ It also formed jurisdiction-specific plans to 
achieve those pollution limits--together known as the Chesapeake Clean 
Water Blueprint. EPA and the Bay jurisdictions agreed to implement 60 
percent of their Bay cleanup practices by 2017 and 100 percent by 2025. 
To develop these plans, Bay jurisdictions worked with local governments 
to take advantage of their knowledge about sources so that the 
pollution reduction requirements were equitably distributed and one 
sector was not burdened at the expense of another.
---------------------------------------------------------------------------
    \7\ The ``Chesapeake Bay TMDL'' actually applies to 92 impaired 
segments, See http://www.epa.gov/chesapeakebaytmdl/
---------------------------------------------------------------------------
    In June of 2014, representatives from the entire watershed signed 
the Chesapeake Bay Watershed Agreement.\8\ For the first time, 
Delaware, New York, and West Virginia committed to full partnership in 
the Bay Program. The agreement includes the Chesapeake Clean Water 
Blueprint goals for 2017 and 2025, but also established goals for 
habitat restoration and conservation, improving fisheries, increasing 
public access public access, and environmental literacy, to name a few.
---------------------------------------------------------------------------
    \8\ https://www.chesapeakebay.net/what/what_guides_us/
watershed_agreement
---------------------------------------------------------------------------
         The Chesapeake Bay Blueprint is an International Model
    The Chesapeake Bay Blueprint is an international model for 
environmental improvement. The partnership between state, federal, and 
local governments has been central to the Bay's improving health. And 
organizations like the Chesapeake Bay Foundation have played a key role 
in holding all parties to their commitments. But, I cannot understate 
the importance of federal leadership.
    Even after the Bay Agreement was signed and the Chesapeake Bay 
Program formed, the states recognized that they were going to miss 
their 2010 cleanup goals, and they requested federal leadership. On 
June 19, 2008 at the Chesapeake Bay Program's Principal's Staff 
Committee, Virginia Secretary of Natural Resources L. Preston Bryant 
made a motion to develop a TMDL by the end of 2010. The motion to 
develop the TMDL was approved without dissent. Simply put, Bay states 
recognized that setting the Bay total maximum daily load for nitrogen, 
phosphorus and sediment was a job that only EPA--with its cross-state 
jurisdiction and team of scientists--could do.
    This federal leadership, with its heightened level of commitment 
and accountability, has proved to be the vital ingredient necessary to 
get the cleanup on track and create what Dr. Donald Boesch, President 
Emeritus of the University of Maryland Center for Environmental 
Science, called ``The Moment in Time'' to save the Bay. When the 
Blueprint was established, he wrote, `` . . . this is not just a moment 
in time, but the only moment our society will ever have to restore the 
Bay. As a scientist, I am trained to rely on empirical evidence rather 
than wishful thinking. There is just no evidence for concluding that we 
will have another chance after 2025 given the record of performance and 
additional mounting pressures that will result from population growth 
and climate change.'' \9\
---------------------------------------------------------------------------
    \9\ http://www.capitalgazette.com/cg2-arc-ce7685b2-dfe6-5489-929f-
b81e5cd86754-20120211-story.html
---------------------------------------------------------------------------
        How We are Doing--the State of the Bay and the Blueprint
    For decades, CBF's biennial State of the Bay report has tracked the 
Bay's health.\10\ Over the last ten years it has improved, but the slow 
improvements to water quality and impact on the living resources of the 
Chesapeake Bay system continues to be a concern.
---------------------------------------------------------------------------
    \10\ https://www.cbf.org/about-the-bay/state-of-the-bay-report/
---------------------------------------------------------------------------
    Since the Blueprint's beginning in 2010, the Bay has been 
improving. But as this year's State of the Bay shows, progress is never 
a straight line.
    Simply put, the Bay suffered a massive assault in 2018. 
Extraordinary weather flushed enormous amounts of nitrogen, 
phosphorous, and debris--mostly from Pennsylvania, but also from other 
regions--off our lands and into the Bay. As a result, the State of the 
Bay score fell one point to a 33.
    Still, there are heartening signs that the Bay is building 
resiliency. Bay grasses remain intact and recent studies indicate an 
improving trend in underwater dead zones over the long term. But the 
system remains dangerously out of balance. And new challenges like 
climate change and a federal administration attempting to roll back 
fundamental environmental protections are threatening success.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    With a little less than seven years to go until the 2025 deadline 
set for achieving the commitments of the Blueprint, we can see that 
while we have made great strides, we have a long way to go. CBF 
recently issued our State of the Blueprint. While no state is 
completely on track, Maryland [http://www.cbf.org/how-we-save-the-bay/
chesapeake-clean-water-blueprint/state-watershed-implementation-plans/
maryland/] and Virginia [http://www.cbf.org/how-we-save-the-bay/
chesapeake-clean-water-blueprint/state-watershed-implementation-plans/
virginia/] are close to having the programs and practices in place to 
restore water quality and meet the 2025 goal. Pennsylvania is not on 
track.
    Virginia is on track to achieve its 2025 goals, provided it 
accelerates efforts to reduce pollution from agricultural [http://
www.cbf.org/issues/agriculture/] sources and growing urban and suburban 
areas, while continuing progress in the wastewater [http://www.cbf.org/
issues/sewage-septic-systems/] sector. Virginia has a strong roadmap 
for success; the key is implementation.
    Maryland is on-track to meet its overall nutrient reduction targets 
by 2025, due in large part to investments to upgrade sewage treatment 
plants [http://www.cbf.org/issues/sewage-septic-systems/], which have 
exceeded goals, and in farm management practices [http://www.cbf.org/
issues/agriculture/best-management-practices.html]. Pollution from 
developed lands and septic systems continues to increase, challenging 
the long-term health of Maryland's waterways. While the Blueprint 
provides a path to the 2025 goals, it is short on strategies to 
maintain them. The plan relies on annual practices that are less cost 
effective and don't provide as many benefits for our climate and our 
communities as permanent natural filters.
    Pennsylvania is significantly behind in implementing the pollution 
reducing practices necessary to achieve the 2025 goals, particularly 
from the agricultural and the urban/suburban stormwater sectors. 
Wastewater treatment plants have met and exceeded goals and targets for 
making reductions by 2025. But agriculture and stormwater efforts have 
fallen significantly behind. While most farmers embrace conservation, a 
lack of financial and technical support has stifled progress. Keeping 
soils, nitrogen, and phosphorus on the land instead of in the water is 
good for soil health, farm profitability, and life downstream.
                               Challenges
    A healthy Bay is in sight--but the Blueprint to save the Chesapeake 
Bay is at a critical juncture. There are four main challenges: 
Pennsylvania, regulatory rollbacks, climate change, and federal 
funding.
1. Pennsylvania
    A chain is only as strong as its weakest link, and that is also 
true for the partnership between the six Bay states, the District of 
Columbia, and the Environmental Protection Agency (EPA) to restore 
water quality across the region. Unfortunately, Pennsylvania's leaders 
have failed to uphold their promise to reduce pollution to its surface 
and groundwaters since the partnership was launched in 2009.
    Pennsylvania has never met its nitrogen reduction targets and its 
current plan to achieve the 2025 goal is woefully inadequate, detailing 
only two-thirds of actions necessary to achieve its goal. Furthermore, 
the resources to implement the plan do not currently exist. There is a 
shortfall in funding of nearly $257 million a year.
    Continued failure by Pennsylvania legislators to support those 
working for cleaner waters with technical and financial assistance 
means failure for the entire partnership.
    Second, recent deregulatory efforts could be devastating to the 
Chesapeake's recovery, in particular weakened Corporate Average Fuel 
Economy (CAFE) and the proposed Clean Power Plan replacement.
2. Proposed Regulatory Rollbacks
    Maintaining strong protections for streams and wetlands is 
essential to the health and restoration of the Chesapeake Bay. Wetlands 
act as buffers that absorb pollution, reduce storm surges, and help 
control flooding, and the Bay receives half of its water from an 
intricate network of creeks, streams, and 1.7 million acres of 
wetlands. Repealing the 2015 Clean Water rule and changing the 
definition of ``Waters of the United States'' rule would limit Clean 
Water Act protections for many streams and wetlands.
    Air pollution not only poisons our lungs and heats our planet but 
eventually ends up in our water. Approximately one-third of the 
nitrogen entering the Chesapeake Bay comes from air pollution. Much of 
it is in the form of nitrogen oxides from power plants, cars and 
trucks, and industrial sources, which can drift hundreds of miles 
before falling to the ground and into local waterways. In crafting the 
Chesapeake Bay Blueprint, the EPA relied on pollution reductions from 
air regulations, but the Trump administration's air rollbacks put the 
health of the Bay and its residents at risk. The Safer Affordable Fuel-
Efficient Vehicle Rule will relax fuel efficiency standards for cars 
and light-duty trucks that produce greenhouse gas emissions and 
nitrogen oxides. And, the Affordable Clean Energy Rule (ACE) announced 
on Wednesday, June 19th falls short of the reductions in nitrogen 
oxides that were anticipated under the Clean Power Plan and relied upon 
to meet the commitments of the Chesapeake Bay Blueprint. Furthermore, 
both will worsen the impacts of climate change--another key challenge 
to Bay restoration efforts.
3. Climate Change
    Healthy estuaries are the first line of defense for coastal areas 
worldwide, providing protection from climate change impacts. Estuarine 
systems capture and sequester carbon. Forested buffers along our 
streams hold soil in place during heavy storms, cool waters and trap 
additional carbon.
    Unfortunately, the Bay--and its surrounding states--are also 
negatively impacted by the effects of climate change including sea-
level rise, extreme weather, warming temperatures, and ocean 
acidification.\11\
---------------------------------------------------------------------------
    \11\ EPA, Chesapeake Bay Program, Climate Change, https://
www.chesapeakebay.net/issues/climate_change
---------------------------------------------------------------------------
    EPA has noted that average temperatures have risen between 1895 and 
2011 by almost two degrees Fahrenheit and projections indicate warming 
of 4.5 to 10 degrees by the 2080s.\12\ Average U.S. precipitation has 
increased since the 1990s, and the frequency and intensity of heavy 
precipitation events is increasing due to climate change.\13\ Within 20 
years, nearly 170 U.S. communities will be chronically inundated with 
flooding \14\ and more than 70% of these communities will be in 
Louisiana and Maryland: the ``canaries in the coal mine'' for sea level 
rise.\15\ Sea level rise threatens to inundate small coastal 
communities and major cities alike in the Chesapeake Bay region. In 
Maryland alone, it threatens to flood over 61,000 homes by 2100, valued 
at $19 billion.\16\ Entire inhabited islands are now underwater in the 
Chesapeake Bay, with more likely to follow if greenhouse gas (GHG) 
emissions do not decrease substantially.\17\ In Norfolk, Virginia, sea 
level rise poses significant risk to the public and military 
infrastructure and operations.\18\
---------------------------------------------------------------------------
    \12\ Id.
    \13\ U.S. Global Change Research Program, Climate Science Special 
Report: Fourth National Climate Assessment, 19, 20, 2017.
    \14\ Erika Spanger-Siegfried, et. al, When Rising Seas Hit Home: 
Hard Choices Ahead for Hundreds of US Coastal Communities, Union of 
Concerned Scientists 2, 2017.
    \15\ Id.
    \16\ Catherine Rentz, Rising sea levels threaten $19 billion in 
real estate across Maryland, study says, The Baltimore Sun, Oct. 28, 
2017, https://www.baltimoresun.com/news/investigations/bs-md-
suninvestigates-sea-level-20171026-story.html.
    \17\ Erik Ortiz, How to Save A Sinking Island, NBC NEWS, November 
13, 2017, https://www.nbcnews.com/specials/deal-island; David 
Fahrenthold, Last house on sinking Chesapeake Bay island collapses, 
Washington Post, October 26, 2010, http://www.washingtonpost.com/wp-
dyn/content/article/2010/10/24/AR2010102402996.html; Jon Gertner, 
Should the United States Save Tangier Island From Oblivion?, New York 
Times Magazine, July 6, 2016, https://www.nytimes.com/2016/07/10/
magazine/should-the-united-states-save-tangier-island-from-
oblivion.html.
    \18\ ``Sea level rise at just one site can have a significant 
impact on [both military policy and] strategy. Hampton Roads, Virginia, 
dubbed `the greatest concentration of military might in the world' for 
former Secretary of Defense Leon Panetta, is by itself an invaluable 
operational and strategic hub for both the United States and its 
allies. It . . . is the backbone of the U.S. Atlantic Fleet. It is also 
a low-lying site and very exposed to sea level rise and storm surge. If 
significant portions of the Hampton Roads infrastructure we regularly 
inundated, as is projected under a number of scenarios for the years 
2023-2100, the impediment to force deployments for critical Atlantic, 
Mediterranean and Pacific war-fighting and humanitarian operations--
many of which are tied to core strategic goals of the United States--
would be significant.'' The Center for Climate and Security, Military 
Expert Panel Report: Sea Level Rise and the U.S. Military's Missions, 
23-24, 2016, https://climateandsecurity.files.wordpress.com/2016/09/
center-for-climate-and-security_military-expert-panel-report2.pdf.
---------------------------------------------------------------------------
    Wetlands can help to mitigate some of those effects, but they are 
also threatened by sea level rise. As we have noted, these important 
filters reduce the level of pollutants entering the Bay,\19\ help 
protect against flooding by absorbing stormwater and protect coastal 
communities from storm surge and erosion,\20\ but they can also serve 
as sites of carbon sequestration.\21\ Wetlands inundated with saltwater 
from sea level rise, however, begin to disappear.\22\ They are 
typically some of the first areas to be exposed to chronic flooding and 
while they can migrate in response to changes in water levels provided 
they have the space and time to do so,\23\ the pace of sea level rise 
and changes in land use in coastal communities have weakened the 
ability of wetlands to migrate.\24\ A decrease in the overall acreage 
of wetlands will lead to a decrease in the natural environment's 
ability to deal with increased rainfall. Forested buffers along creeks, 
tidal rivers, and the Bay are also impacted by sea level rise as 
saltwater seeps into the soil, killing trees and creating ``ghost 
forests.'' \25\
---------------------------------------------------------------------------
    \19\ Chesapeake Bay Program, Wetlands, https://
www.chesapeakebay.net/issues/wetlands
    \20\ Id.
    \21\ Kevin D. Kroeger, et al., Scientific Reports, Restoring Tides 
to Reduce Methane Emissions in Impounded Wetlands: A New and Potent 
Blue Carbon climate Change Intervention, September 20, 2017, 
www.nature.com/scientificreports.
    \22\ Joseph Kurt and Victor Unnone, Climate Change and the 
Chesapeake Bay Total Maximum Daily Load: Policy Priorities and Options, 
Virginia Coastal Policy Center, 4, 2016.
    \23\ Erika Spanger-Siegfried, et. al, When Rising Seas Hit Home: 
Hard Choices Ahead for Hundreds of US Coastal Communities, Union of 
Concerned Scientists, 10, 2017.
    \24\ Id.
    \25\ Id. See also John Upton, `Ghost Forests' Appear as Rising Seas 
Kill Trees, Climate Central, Sept. 15, 2016, http://
www.climatecentral.org/news/ghost-forests-appear-as-rising-tides-kill-
trees-20701.
---------------------------------------------------------------------------
    In addition, warming waters--that have already been recorded in 92 
percent of the Bay--deplete the level of available oxygen in the 
Bay.\26\ This will have major repercussions as the Bay struggles with 
dead zones of hypoxic water from nitrogen and phosphorus pollution 
(these nutrients fuel algal blooms, creating hypoxic and anoxic areas 
in the Bay).\27\ Warming ocean temperatures will only exacerbate the 
dead zone in the Bay because warmer water molecules hold less oxygen 
than colder water molecules.\28\
---------------------------------------------------------------------------
    \26\ See Army Corps of Engineers and City of Norfolk Draft 
Integrated City of Norfolk Coastal Storm Risk Management Feasibility 
Study/Environmental Impact Statement, October 2017, http://
www.nao.usace.army.mil/NCSRM/
    \27\ EPA, Chesapeake Bay Program, The Dead Zone, https://
www.chesapeakebay.net/state/dead_zone
    \28\ Chris Mooney, Global warming could deplete the oceans' 
oxygen--with severe consequences, Washington Post, April 28, 2016, 
https://www.washingtonpost.com/news/energy-environment/wp/2016/04/28/
global-warming-could-deplete-the-oceans-oxygen-levels-with-severe-
consequences/?utm_term=.00aa4517aaef.
---------------------------------------------------------------------------
    Finally, GHG emissions cause ocean waters to acidify. Our oceans 
are a sink for atmospheric carbon, absorbing about a quarter of the CO2 
released into the atmosphere each year.\29\ This absorption is not 
without consequence: excess CO2 is changing the saltwater 
chemistry.\30\ A chemical reaction occurs between carbon dioxide, 
water, and carbonate ions that reduces seawater pH depleting the 
concentration of carbonate ions and calcium carbonate minerals.\31\ 
This negatively affects calcifying species by impairing their shell 
making ability. Ocean acidification threatens the growth and 
reproduction of oysters, clams, and other creatures with calcium 
shells.\32\ The Chesapeake Bay blue crab population may be particularly 
susceptible to acidification because larval crabs spend a portion of 
their life offshore in the ocean. Blue crabs are a particularly 
important commercial species in the region's multi-billion-dollar 
seafood industry.\33\
---------------------------------------------------------------------------
    \29\ NOAA Pacific Marine Environmental Laboratory Carbon Program, 
Ocean Acidification: the Other Carbon Dioxide Problem, https://
www.pmel.noaa.gov/co2/story/Ocean+Acidification
    \30\ NOAA Pacific Marine Environmental Laboratory Carbon Program, 
What is Ocean Acidification? https://www.pmel.noaa.gov/co2/story/
What+is+Ocean+Acidification%3F
    \31\ Id.
    \32\ Sarah M. Giltz and Caz M. Taylor, Reduced Growth and Survival 
in the Larval Blue Crab Callinectes sapidus Under Predicted Ocean 
Acidification, 36, J. of Shellfish Research, 481, 2017.
    \33\ Chesapeake Bay Foundation, The Economic Importance of the Bay, 
http://www.cbf.org/issues/what-we-have-to-lose/economic-importance-of-
the-bay/
---------------------------------------------------------------------------
    Taken together, the effects of GHG emissions will impact the 
complex ecosystem--including water quality and habitat--needed for 
species survival in the Bay region. Indeed, these impacts are 
identified and reflected through various sections of the Chesapeake Bay 
Watershed Agreement.\34\
---------------------------------------------------------------------------
    \34\ One of the purposes of the Chesapeake Bay Restoration Act of 
2000 was to ``expand and strengthen cooperative efforts to restore and 
protect the Chesapeake Bay; and to achieve the goals established in the 
Chesapeake Bay Agreement.'' 33 U.S.C. Sec.  1267. The Chesapeake Bay 
Agreement is an interstate compact as Congress developed and authorized 
the joint state action. See Cuyler v. Adams, 449 U.S. 433; 101 S. Ct. 
703 (1981); Seattle Master Builders Assoc. v. Pacific Northwest 
Electric Power & Conservation Planning Council, 786 F.2d 1359 (9th Cir. 
1986).; Chesapeake Bay Watershed Agreement, 2014, https://
www.chesapeakebay.net/documents/
FINAL_Ches_Bay_Watershed_Agreement.withsignatures-HIres.pdf
---------------------------------------------------------------------------
4. Federal Funding
    As mentioned, funding remains a challenge for implementing the 
Blueprint. Full or increased funding is needed in a variety of programs 
that support the implementation of the Blueprint including:
             u.s. army corps of engineers (usace) programs
    The U.S. Army Corps of Engineers (USACE) is a key partner in the 
Chesapeake Bay Watershed Agreement goal to restore oyster populations 
in 10 Bay tributaries in Maryland and Virginia by 2025. It provides 
significant technical expertise, logistical coordination, and funding 
for the construction and long-term monitoring of oyster restoration 
projects. USACE also completed a Chesapeake Bay Comprehensive Plan in 
2018 that identified more than 300 restoration projects throughout the 
watershed in need of funding.
             u.s. department of agriculture (usda) programs
    Through several conservation programs, the U.S. Department of 
Agriculture works with farmers to plan and install voluntary practices 
that protect water quality by reducing the flow of valuable nutrients 
and sediments from agricultural lands into rivers and streams. The 
programs are funded through the Federal Farm Bill [http://www.cbf.org/
about-cbf/locations/washington-dc/issues/federal-farm-bill.html] and 
support every state in the Chesapeake Bay watershed. They include:

    <bullet>  Environmental Quality and Incentives Program (EQIP)
    <bullet>  Conservation Stewardship Program (CSP)
    <bullet>  Regional Conservation Partnership Program (RCPP)
    <bullet>  Conservation Reserve/Conservation Reserve Enhancement 
Program (CREP) See how CREP and other programs are helping farmers 
[http://www.cbf.org/blogs/save-the-bay/farmer-success-stories.html] 
reduce the amount of pollution entering local waterways and the Bay.

    Congress passed the Agriculture Improvement Act of 2018, or 2018 
Farm Bill, into law on December 20, 2018. To ensure that these programs 
are put to the best use in the Chesapeake Bay region, the maximum 
amount of funding contemplated by Congress should be appropriated.
                         chesapeake bay program
    Perhaps one of the most important aspects of funding is the federal 
funding that supports the Chesapeake Bay Program. The Chesapeake Bay 
Program (CWA 117) provides targeted support to watershed states to meet 
their Blueprint goals. The Chesapeake Bay Program Office in Annapolis, 
Maryland coordinates the science, research, modeling, support services, 
monitoring, data collection, and other activities essential to 
Blueprint implementation. As a single cross-state ecological system, 
the Bay watershed requires this sophisticated level of attention. For 
example, the Bay Program is coordinating the development of trading and 
offset programs that both ensure pollution reduction requirements are 
met and create cost-effective options for states to meet their goals. 
But the lion's share of program funds go directly to grants and 
cooperative agreements that enable nonprofit organizations, state and 
local governments, colleges, universities, and interstate agencies to 
assist with Blueprint implementation.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    Originally created under President Ronald Reagan, this supports 
complex cross-state collaboration and excellent stewardship of taxpayer 
dollars by providing states access to the watershed-wide science, 
research, modeling, monitoring, and data they need to efficiently plan, 
track, and adapt their restoration activities. Over 60 percent of 
program funds go to states, primarily through matching grant programs 
that drive local investment in state restoration priorities. Increasing 
federal support for the program is an important step to save the Bay 
and repair some of the most damaged waterways in Virginia, 
Pennsylvania, and Maryland. CBF recommends that additional funds be 
used to:

    <bullet>  Expand two grant programs--one that improves water 
quality and habitat in small, local waterways, and a second that 
supports innovative and market-based approaches to reducing pollution.
    <bullet>  Assist local governments in reducing pollution.
    <bullet>  Increase assistance to priority watersheds that will 
provide the most cost-effective pollution reductions.

    Simply stated, the Chesapeake Bay Program is the glue that holds 
together the Blueprint. It is therefore important to not only increase 
funding to the program through the appropriations process, but to 
reauthorize the program as well. CBF supports the current proposals 
that have been introduced in the House and Senate that do just 
that.\35\
---------------------------------------------------------------------------
    \35\ H.R. 1620 (116), Chesapeake Bay Program Reauthorization Act, 
S. 701 (116), Chesapeake Bay Program Reauthorization Act.
---------------------------------------------------------------------------
    It is impossible to overstate how important robust and consistent 
federal funding for grants and loans and funding the Chesapeake Bay 
Program is for successful implementation of the Chesapeake Bay 
Blueprint.
                               Conclusion
    The Chesapeake Clean Water Blueprint has infused new life into the 
Bay cleanup. We are seeing accelerated implementation of practices that 
scientists agree will lead to improved water quality and ultimately a 
healing of the Bay. However, what is undone far exceeds what has been 
done to date. Now is not the time to rest, now is ``The Moment in 
Time'' that must be seized to accelerate Bay restoration to gain 
sufficient ground to overcome the continuing crush of population 
growth. The Bay has suffered centuries of degradation. But we do not 
have the luxury of time to save it. Now, in the final and most 
important phase of the clean-up effort, the Bay partnership must finish 
the job.
    The science is clear about what needs to be done, and the Blueprint 
is working. Underwater grasses are recovering. Blue crab populations 
are rebounding. The Bay's dead zone is shrinking. Communities are 
seeing cleaner streams, greener urban landscapes, and increased 
resilience. But the recovery is fragile. We are facing a variety of 
ongoing--as well as some emerging--challenges. Pennsylvania's leaders 
must live up to their commitments.
    Climate change is an imminent threat. Regulatory rollbacks threaten 
progress toward clean water and air. And funding is at risk for 
programs key to the Bay's health.
    As President Reagan said in his 1984 State of the Union, ``Let us 
remember our responsibility to preserve our older resources here on 
Earth. Preservation of our environment is not a liberal or conservative 
challenge, it's common sense.''
    Clean water is our responsibility, our legacy to leave our children 
and grandchildren. We must succeed.

                               __________

               From Rock Bottom to Real Hope in 36 Years
              a positive trajectory for the chesapeake bay

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Mrs. Napolitano. Thank you for your testimony, Mr. Baker.
    I do not know if you are aware, but yesterday there was an 
article in the Washington Times that stated scientists predict 
a record dead zone in the Chesapeake Bay. Some ecologists at 
the University of Maryland are worried that a large spot of low 
oxygen in the Chesapeake Bay could harm the State's seafood 
industry. Scientists from Maryland and the University of 
Michigan said they are predicting a 2-mile swath of low to no 
oxygen in the bay, making it one of the largest dead zones in 
nearly 20 years. That was yesterday.
    Mr. Baker. Yes.
    Mrs. Napolitano. So I think you were right.
    Mr. Baker. And this is after 5 or 6 years of that dead zone 
going down to almost zero.
    Mrs. Napolitano. Thank you.
    Mr. Baker. Fragile.
    Mrs. Napolitano. Ms. Kristi Trail, please proceed.
    Ms. Trail. Thank you.
    I want to thank you for the opportunity to provide 
testimony to you today as well.
    This testimony describes some history on our environmental 
organization and why funding for the Lake Pontchartrain Basin 
Restoration Program, or PRP for short, is vital to maintaining 
the successes we have had.
    It is worth noting that the results achieved and long-term 
impact of our work have been largely based on the continuity of 
effort, which is why programmatic funding is so important.
    For those of you not familiar with Lake Pontchartrain, here 
are a few details. The lake forms the northern boundary of the 
Greater New Orleans area and is crossed by the longest 
continuous bridge over open water in the world, more than 24 
miles in length.
    Lake Pontchartrain and its surrounding lands and waters 
encompass 10,000 square miles. It is part of one of the largest 
estuaries in the country, and it interacts directly with the 
Gulf of Mexico.
    When the Mississippi River approaches flood stage, as it 
has been this year for several months, part of its flow is 
diverted across a flood-controlled structure operated by the 
Army Corps of Engineers called the Bonnet Carre spillway. Thus, 
fresh river water flows into Lake Pontchartrain when it is 
opened.
    In 2019, for the first time ever, the spillway has been 
opened twice, with the second opening continuing now.
    The Lake Pontchartrain Basin Foundation was established 30 
years ago in 1989 in response to environmental concerns voiced 
across southeast Louisiana. In 2000, Congress established the 
Lake Pontchartrain Basin Restoration Program to restore the 
ecological health of the basin by developing and funding 
restoration projects and related scientific and public 
education programs.
    Shortly after PRP was authorized, LPBF established our 
indepth water quality monitoring program. Within just a few 
years of the PRP funding, LPBF worked with the State of 
Louisiana and the U.S. EPA to have the lake removed from the 
impaired water bodies list under the Clean Water Act 303(d).
    Southeast Louisiana's natural resources and built 
infrastructure are of national importance. We know from past 
hurricanes and major oil spills that interruptions to our 
State's workforce altered the Nation's economy.
    Conditions in southeast Louisiana affect our State's 
pivotal roles in energy supply for the New England States; for 
tourism, $47 million in 2017; the estuary that supports the 
seafood industry and ``Sportsmen's Paradise,'' and waterborne 
commerce through the Port of New Orleans.
    All of these systems hinge on continued and increased 
preservation, restoration, and protection efforts benefitting 
Lake Pontchartrain, its estuary, and the coastal ecosystem in 
southeast Louisiana.
    With our funding in 2013, LPBF established a small museum 
inside the restored New Basin Canal Lighthouse in New Orleans. 
Tourists, school children, lighthouse aficionados, and others 
can visit to learn about the region's history and ecology and 
LPBF's successes.
    Since the lighthouse opened, more than 50,000 youth and 
adults have toured its exhibits.
    Our water quality monitoring program has provided timely 
scientific analysis and broad dissemination of results to allow 
citizens to make informed decisions about enjoying the lake for 
fishing, swimming, and other recreational activities.
    The most important component of this effort is maintaining 
a continuous data set. We have been sampling the basin 
continuously every week for 18 years, and we do not want to 
interrupt that data set due to a lag in funding.
    Additionally, to address the need posed by episodic 
problems concerning water quality and public health, we conduct 
needed analyses and provide information for situations such as 
the Mississippi River flows into the lake from the Bonnet Carre 
spillway; potentially toxic algal blooms; oil rig explosions; 
sewage spills; or tropical storms or hurricanes.
    In 2006, LPBR created the multiple lines of defense 
strategy. The lines of defense are both manmade and natural and 
include barrier islands, sounds, marshes, natural ridges, 
manmade ridges, floodgates, levees, pump stations, elevated 
homes and businesses, and evacuation routes.
    Restoring targeted habitat sites, such as swamps and 
marshes, is integral to recreating a self-sustaining coast and 
permanent storm protection for coastal communities.
    PRP funding comprises a critical portion of our total 
budget, though it has decreased significantly over the years, 
and reauthorization allows us to continue our many restoration 
efforts.
    Although the lake and its resources have made a tremendous 
comeback, Lake Pontchartrain and its surrounding area continue 
to face environmental challenges. All across the United States 
the protection of rivers, streams, lakes, bays, and adjacent 
lands can create jobs, protect fisheries relied upon by the 
fishing industry, protect food sources, enhance property 
values, decrease local government expenditures, and provide 
recreational opportunities.
    With congressional support, we can continue this great work 
for years to come, leaving behind a legacy of clean water, a 
strong economy, and a prosperous region. It is for this reason 
we ask for reauthorization of the program.
    Thank you.
    [Ms. Trail's prepared statement follows:]

                                 <F-dash>
     Prepared Statement of Kristi Trail, Executive Director, Lake 
                     Pontchartrain Basin Foundation
    Thank you for the opportunity to provide testimony. This testimony 
describes some history on our environmental organization, and why 
funding for the Lake Pontchartrain Basin Restoration Program (PRP) is 
vital maintaining the successes we've had. The work that has been 
supported by PRP awards to the Lake Pontchartrain Basin Foundation over 
the years is of a uniquely continuous nature. The results achieved and 
long term impact of that work have been largely based on the continuity 
of effort. We also leverage matching funds and in-kind services of up 
to 25% from a wide array of partners.
    The Lake Pontchartrain Basin Foundation (LPBF) was established in 
response to environmental concerns voiced across SE Louisiana. The lake 
forms the northern boundary of New Orleans and the lake is crossed by 
the longest continuous bridge over open water in the world: more than 
24 miles in length. It is a shallow lake, yet larger than Lake Mead, 
Lake Powell, and Lake Tahoe, in terms of surface area.
    Although Lake Pontchartrain and its surrounding area continue to 
face environmental challenges, the Lake and its resources have made a 
tremendous comeback. Much of this success is due to interested and 
concerned citizens who want a clean, healthy Lake and Basin for this 
and future generations, all of which would not be possible with your 
support of this funding.
    Again, I thank you for this opportunity.

                               __________
                          Geography & Habitat
    Lake Pontchartrain and its surrounding lands and waters encompass 
16 parishes (counties): 25% are highly urbanized and 75% are rural. 
Lake Pontchartrain is part of one of the largest estuaries in the 
country, interacting with the Gulf of Mexico through the Rigolets 
Strait, Chef Menteur Pass, Lake Catherine and Lake Borgne. The lake 
experiences tidal changes and varying mixes of salt and freshwater, 
with complex mixtures of herbaceous wetlands, including fresh, 
intermediate and brackish marsh. Five rivers, 20 to 65 miles in length, 
and two bayous flow into the lake and, when the Mississippi River 
approaches flood stage, part of its flow is diverted across the Bonnet 
Carre spillway and into Lake Pontchartrain. In 2019, for the first time 
ever, the spillway has been opened twice, with the second opening 
continuing now.
    Louisiana swamps are an integral part of the wetland ecosystem of 
the Gulf coast. Swamps provide habitat, spawning and nursery grounds, 
and food sources essential to millions of migratory songbirds and 
waterfowl, wildlife such as deer, otter, osprey, swamp rabbits, wood 
ducks, squirrel, muskrat, snakes and turtles, and 18 species of 
concern, including bald eagle, prothonotary warbler, mottled duck, 
swallow-tailed kite, Louisiana black bear, American alligator, 
alligator snapping turtle, and southern dusky salamander. Swamps also 
provide flood water storage and storm surge protection during 
hurricanes. Due mostly to extensive logging around the turn of the 20th 
century, subsidence, nutria, saltwater intrusion, and levee 
construction, there is only an estimated 464,000 acres of swamp 
remaining.
       History of the Lake Pontchartrain Basin Foundation (LPBF)
    Most of the environmental problems that challenge the Basin were 
well recognized by the mid-1970s, yet there was no common effort 
towards restoration. In the spring of 1989, the Greater New Orleans 
Expressway Commission (aka, ``Causeway Commission'') authorized a 
$30,000 study that culminated in a 300-page report, a blueprint for 
cleaning and restoring the ecological balance of the lake. It 
recommended formation of a state agency to lead the effort. Later that 
year, the Louisiana Legislature created the Lake Pontchartrain Basin 
Foundation (LPBF) to carry out that mandate.
    In 2000, Congress stepped in and passed Senate Bill 835, adding 
Lake Pontchartrain Basin, Louisiana and Mississippi, to the list of 
estuaries to be given priority consideration for inclusion in the 
National Estuary Program. Included in this legislation is the Lake 
Pontchartrain Basin Restoration Act of 2000, which requires the 
Administrator to establish the Lake Pontchartrain Basin Restoration 
Program to restore the ecological health of the Basin by developing and 
funding restoration projects and related scientific and public 
education projects. The bill authorized the Administrator to make 
grants for such purposes, and authorized appropriations for FY 2001 
through 2005. The Program received $6 million in Fiscal year 2002.
    The purpose of the Lake Pontchartrain Basin Restoration Program 
(PRP) is to restore the ecological health of the Basin by developing 
and funding restoration projects and related scientific and public 
education projects. Since 2001, the University of New Orleans Research 
and Technology Foundation, Inc. (UNO RTF) has managed the multiple 
grants for the Lake Pontchartrain Basin Restoration Program. 
Historically, eligible applicants have included the Parishes and Cities 
within the Lake Pontchartrain Basin Watershed and LPBF. Shortly after 
PRP was authorized, LPBF established the in-depth water quality 
monitoring program.
    Within a decade of the PRP program's funding, LPBF was able to 
construct nine artificial reefs for fish habitat, work with the State 
of Louisiana and the USEPA to have the Lake removed from the impaired 
water bodies list (under Clean Water Act Section 303(d)), & restore a 
former US Coast Guard Rescue Station post-Katrina for educational use. 
While not an active Coast Guard station any longer, the Coast Guard 
regularly uses the facility for promotion and retirement ceremonies.
    The reauthorization of the PRP Program in 2012 allowed LPBF to grow 
many programs throughout the community and expand our educational 
capacity greatly. In 2013, we rebuilt and repurposed a lighthouse that 
has seen more than 50,000 youth and adults tour its exhibits. In 
addition, the reauthorization allowed us to focus state funds and 
private donations funds into other initiatives, including the planting 
of 56,000 cypress trees to the west & south of the lake. In 2014, we 
finished construction of the Bayou St. John Urban Marsh--an urban 
wetland habitat. The Bayou St. John Urban Marsh is a success, with 
vegetation flourishing and animals rapidly moving in. Anglers have 
noted increased fish numbers and diversity, and shorebirds, waders and 
ducks are feeding in the new habitat. It is a living classroom and a 
laboratory for restoration, and puts regional problems in a local 
perspective: the half-acre marsh is the area lost every half hour in 
south Louisiana.

----------------------------------------------------------------------------------------------------------------
                                                               Amount Awarded
                     FY                         Total PRP        to UNO RTF     Amount Awarded      % of Total
                                                  Amount           (15%)            to LPBF      awarded to LPBF
----------------------------------------------------------------------------------------------------------------
          10...............................       $1,343,760         $201,564       $568,000                 42%
----------------------------------------------------------------------------------------------------------------
          11...............................       $1,835,520         $275,328       $590,000                 32%
----------------------------------------------------------------------------------------------------------------
          12...............................       $1,700,000         $255,000       $780,000                 46%
----------------------------------------------------------------------------------------------------------------
          13...............................         $948,000         $142,200       $335,080                 35%
----------------------------------------------------------------------------------------------------------------
          14...............................         $910,000         $136,500       $246,080                 27%
----------------------------------------------------------------------------------------------------------------
          15...............................         $961,074         $144,161       $327,680                 34%
----------------------------------------------------------------------------------------------------------------
          16...............................         $961,075         $144,161       $327,680                 34%
----------------------------------------------------------------------------------------------------------------
          17...............................         $948,000         $135,973       $300,000                 31%
----------------------------------------------------------------------------------------------------------------
          18...............................         $948,000         $135,973       $346,323.75              36%
----------------------------------------------------------------------------------------------------------------

                        LPBF's Outreach Program
    LPBF's Outreach Program benefits the communities of southeast 
Louisiana, the State of Louisiana, and ultimately the U.S. economy. The 
economic emphasis is due to the national importance of SE Louisiana's 
natural resources and built infrastructure. We know from past 
hurricanes and the major oil spills that interruptions to our state's 
workforce alter the nation's economy. Conditions in southeast Louisiana 
affect our state's pivotal roles in energy supply for New England 
states, tourism ($47 million in 2017), the estuary that supports the 
seafood industry and ``Sportsmen's Paradise,'' and waterborne commerce 
through the Port of New Orleans. All of these systems hinge on 
continued and increased preservation, restoration, and protection 
efforts benefiting Lake Pontchartrain, its estuary, and the coastal 
ecosystem in southeast Louisiana. Consequently, increasing the public's 
understanding at the local, state, and national levels of our 
scientific research findings and strategies to benefit our fragile 
natural resources--to then catalyze their stewardship actions--is the 
top priority in our communications and outreach efforts. The basin's 
needs are being addressed through multiple activities working at 
different scales.
                        LPBF's Education Program
    LPBF established a small museum and its headquarter inside the 
restored New Basin Canal Lighthouse in New Orleans. Tourists, 
schoolchildren, lighthouse aficionados and others can visit to learn 
about the region's history and ecology, and LPBF's successes. LPBF 
continues to provide many programs throughout the community, and since 
the reauthorization in 2012, the funding has allowed the organization 
to expand our educational capacity greatly. Since the lighthouse opened 
in April 2013, more than 50,000 youth and adults have toured its 
exhibits. Often, schools send more than 100 students at one time, who 
can rotate through several learning stations, in groups of 20, across 
the lighthouse grounds.
                             Water Quality
    LPBF's Water Quality Program benefits the waters of the 
Pontchartrain Basin, the public, and the local economy through 
maintaining favorable conditions in the lake and improving the 
condition of tributaries. Overall, the goals and objectives in this 
program are to understand the current and always changing water quality 
conditions, identify remedies and reduce impairments as needed, and 
keep the public informed about all activities. Both local, state and 
federal entities use our semi-annual results, trends, and other 
statistical evaluation of the data collected within the basin. The 
results of this work are transferable to many estuaries throughout the 
United States, and we have been recognized for our work with EPA and 
other federal entities to share with communities with impaired water 
bodies. Here is one recent fact sheet: https://www.epa.gov/sites/
production/files/2018-01/documents/la_natalbanyriver_1622_508.pdf
    LPBF has a weekly Recreational Water Quality Monitoring (Basin Wide 
Monitoring Program) that has provided timely, scientific analysis and 
broad dissemination of results to allow citizens to make informed 
decisions about enjoying the lake for fishing, swimming, and other 
recreational activities. Initially, this program provided a background 
database for the removal of Lake Pontchartrain from the 303(d)/305(b) 
Impaired Waters list (as described on page 36). This Basin Wide 
Monitoring Program will continue monitoring efforts in the basin at its 
ten current sites sampled for in situ parameters and microbial 
indicators, though with additional funding we will be able to add two 
monitoring sites and new water quality parameters.
    In water bodies (e.g., lakes, rivers and beaches), EPA develops 
criteria for exposure to bacteria that may indicate viruses that cause 
illness in humans. LPBF monitors water in southeast Louisiana in terms 
of criteria set by EPA for fecal coliform and enterococci as indicators 
of fecal contamination. EPA is also considering criteria for 
coliphages, which are viral particles associated with E. coli and are 
better indicators of viruses in treated wastewater than bacteria. This 
continued funding will allow LPBF to gather data about coliphages and 
their usefulness as a viral indicator for the protection of public 
health in recreational waters. This funding also allows LPBF to 
advocate for changes to water management practices or issues within the 
basin by sharing our many successes throughout our basin and the entire 
state.
    Primary and secondary benefits include LPBF's education, advocacy, 
and training to owners of homes and businesses has improved water 
quality so that eight water bodies (Lake Pontchartrain and other 
tributaries) have been removed from the Clean Water Act's Section 
303(d) list of ``impaired waterbodies,'' confirming the improved 
environmental conditions.
    Additionally, to address the need posed by episodic problems 
concerning water quality and public health, LPBF aims to conduct needed 
analyses and provide information for situations such as Mississippi 
River flows into the lake from the Bonnet Carre Spillway, potentially 
toxic algal blooms, oil rig explosions, sewage spills, or tropical 
storms and hurricanes. Over the course of 2017, LPBF received 24 calls 
related to illicit discharges (either fuel or sewage in composition) 
into waterways that drained to Lake Pontchartrain. Being responsive to 
the public's concern is an imperative, yet it is very challenging to 
have such unbudgeted and time-consuming events occur. LPBF then seeks 
to document, capture and report to the EPA spills or discharges that 
concern citizens. Because of LPBF's active engagement as a resource to 
the public, LPBF was invited to participate in the State of Louisiana 
Sanitary Sewer Systems Overflows Commission, study and make 
recommendations on actions necessary to timely report, reduce, and 
eliminate sewage overflows.
    Algal blooms have been a prominent concern this spring, due to the 
possible presence of toxin-generating bacteria associated with the 
certain species of algae, and appearance of a bloom both before and 
after the 2018 opening of the Bonnet Carre Spillway, which has opened 
as a result of unprecedented flooding throughout the United States. The 
Mississippi River drains 41% of the United States, and this is now 
flowing though the Pontchartrain estuary with the opening of the 
spillway flood control structure. Phytoplankton and cyanobacterial 
blooms are increasing worldwide due to eutrophication of aquatic 
environments, much of the occurrence a result of anthropogenic nutrient 
enrichment of freshwater rivers and lakes. The influx of nitrogen and 
phosphorus can have a direct impact on algal species composition and 
the formation of noxious and toxic blooms as well as surface scums. 
LPBF has become a partner in EPA's CyAN program, a multi-agency project 
among the National Aeronautics and Space Administration (NASA), 
National Oceanic and Atmospheric Administration (NOAA), U.S. Geological 
Survey (USGS), and led by EPA to develop an early warning indicator 
system using historical and current satellite data to detect algal 
blooms in U.S. freshwater systems. EPA enabled LPBF to collect and ship 
water/algae samples to Golden, Colorado for analyses to identify 
microcystins that generate the toxins. LPBF's expertise has been in 
high demand at this time, responding to inquiries from government 
officials, news media, area residents, as well as film crew managers 
for NCIS New Orleans, who chose to abort a water-based scene planned 
for the actors, after contracting with LPBF to collect and analyze 
water samples.
    LPBF also engages municipal, parish, and state officials in water 
quality task forces aimed at coordinating activities to reduce 
pollution in target areas. The water quality issues of these areas are 
dependent on the development and environmental conditions. These 
learnings have been transferred to municipalities throughout the 
region, state and country.
                        Coastal Sustainability:
    LPBF's Coastal Sustainability Program activities benefit the 
communities of southeast Louisiana and aquatic and terrestrial wildlife 
in the Pontchartrain Basin estuary. The program needs are being 
addressed through multiple types of science and restoration activities, 
providing extensive research for all parishes in the entire 
Pontchartrain Basin estuary.
    LPBF's comprehensive scientific monitoring is released in real-time 
through Hydrocoast maps produced by GIS specialists and released bi-
weekly since 2013. These maps are a snapshot of the basin's ecologic 
condition and water quality. Every two weeks five maps are released, 
including salinity, habitat, biology, precipitation and water quality. 
The maps are used extensively by professional scientists, regulators, 
commercial and recreational fishers. Fishers use them to guide fishing 
activity. State officials use them for guidance on diversion 
operations. On LPBF's website, more than 500 Hydrocoast Maps are 
archived online providing a continuous inventory of basin conditions 
since 2012. In 2018, LPBF released its first an annual atlas of the 
Pontchartrain Basin Estuary. This will represent an annual synthesis of 
the prior year of data collection on hydrocoast maps. The Hydrocoast 
maps have drawn particular interest by the Corps of Engineers, and LPBF 
has a joint project underway as a technology transfer.
    LPBF has a goal to restore Natural Habitats along Lake 
Pontchartrain's armored Southshore. Armored shorelines of concrete 
provide poor habitat for lake organisms, especially juveniles which 
would otherwise use natural marsh edge to hide from larger predators. 
Creating little pockets of marsh will provide small oases for important 
estuarine animals. To restore natural habitats along the otherwise 
armored south shore of Lake Pontchartrain, LPBF has undertaken two 
projects: LPBF created the Bayou St. John Urban Marsh (mentioned on 
page 36) and a new area known as ``Lake Vista'' in Jefferson Parish.
    LPBF led the creation of half an acre of marsh where Bayou St. John 
meets the lake with this funding. Included in this project was a flood 
gate operation plan with the Orleans Levee Board that benefits aquatic 
and terrestrial wildlife and improves water quality along the entire 
Bayou. A short pier over the marsh is planned to accommodate multiple 
user groups: fishers, educators, birders, and neighborhood residents.
                            Saving our Coast
    Most recently, LPBF created the Multiple Lines of Defense Program. 
The ``lines of defense'' are both man-made and natural and include 
barrier islands, sounds, marshes, natural ridges, man-made ridges, 
floodgates, levees, pump stations, elevated homes and businesses, and 
evacuation routes. Restoring targeted habitat sites, such as swamps and 
marshes, is integral to recreating a self-sustaining coast and 
permanent storm protection for coastal communities. The Army Corps of 
Engineers has incorporated the strategy in upgrading its hurricane 
protection system for the region. The Multiple Lines of Defense 
Strategy was developed in 2006 by LPBF. It describes the various 
features on the landscape that reduce the risk of damage from storm 
surge to local communities, infrastructure, and economy.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                               Conclusion
    Reauthorization of the PRP Program is comprises a critical portion 
of our total budget--though it has decreased significantly over the 
years--and allows us to continue our many restoration efforts 
including:

    <bullet>  Weekly lake/river testing for quality assurance, all made 
publicly available
    <bullet>  Science-based advocacy to improve quality of life in 
Louisiana's urban center
    <bullet>  Leadership role in restoring Louisiana's nationally 
significant coastal ecosystem
    <bullet>  More than 100,000 citizens educated each year about 
stewardship for current and future generations
    <bullet>  More public access to waterfront recreation in 
underserved areas
    <bullet>  Data sharing with municipal, parish, state & federal 
government agencies

    Although the Lake and its resources have made a tremendous 
comeback, Lake Pontchartrain and its surrounding area continue to face 
environmental challenges. All across the United States, the protection 
of rivers, streams, lakes, bays, and adjacent lands can create jobs, 
protect fisheries relied upon by the fishing industry, protect food and 
drinking water sources, protect and create tourism opportunities, 
enhance property values, decrease local government expenditures and 
provide recreational opportunities, including those associated with the 
multi-billion dollar fishing industry. Because so many rely on the 
services provided by waterways, when they are not protected, 
governments must undertake costly projects to restore them or to 
replace the services they provide.
    With Congressional support we can continue this great work for 
years to come, leaving behind a legacy of clean water, a strong 
economy, and a prosperous region. It is for this reason we ask for the 
reauthorization of the Program for another 5 years with increased 
funding.
    Thank you for the opportunity to submit this testimony.

    Mrs. Napolitano. Thank you, Ms. Trail.
    We move on to Mr. Ford.
    Mr. Ford. Thank you very much.
    Mrs. Napolitano. Is your mic on?
    Mr. Ford. Sorry. Try that again.
    Good morning. Thank you for the invitation to be here this 
morning.
    Thank you, Chairwoman Napolitano, Ranking Member Westerman, 
Representative DeFazio, and, Mr. Rouda, thank you for the 
invitation to be here today.
    I want to thank you all in addition for so capably 
contextualizing exactly what we are looking at here today, the 
livelihood of many of coastal America's regions, the importance 
of the health and rights of clean water and clean air with 
which I do not know how we can proceed forward.
    I think when I reflect on this because we have heard many 
stats and numbers that what this comes down to is that decades 
ago leadership within the United States House of 
Representatives said we needed to take on these issues. They 
are of national importance. It is our responsibility.
    And I can tell you and I think that the five folks that 
spoke right here before me today understand that without the 
Federal Government's involvement, we cannot effectively make 
this work on the local or State level, and that we do this not 
with regulations and that top-down approach that Mr. Westerman 
spoke to, but we do that with cooperation, sitting around a 
table.
    I like to say that our interaction with our folks starts 
with, ``Hello. How are you? My name is Tom Ford, and I am here 
to help.''
    And because we are locally based and we work with these 
people, we are trusted. We have those relationships, and we 
will also be there for the long run. So they turn to us for 
leadership. They turn to us for a steady hand and support at a 
time when things seem quite unsteady for many of us.
    So it is time again for you to display that leadership, and 
although I am very proud of all of the accomplishments that 
come around this table, I am very thankful that Will Baker is 
here today to speak about the Chesapeake Bay Program, which I 
think became the model for how we should move forward as an NEP 
program.
    And albeit he has had his successes, he recognizes that 
there is no end day where you ring the bell and you walk home. 
The planet is dynamic. Our needs of it are dynamic. The 
challenges that we face are ongoing.
    So thank you for the support that we have received over 
these many decades. That said, the challenges we face are a bit 
daunting at times, and the funding that we receive right now, 
albeit very helpful, it is insufficient, I think, for us to 
face the challenges of our growing population, to protect our 
shorelines, to protect our coasts, to protect our economies, to 
protect all of those iconic animals and ecosystems that we all 
cherish and that provide tourism opportunities, recreational 
opportunities, and a quality of life that I think we recognize 
attracts roughly 40 percent of the population of this United 
States to those shores.
    So what do we face? We face erosion, sea level rise, 
increased storminess. We have an opportunity to preserve our 
fisheries, our tourism, our public and our private 
infrastructure, and all along the way what we do is create a 
more resilient and robust economy and ecosystem that serves us 
all in the future.
    So to quote Ronald Reagan's 1984 State of the Union 
Address: ``preservation of our environment is not a liberal or 
conservative challenge, it's common sense.'' So I will take his 
lead on that one.
    I think I could sit here and tell you in detail about all 
of the challenges, and I would love to brag about all of the 
progress we have made in southern California, but to summarize 
this, I am on the Atlantic seaboard. I am in the Gulf of 
Mexico. I am on the west coast or I am in Puerto Rico and every 
single one of the 28 National Estuary Programs could come in 
here and fill a day's worth of your time, explaining to you the 
successes and the challenges that we have had and that we 
continue to face.
    The wonderful thing that I think we find is that we have 
leveraged the financial contributions from the Federal 
Government 19 to 1, on average. When my program has had an 
especially banner year, we were up at 58 to 1. So we know how 
to put that money to effective use.
    The efficiencies that we find therein are because of this, 
again, local program, locally based from the community up so 
that when the money finally arrives and the project and the 
shovels are ready to go, everybody is engaged. They have 
informed it. Our leadership are informed, and our programs move 
forward with very little resistance.
    I think that that right there is perhaps one of the 
greatest assets that we can provide to you today.
    I thank you for your time, once again, and I am here to 
answer any questions that I may be able to.
    [Mr. Ford's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Tom Ford, Director, Santa Monica Bay National 
  Estuary Program and Executive Director, The Bay Foundation, also on 
         behalf of the Association of National Estuary Programs
    Dear Chairwoman Napolitano and Ranking Member Westerman:
    Thank you for holding this important and timely hearing. The 
Committee's attention to sustaining inter-governmental efforts to 
preserve and improve the health of our iconic coastal waters is of 
great value to the nation.
    My name is Tom Ford, and I am the Executive Director of the Santa 
Monica Bay National Estuary Program and The Bay Foundation (TBF), part 
of the SMBNEP. TBF is the non-profit partner of the Santa Monica Bay 
Restoration Authority, and is focused on research, planning, cleanup 
efforts, and other priorities identified in the SMBNEP's Bay 
Restoration Plan, a publicly adopted, federally approved comprehensive 
plan of action for protecting and restoring Santa Monica Bay. Each NEP 
has adopted a similar plan specific to their estuary.
    I am also representing the Association of National Estuary Programs 
(ANEP). We are comprised of the Directors of the 28 NEPs and dedicated 
to promoting responsible stewardship of our nation's bays, lagoons, and 
harbors. We share lessons learned by NEPs with others who might benefit 
from a similar consensus-based, stakeholder-driven process in resource 
management.
    Before describing the National Estuary Program's role in this work, 
I would like to especially thank one of the Committee's newest members, 
Representative Harley Rouda from my home state, for inviting me today. 
Congressman Rouda has already established a record in providing much-
needed assistance to California coastal communities struggling with the 
very real impacts of a changing climate, including extreme weather 
events.
    Our estuaries and bays represent immense value to our nation's 
economy. Fishing and shipping, tourism and recreation, minerals and 
energy are important contributions. These places--where more than 40% 
of the U.S. population lives and works--are treasured by all of the 
American people because of the opportunities for recreation and 
connection to nature they offer.
    While we as a nation treasure these water resources, however, we 
also change their chemistry with pollution, drive salmon and whales to 
the edge of extinction, and reduce the ability of coastal habitat to 
protect us from storms and flooding.
    The Santa Monica Bay National Estuary Program is one of 28 National 
Estuary Programs created by Congress in 1987 as Section 320 of the 
Clean Water Act to restore and protect some of our most threatened 
bays, rivers and watersheds. These include places like San Francisco 
Bay, Tampa Bay, New York/New Jersey Harbor, my own Santa Monica Bay, 
and as you have just heard from Laura Blackmore, the iconic Puget 
Sound. Our job, as set out by statute, is to assess and reduce human 
impacts on coastal habitats.
    In the 32 years since its establishment, the community-based, non-
regulatory National Estuary Program has gained a reputation for 
effective engagement of all manner of stakeholders for decisionmaking. 
Each site-based National Estuary Program convenes multi-sector advisory 
committees to develop their yearly workplans, building consensus to 
direct local, state, and federal actions to improve the health of our 
estuaries.
    As a non-regulatory program, the National Estuary Program can build 
the trust necessary to drive toward a consensus on actions to restore 
estuaries. We provide consistent assistance to all types of partners, 
with a friendly ``hello, how are you'' that is truly a case of ``we're 
here to help.''
    The National Estuary Programs have continued to meet Congress' 
challenge to document the State of the Bays as well. As part of those 
efforts we conduct research, compile and analyze data, and provide 
technical advice to state and local agencies.
    The National Estuary Program is also expert at marshalling 
resources from all levels of government, foundations, and the corporate 
sector for on-the-ground actions. Collectively, and on average over the 
last 14 years, the Program has tallied up leveraged resources of $19 
for every $1 invested by Congress. The Santa Monica Bay NEP that I 
direct leveraged $29 for every $1 over the past 5 years.
    Congress' vision of a community- and incentive-driven program, 
supported by scientific data and significant investment from partners, 
has proven to be an ideal way to prompt local action through local buy-
in. Because our consensus-based planning processes are supported by the 
community, informed by local data, and broadly funded, when we're ready 
to put the shovels into the ground our communities are engaged, our 
leaders involved, and our programs and projects successful.
    This level of success is the same whether I am at a National 
Estuary Program in the Gulf of Mexico, in Puerto Rico, or on the West 
Coast or the Atlantic seaboard. And I should add that we share our good 
ideas and best practices with our colleagues who are not designated 
Estuaries of National Significance. You can see our fingerprints on 
every coast.
    If Congress sees fit to reauthorize the NEP, the National Estuary 
Programs are ready to continue the work you set in motion 32 years ago. 
With additional funding, each program would be able to increase its 
ability to have a significant local impact; with the competitive grant 
in place we can direct resources to address particularly vexing 
problems afflicting our coastal waters, including algal bloom, ocean 
acidification, and lack of preparedness for major storm events. These 
approaches can serve as modeal for the country.
    Thank you for your attention to the challenges we are confronting 
in protecting our iconic waters. I am glad to provide any additional 
information or answer any questions you may have.

    Mrs. Napolitano. Thank you so very much for your testimony.
    And we welcome all of your testimony. We will move on to 
questions that Members may have for the witnesses, and we will 
use the timer to allow 5 minutes of questions for each Member.
    If there are additional questions, we might have a second 
round, if necessary. And I will start with the questioning.
    And to all witnesses, it sounds like most of you have your 
partnerships working very well. And that is admirable. I wish 
we could do that here.
    But some contend that a bureaucracy leads to inefficiency 
in managing and implementing restoration, and it creates 
duplicative effort across the watershed.
    Do you find this as a challenge having multiple 
jurisdictions to the different priorities?
    And how do you create and implement a comprehensive 
ecosystem restoration plan for the entire watershed?
    Anybody?
    Mr. Cole. Well, I will jump in, and thank you for the 
question.
    You had mentioned the notion that--the ``Wisconsin way.'' 
We get past this notion of the right, the left, the middle. It 
is recognition that there is a problem. Once that recognition 
has been realized, it is rolling up your sleeves and those 
partnerships become vital.
    We have learned through a series of ups and downs and wrong 
paths as to how to go about leveraging the money from local 
jurisdictions, county jurisdictions, State jurisdictions, as 
well as Federal monies as well.
    And the emphasis certainly is environment, but I would be 
remiss not to tell you that the economic impact of all of this 
is very important for the folks who live there.
    Mr. Pine. As I mentioned briefly in my testimony, we have 
put in place a new approach to deal with what can be extremely 
time-consuming and expensive and often onerous regulatory 
processes to allow restoration work to go forward. It is not 
uncommon for the permitting process to take over 3 years, and 
that drives up cost and hampers our ability to do restoration.
    So we have found funding of about $1.2 million a year to 
actually employ staff from six agencies that are committed to 
working together and actually sitting in the same room a couple 
of days a week so that permits can be looked at in a more 
coordinated way and expedite that process.
    They are also charged with looking at the regulatory 
landscape and looking for areas that can be updated because 
many of our processes and regulations were put in place, of 
course, long before climate change and need to reflect the new 
reality.
    Mr. Ford. Perhaps I could respond to that as well.
    I do not find duplicative efforts, and the benefit of our 
Federal link through the U.S. EPA helps us interact with those 
sister agencies, all of which provide very discernable services 
to us in southern California, from the U.S. Geological Survey 
to National Parks, to NOAA, to National Marine Fisheries 
Service, Army Corps of Engineers.
    There are talents and charges resident in all of that, and 
we need the information from them in order to actually enable 
and inform our plans, and then to actually monitor and evaluate 
our success from all of them.
    I would think that for many of these programs also, and we 
heard it from Will; we heard from Laura. These folks are 
working in multiple States. I do not think that anybody wants a 
different endpoint, but without that Federal lens on this, 
there is very little way a State, I think, or a local 
government could even try to approach it. So it is intrinsic 
that we need it.
    Mrs. Napolitano. Thank you very much.
    To all the witnesses. I have a concern with invasive 
species. You have mentioned that is part of the problem and how 
is your region addressing it?
    I know there was a big push to eradicate the quagga 
mussels, and of course the carp, but I was wondering if any of 
you have found a way to deal with it.
    Mr. Cole. Certainly, Madam Chair. Again, on the heels of 
the Great Lakes Governors and the Canadian Premiers, this was 
item number one on the list, the associated problems with the 
electronic fence to allow and stop the--I am on? Hello?
    Mrs. Napolitano. Yes.
    Mr. Cole [continuing]. To stop the Asian carp, again, it 
was sheer recognition that we all had skin in the game, and the 
States of Michigan, Ohio, and Wisconsin will all be teeing up 
dollars and funding to ensure that the Asian carp stays in its 
place.
    Again, the sheer recognition that that is a problem and you 
have the Governors, the leaders of each State, recognizing.
    Mrs. Napolitano. Working together.
    Mr. Cole. Working together.
    Ms. Blackmore. And I would say in Puget Sound, we have 
discovered an invasion of European green crabs, but we are just 
at the very beginning of that. So the State of Washington is 
working with the local Tribes and the local governments and 
citizen volunteers to go out and actually find all the baby 
crabs and get rid of them before they can breed.
    Mrs. Napolitano. Very fine. Thank you very much to you all.
    And I recognize Mr. Westerman for his questions.
    Mr. Westerman. Thank you, Madam Chairwoman.
    And, again, thank you to the witnesses.
    I have visited many of the estuaries that are represented 
at the table today, truly remarkable places. Ms. Trail, my 
friend from Louisiana introduced you. I believe he said you 
were an engineer, and he had to make sure that he put in a 
graduate of LSU.
    But I am an engineer as well. And I know that throughout 
history we have tried to tame the outdoors, if you will, using 
concrete and levees and floodgates, and all of those things.
    And I am often reminded of a quote by Mark Twain who said, 
``One who knows the Mississippi will promptly aver--not aloud, 
but to himself--that 10,000 river commissions, with the mines 
of the world at their back, cannot tame that lawless stream, 
cannot curb it or confine it, cannot say to it, `Go here,' or, 
`Go there,' and make it obey; cannot save a shore which it has 
sentenced; cannot bar its path with an obstruction which it 
will not tear down, dance over, and laugh at.''
    So I find it interesting that you are an engineer doing the 
work that you are doing, and I know what I read, you know, and 
instead of trying to just brute force contain nature, we are 
starting to use more natural designs to help work with nature.
    And could you talk a little bit about what is happening in 
Lake Pontchartrain with natural designs?
    And I would really like to open that up to the rest of the 
panel, too.
    I know with the record flooding we are having now from my 
State in Arkansas and all areas of the Mississippi River, there 
is a lot of Mississippi River water being diverted into Lake 
Pontchartrain that could upset the ecosystem there for quite a 
whole.
    But can you elaborate on natural designs a little bit more?
    Ms. Trail. Absolutely. Thank you.
    And I am a proud LSU graduate of civil engineering. So 
thank you for reaffirming that.
    As I talked about in my testimony, we created the multiple 
lines of defense strategy shortly after Hurricane Katrina, and 
what we like to do is communicate storm surge protection for 
communities as a system; that we need both the natural barriers 
and the manmade barriers to work together.
    So in south Louisiana, we talk a lot about levees, but it 
is important to remind folks that we are not just going to 
build a bigger levee our way out of the situation with some 
signs in sea level rise, that we absolutely have to have those 
natural barriers ahead of the manmade barriers to make the 
system all work together, all components together.
    And a big component of that is not just barrier islands, 
but also having marshes and swamps with those trees that buffer 
wave action and wind action to protect those manmade barriers.
    Mr. Westerman. There has been a lot of work with cypress 
swamps, reestablishing cypress swamps. Are there things that 
could be done upstream in the watershed that would possibly 
help you out from having to take all of that excess flow from 
the Mississippi River in the future?
    Are there projects we could do maybe out of the estuary 
that would benefit the estuary?
    Ms. Trail. Oh, and thank you for asking that.
    You know, we were successful in 2009 in closing a manmade 
structure that entered into Lake Pontchartrain. It was called 
the Mississippi River Gulf Outlet. It was constructed for 
navigation purposes, but what it did at the time was allow 
extra saltwater to enter our estuary, which prevented trees 
from growing all around the perimeter of the lake.
    With the closure of that in 2009, we have seen great 
success in the growth of trees all around Lake Pontchartrain. 
So we have planted trees all around the area to restore a lot 
of the land bridges surrounding south Louisiana.
    We have planted about 60,000 trees in the past 5 years, and 
with our work, we do not just go plant the trees. We monitor 
them every year, and we have had a great success rate of those 
trees staying in place.
    This is an unprecedented situation though with the 
Mississippi River flowing into Lake Pontchartrain for such a 
long period of time this year, but we will be out there 
monitoring to see what effects it does have on the trees.
    We do not yet know if it will have a negative effect. It is 
short term. The lake tends to be pretty resilient, and it will 
bounce back. So we will be monitoring to see the effects of 
those trees.
    Another program that we are looking to do to increase the 
number of trees that we can plant each year is that we 
recognize manually planting trees is labor intensive. We get a 
lot of great volunteers out there to do it. We work with the 
community to do it, but it takes us a long time to get those 
trees in the ground.
    So if we keep doing it at the pace that we are doing it, it 
is going to take us 1,000 years to plant the trees we need to 
plant. So we are looking at innovative technologies to get more 
trees in the ground with things like aerial seeding.
    Mr. Westerman. Would anybody else like to?
    Mr. Baker. Mr. Westerman, I just want to thank you so much 
for that question and acknowledging the value of looking at 
what is called green infrastructure as a way to supplement hard 
infrastructure.
    It is happening I think I can confidently say across all of 
our various systems. It really is important because it is less 
expensive, more effective, and it is putting back what we have 
taken away over the centuries.
    So thank you very much. You hit the nail on the head.
    Mr. Cole. Ditto.
    Mr. Ford. And I would be happy to speak to that as well 
because I think this is an interesting and new transformation 
in the Los Angeles region where I work, and that is that our 
beaches, which we love, and I think that is like imagining New 
York without pizza. You cannot have L.A. without a beach.
    And what we have now said is, ``You know what? The beach 
that we have had there is not the beach that used to be 
there.''
    We are putting that beach back. It is affordable. We are 
engaging the community and the stakeholders.
    A woman that showed up at a public meeting said, ``I do not 
like this. I do not want you messing around in front of my 
house.'' By the time we were done talking, she was like, ``I 
want you to put that ribbon of life in front of my home so that 
I can sleep here knowing that I am not going to face a storm 
that is going to come up and flood my property.''
    So the opportunities are many, but again, to reinforce, I 
think, where we have been earlier today, you know, we are 
receiving $26.5 million right now for the National Estuary 
Program. You guys and your predecessors reauthorized us not too 
many years ago to get us up to around $35 million. We would 
love to see that hit the support and those dollar values come 
out of the proceedings this year.
    Mr. Pine. And if I might just add, in San Francisco Bay 
just a few weeks ago, the San Francisco Estuary Institute in a 
planning group called SPUR released a San Francisco Bay 
EcoAtlas, and it looked at all of the shorelines around San 
Francisco Bay and examined nature-based solutions, tidal 
wetlands, of course, being a major one, but also things like 
oyster reefs and planting of eelgrass.
    Mrs. Napolitano. Thank you, Mr. Westerman.
    Mr. Westerman. Is that my time?
    Mrs. Napolitano. Yes, your time was expired. They did not 
run the clock until about 1 minute after you started. No 
problem.
    Yes, Mr. Carbajal, you are next.
    Mr. Carbajal. Thank you, Madam Chair.
    And thank you to all of the witnesses for being here today, 
and especially to you, Mr. Ford, for your leadership and work 
on behalf of our National Estuary Program.
    I am lucky to be able to represent the central coast of 
California, probably one of the most beautiful districts in 
California, if not the Nation, which includes the Morro Bay 
Estuary.
    I say that lightly to not insult the rest of my colleagues, 
but I think it is the best district in the Nation.
    The National Estuary Program has been immensely helpful to 
providing environmental restoration and protections to our 
tributaries and watersheds.
    Estuaries are also a huge economic driver for tourism 
dollars and commercial fishing. The Morro Bay Estuary Program 
alone off of San Luis Obispo County had an estimated economic 
impact of nearly $50 million in the region.
    Between 2014 and 2015, there were almost 1.5 million 
visitors to the area, with an average of 4,000 visitors a day.
    As the Transportation and Infrastructure Committee 
continues to look at the National Estuary Program, what are 
some of the recommendations that you would propose to maintain 
or increase the success of this program?
    And, two, why is it critical that we continue to fund and 
support this very important program?
    Mr. Ford. Thank you for the opportunity and the question, 
sir.
    I think we have well explored the value of these systems 
and the importance that they have in the lives of millions of 
Americans. That situation is not going to change. If anything, 
there will just be millions of more Americans relying on these 
systems.
    We have illustrated, I think, through the dialogue today 
that there are these historical impairments to today's systems. 
They are not what they once were. What I recognize is that, and 
more and more folks that I work with, is that we need to 
increase the production of these areas. We need to increase the 
resilience of these areas for them to be able to manage the 
challenges that they face in the future.
    There are opportunities to do that. The cost effectiveness 
of doing that today rather than waiting 10 years or 20 years 
down the line are real opportunities that really make those 
dollars that we have to spend on these practices effective.
    And some of the urgency associated with making sure that we 
do not delay and that we make that move.
    I think on behalf of the 28 National Estuary Programs, we 
value the leadership that this body has demonstrated in the 
past, and we are just looking for that opportunity to have the 
current reauthorization package move through at its full 
reauthorization.
    That was a well thought out, good, deliberative process. So 
those additional millions make a lot of difference for the 
millions of people that are out there and would make a 
difference up and down this coast and up and down this table.
    So in summary I would say that is about where I see it.
    Mr. Carbajal. Are there opportunities to expand the 
program?
    Mr. Ford. Well, certainly there are many estuaries in the 
United States of America that are not part of the estuary 
program.
    The estuaries of national significance are what was the 
determination and the process that was put into place.
    The lessons that we have learned are being applied 
elsewhere. There are lessons that we have learned from other 
folks here and model programs that are not part of the NEP, but 
again, I think that that interest that we have and the ability 
to draw from multiple levels of Government and from the private 
sector and from academia to inform all of this help.
    No doubt, I think that there is plenty of opportunity for 
the National Estuary Program to become much bigger. I would 
like to start where it currently exists, and then I would like 
to see how we could make those expansions happen smartly, all 
of that with concordant funding.
    And I think the Gulf of Mexico might prove to be the latest 
testing ground for that in response to the issues and the 
mitigations associated with the Deepwater Horizon oil spill.
    Mr. Carbajal. Thank you very much.
    Madam Chair, I yield back.
    Mrs. Napolitano. Thank you.
    Mr. Webster.
    Mr. Webster. Thank you, Madam Chair, for holding this.
    First of all, I have some testimony by Dr. Jim Murdaugh, 
who is the president of Tallahassee Community College in 
Tallahassee, Florida, that I would like to enter into the 
record.
    Mrs. Napolitano. No objection.
    [The information is on pages 82-86.]
    Mr. Webster. They have done some great things in the area 
of oyster farming, and they have done some awesome things 
covered in this document.
    I do not have anyone in particular. Mr. Ford, what do you 
think the importance of local government involvement in the 
cleaning up of estuaries is?
    Mr. Ford. The importance of having the local government 
involved, I think, is it reinforces that buy-in and the 
inclusiveness of our local communities and trying to make these 
things happen.
    I think the top-down perspective or the top-down regulatory 
approach then dilutes what the local community wants to see 
happen. So when you are standing there with your boots on, 
standing next to the folks that you live with and you are 
looking at a body of water that has these iconic 
characteristics and you say, ``OK. So what should we do here? 
What do we want to see?'' you run that back through the mill to 
make sure that the science that is available to us is informing 
those determinations.
    And you end up with everybody sitting around the table at 
the end of the day going, ``All right. That sounds like a great 
path forward,'' rather than something prescriptive and remote 
coming down from somewhere else.
    And I think that for us that has been the added value of 
having the local government, the State government, and the 
local communities involved.
    Mr. Webster. Do you think they have pulled their weight?
    Mr. Ford. I am sorry. One more time, sir.
    Mr. Webster. Do you think they have pulled their weight?
    Mr. Ford. Do they pull their weight? They certainly do pull 
their weight in my area, and I can think of numerous examples 
from stories and communications amongst the other programs that 
I work with.
    Certainly some regions are able to lead more capably than 
others, but I have not found anybody that has got a local 
government that is disinterested in having these types of 
benefits manifest.
    Mr. Webster. Anyone else on that issue?
    Ms. Blackmore. Yes, if I could add, in Puget Sound, there 
are a couple of watersheds in King County near Seattle where 
the local governments have banded together and signed an MOA, 
memorandum of agreement, where they are all contributing funds 
to fund six staff to create a local plan, and then each of 
those local governments implement it through their land use 
decisions, through their wastewater treatment decisions.
    Local government is where the rubber hits the road. So we 
cannot do this without them.
    Mr. Webster. Do you think they should do more?
    Ms. Blackmore. Can they do more? You know, I have 
tremendous respect for my local government partners. They are 
sitting in front of folks, their constituents, listening, 
trying to balance mental health issues, homelessness, public 
safety with the environment.
    I think they are doing a tremendous job. Can we all do 
more? Yes, and I hope we will.
    Mr. Pine. And in San Francisco Bay, we are very proud of 
our Measure AA, nine-county parcel tax. It was really a 
historic measure, first time in the history of the bay area 
where all nine counties came together around one funding 
measure to raise the $25 million a year, really the first 
climate adaptation measure locally passed, I think, in the 
country.
    Mr. Webster. So you think they can do more or they have 
done enough?
    Mr. Pine. The State of California has been investing 
significantly in our work, and again complemented with local 
money, a lot is being invested at that level.
    Mr. Webster. So do you just think we could just block grant 
our money and send it to you or the others?
    Mr. Pine. I am sorry. I did not hear your question.
    Mr. Webster. Do you think we should block grant our money 
and just send it to you or to the locals or through the State?
    Mr. Pine. I think the benefit of the Federal program, of 
course, is having a guaranteed stream of funding, which allows 
the longer term planning process.
    You know, we compete for funding through the Army Corps, 
but again, our only guaranteed funding today is the $5 million 
from the EPA. So compared to the other watersheds, it is very 
modestly funded, and that ongoing Federal funding can, again, 
really help the planning effort.
    Mr. Webster. Thank you very much.
    I yield back.
    Mrs. Napolitano. Thank you, Mr. Webster.
    Mrs. Craig, your turn.
    Mrs. Craig. Thank you so much, Madam Chair.
    I am proud to hail from Minnesota where we take our more 
than 10,000 lakes very, very seriously. In fact, we have got 
11,842 lakes that are more than 10 acres in size.
    And, Mr. Cole, you know why I am bringing this up here 
today. We recently got a little controversy in Minnesota where 
Wisconsin claimed to have more lakes than Minnesota. So I enjoy 
your cute, little ponds in Wisconsin.
    [Laughter.]
    Mrs. Craig. So thank you.
    Although my district is quite a way from Lake Superior, I 
am proud of the work that has been done to restore Minnesota's 
ecosystems and grow economies along its waterfronts.
    In your testimony, Mr. Cole, you mentioned the very 
positive results of the Great Lakes Restoration Initiative in 
both your written and oral testimony.
    You also voiced successes across the larger region. The 
GLRI represents substantial American investment and elbow 
grease to get our iconic Great Lakes back to pristine 
condition.
    Can you share some key lessons or take-aways about this 
important initiative that is brought to light?
    Mr. Cole. Thank you for that question.
    Fifteen thousand two hundred seventy-one cute, little lakes 
in the State of Wisconsin. Thank you for that.
    [Laughter.]
    Mr. Cole. Key take-aways is as the regulator in the State 
of Wisconsin, we began to use, first of all, commonsense 
regulatory frameworks to address some of the substantive issues 
that impact local government, regional government, and 
certainly the States.
    Some of those key take-aways are to leverage that money 
that you have. In recognition that most often that money 
trickles down to the engineering company, the folks who dredge, 
but also that the economic impact that they have in towns like 
Sheboygan, who has cleaned up their estuary, certainly in 
Milwaukee where they have cleaned up their estuary. It is a 
robust economy now that you can walk along the boardwalk in 
Milwaukee, and we no longer turn our backs on these estuaries.
    The local governments have skin in the game from the 
standpoint they want to be just like the Chesapeake Bay and 
some of these other places that we have talked about because 
they have been successful. They want their piece of the 
American dream through cleaning up properties and toxic hot 
spots that still reside in many of these towns.
    They are driven by environmental protection, but they know 
they have to put their people to work. So the jobs associated 
with this kind of thing and what we are doing, what the GLRI 
does is certainly recognized, and the continuation of talking 
about local level jobs, and that question has been talked about 
today, jobs, jobs, jobs, and the economy around doing this 
work.
    Once we reconcile a commonsense regulatory framework, we 
roll our sleeves up, and then we just get to work. We do not 
overthink it. We get to work.
    My responsibility is to remove some of the barriers out of 
their way and make sure that we can have a collaborative 
effort.
    Mrs. Craig. Thank you so much, Mr. Cole. I like to hear a 
little Midwest common sense. Roll up your sleeves and get to 
work.
    The financial benefits of the restoration and where you 
think we can expand those benefits even further if the program 
is expanded, anything beyond the jobs?
    Mr. Cole. Many of us at this table are not done. We have a 
lot more work to do. It is, as you heard in my testimony, a 
significant downpayment on reconciling, you know, where we 
still have toxic hot spots. There are still folks in the State 
of Wisconsin that still have to worry about turning on their 
water and getting fresh drinking water.
    We have talked about this being the year of clean, fresh 
drinking water. You cannot overthink the health implications. 
Our Governor recognizes the health implications of clean, fresh 
drinking water.
    And so we have to go that fresh--we have to take our fresh 
coasts and make sure that they continue to provide the safe, 
fresh drinking water that we all deserve.
    And that, again, we are able to leverage what we do in 
these toxic hot spots that flow through the rivers into the 
Great Lakes that we're all subject to human harm if we do not 
get ahead of it.
    So we are not done. We still have a lot more work to do, 
and that is where that additional funding, that continued 
funding will help us. We are just not done.
    Mrs. Craig. Thank you so much.
    Madam Chair, I yield the remainder of my time.
    Mrs. Napolitano. Thank you very much, Mrs. Craig.
    And now we recognize Mr. Woodall.
    Mr. Woodall. I wanted to focus on the east coast a little 
bit. So, Mr. Baker, that focuses on you.
    I was watching your poker face as the chairman was giving 
his opening remarks. Here you are with 37 years of leadership 
with the Chesapeake Bay Foundation, and I believe the 
chairman's comment was that Chesapeake has made scant progress 
here.
    I prefer Mr. Ford's comment that the Chesapeake Bay Program 
is a model program that we can learn from, and I appreciated 
the inclusion in your handout about where we have been from 
1982 to 2018.
    That is my frustration as a Southeastern Republican. I do 
not think anybody plays outside more than I do. I do not think 
anybody wants natural resources preserved more than I do, but 
there is this constant drum beat of you are never doing enough.
    And, yes, we can always do more, to Mr. Webster's point, 
but we need to celebrate our successes when we have them 
because I know if I am living in a community that is just 
failure after failure after failure, I am thinking, ``What is 
the point? What is the point of doing more?''
    Tell me about that from the Chesapeake Bay Foundation 
perspective. You led in your comments talking about the 
importance. You led with the seafood industry.
    Now, I have a lot of constituents back home in Metro 
Atlanta who do not know anything about the seafood industry, 
except how good it is to eat, who might assume that because you 
are leading in the environmental preservation and improvement 
side, that you might be at odds with the watermen and the 
seafood industry.
    Can you talk to me about that, that partnership, how we 
really are all in this together?
    Mr. Baker. You put a lot on the table, sir. Thank you.
    Mr. Woodall. You have 3\1/2\ minutes, Mr. Baker.
    Mr. Baker. First of all, I could not agree with you more 
that people cannot take bad news after bad news after bad news, 
and when you see progress, you have got to identify it.
    We in the Chesapeake Bay have had progress. That does not 
mean we are done, obviously. But you know, when you go back 42 
years, what I saw in the bay when I started as an intern at the 
Chesapeake Bay Foundation was a system that was, in fact, 
dying. It is no longer dying.
    The resilience which has built up in the system makes the 
scientists believe that even with the hit we took last year 
with all of that rainfall, it may not be anywhere nearly as bad 
as it could have been.
    I will give you one example. There is an enormous area of 
underwater grasses up near the mouth of the Susquehanna River 
at the top of the Chesapeake tidal bay. That underwater grass 
bed, even with last year's amount of rain and sediment coming 
down the Susquehanna River, still had almost crystal clear 
water in the middle of the grass bed. Around the edges it was 
terribly murky, opaque, but in the grass bed which survived, it 
still was very clear.
    The blue crab population, Chesapeake Bay has been called a 
crab factory by H.L. Mencken, an immense protein factory; 
starting to come back to levels that could be seen as 
sustainable.
    Oysters, which are called the coral reefs of an estuary, 
are being restored, and they are being restored using science 
as the basis for where it goes, where they should be rebuilt.
    Now, to the commercial fisherman and those who are working 
on restoration, of course, there is some tension. One example 
is putting oyster reefs into sanctuary status to let them build 
back up. The watermen, the commercial fishermen would like to 
get in there and harvest them.
    We understand that, but in the long run, we both see eye to 
eye. It is sustainability of fisheries. It is good for the 
economy, good for the community, and good for the environment.
    Mr. Woodall. Let's talk about that oysterman issue. Yes, if 
I am counting on the water to feed my family, I would like to 
be in there every day. I know seasons are going to get longer 
and shorter, but as a nonbiologist, I would have said 
rotational harvesting has ecological value.
    And so now we start to get on the same page, a waterman 
family and a sanctuary family. Is that the experience the bay 
is finding?
    Mr. Baker. Yes, it is. It is being practiced on the 
Chesapeake Bay just like rotational grazing for cattle.
    Mr. Woodall. And when we look at those supporters of the 
bay, because folks talked about funding streams, and I 
appreciated the comment, Mr. Pine, that you thought Federal 
funding streams were reliable. That encouraged me because I do 
not hear that all the time back home.
    Who is supporting the Chesapeake Bay Foundation?
    Am I a property owner with marsh grass in my front yard?
    Do I live in the West Virginia mountains and I just want to 
find a place to vacation?
    Am I a waterman family who is depending on the next six 
generations of crab harvests to keep the family alive?
    Mr. Baker. All of the above. Ninety percent of our funding, 
and we are at about a $25 million organization, is from private 
citizens and foundations.
    We have members in every State in the Union. We have 
275,000 members across the country, most in the mid-Atlantic 
region. So it is from young people to older people and 
everything in between, all walks of life.
    Mr. Woodall. Thank you, Mr. Baker.
    Thank you, Madam Chair.
    Mrs. Napolitano. Thank you, sir.
    Ms. Mucarsel-Powell.
    Ms. Mucarsel-Powell. Thank you, Madam Chair.
    Thank you so much for coming this morning.
    I think that the most important issue we have facing our 
Nation is clean water, and I happen to disagree with 
Congressman Carbajal who left already, but I think I represent 
the most beautiful district in the country. I have the 
beautiful Everglades National Park as part of my district.
    And as you know, the Everglades provides clean drinking 
water for about one-third of Floridians, and we depend on a 
healthy Everglades. It is necessary for tourism, for our 
economy, for the fishing industry, for the livelihood of the 
families that live in that southern area.
    And the water that we receive to the Everglades flows east, 
west and south, from Lake Okeechobee, and as you can imagine, 
the quality of the lake, and I am sure you have all heard, is 
in such terrible shape that it is filled with phosphorus, 
nitrogen, other toxins from runoff.
    Then add those hotter summers that we are seeing, and it is 
the perfect recipe for cyanobacteria, which leads to disgusting 
and dangerous algal blooms.
    And I just want to remind what we went through to everyone. 
Last summer, this is what we saw in the coast of Florida, and 
as a result, we saw thousands of tons of dead fish wash ashore. 
We have lost dolphins. We have lost manatees.
    It is a situation that we cannot continue to live through, 
and we must find a solution as quickly as possible.
    So my first question, Mr. Baker, I wanted to see and ask 
you if reducing the pollution in the water that is already in 
the bay, if you have found any solutions on dealing with the 
water that is polluted right now in the bay and if you can 
elaborate on that a little bit.
    Mr. Baker. Nature is remarkably resilient. If you meet her 
halfway, she will be resilient. So our emphasis and that of the 
scientists working in the Chesapeake Bay region is to slow the 
amount of pollution coming in.
    And for just about every aspect of society, that is saving 
money because polluting is very expensive. The major vector for 
pollution from agricultural areas, for instance, is topsoil. 
And if you keep topsoil on the farm, you are doing better 
agronomically.
    So while there is some emphasis in certain hot spots for 
dredging and things like that, the cost of that would be so 
vast that really the emphasis has been on reducing future 
pollution, more pollution. And what we are seeing is that 
nature is bouncing back.
    Ms. Mucarsel-Powell. And what lessons have you learned from 
balancing local and Federal authorities on dealing with the 
pollution in the bay?
    Mr. Baker. Well, you know, it takes a family. So it really 
requires local, State, and Federal Governments to work together 
with the scientific community. Without that, you are going to 
miss an important ingredient.
    So it is critical you have all three.
    Ms. Mucarsel-Powell. And do you think it is appropriate 
then to give the EPA full regulatory authority?
    Mr. Baker. Well, the States have a lot of regulatory 
authority, and EPA is the umbrella over them.
    What I mentioned in my oral testimony is that science says 
the Chesapeake Bay and other bodies like we are seeing must be 
treated as a single system. The State of Maryland cannot do 
anything in Pennsylvania. Pennsylvania cannot do anything in 
New York.
    The Federal Government is the one jurisdiction which can 
view and manage the Chesapeake Bay system the way science tells 
us we must.
    Ms. Mucarsel-Powell. Thank you, Mr. Baker.
    Secretary Cole, can you describe in more detail what 
actions you have taken?
    What agreements have you reached with regulators and 
farmers to achieve the significant reduction in the Great 
Lakes, which have caused the harmful algal blooms?
    Mr. Cole. Farmer-led initiatives is the key framework 
whether we are in the Green Bay area, where NEW Water, the 
sewage treatment plant, works with local farmers to create 
these grassy waste ways, takes some of that property out of 
tillage, and then harvests the phosphorus on the backend and 
resell the phosphorus pellets.
    So farmers, as an FFA kid, farmers are often to blame for 
algal bloom, and a lot of it is whether it is nitrogen that 
they are putting on for cornfields or a complex mixture of, you 
know, chemicals and ingredients. It is the timing of all of 
this where they are in the soil protection business. Without 
the soil, without good quality soil, farmers will not be able 
to bring their products to market.
    These generations of farmers that we have entrusted this 
with in the State of Wisconsin recognize the sheer fact that 
they cannot do what they used to do; that these cover crops in 
the winter to reduce the soil erosion and the perfect 
application of the right types of nutrients at the right time 
is critical to the watershed.
    So they have become champions in terms of, at least in my 
eyes, in the sheer recognition that they have skin in the game 
if they want to stay in that business.
    We celebrated earlier this week the Cuyahoga River being 
caught on fire 50 years ago. We have come a long way, baby. Was 
that not an ad back in the day? We have come a long way, and we 
have.
    But the sheer recognition with the farming community in the 
State of Wisconsin is awesome, and that is what we have learned 
over time.
    Ms. Mucarsel-Powell. Thank you so much.
    Mr. Huffman [presiding]. Thank you, Mr. Cole.
    The Chair now recognizes Mr. Babin for 5 minutes.
    Dr. Babin. Thank you. I appreciate it, Mr. Chairman.
    I appreciate all of the witnesses being here. Thank you for 
your expertise.
    This will be to the whole panel, and if you could keep your 
answers short, I would appreciate it.
    I have the distinct pleasure of representing southeast 
Texas, from Houston to Louisiana, including the estuarine 
waters of Galveston Bay and Sabine Lake. This is where I have 
lived my entire life, born and raised down there.
    I remember well when excessive pollutants were deterrents 
from enjoying many of the great outdoor advantages that are 
home to southeast Texas, but over the years we have made great 
strides in restoring our land and water in the area and 
allowing so many, including my own children and grandchildren, 
to enjoy the fishing and hunting and hiking and boating 
available to us there.
    Making these sorts of outdoor activities possible are the 
National Estuary Programs, such as the Galveston Bay Estuary 
Program. As a matter of fact, the Galveston Bay Estuary Program 
is headquartered in my district in Clear Lake.
    But some of the many other projects that I am proud to have 
in my district include Armand Bayou, Marsh Mania, Garden Marsh 
Conservation Project, Turtle Bayou, Shipe Woods Habitat 
Protection, and Anahuac National Wildlife Refuge.
    These projects have been collaborative and 
nonoverregulative successes. They have continued to showcase 
the environmental beauty of southeast Texas. With that being 
said, no Government-run program is perfect. At least I have not 
found one yet.
    How can we improve upon the National Estuary Program?
    We will start down here. Mr. Cole?
    Mr. Cole. Well, again, the short answer is collaborate, 
collaborate, collaborate. Leverage the money at the local, 
State and Federal levels. Partners in the room; shared 
recognition of, continued recognition of that we are not done. 
There is a lot more work to do.
    Again, the leveraging part of using Federal dollars and key 
partners in this, that shared vision moving forward has worked 
in Wisconsin for a long time.
    Dr. Babin. Thank you very much.
    Mr. Pine?
    Mr. Pine. I would agree that the collaboration is critical, 
and the investment of those Federal dollars will be leveraged 
tremendously. So particularly in the bay area those dollars are 
very much in need.
    Dr. Babin. Thank you.
    Ms. Blackmore.
    Ms. Blackmore. I agree with my colleagues, and also I would 
add I believe the current House appropriations bill includes an 
increase in funding for each of the National Estuary Programs, 
which would be very, very welcome, as well as the creation of a 
competitive grant program.
    So those of us with projects that we are really excited 
about can apply for that, and you can direct funding to the 
places that it is most needed.
    Dr. Babin. Thank you.
    Mr. Baker. All of my mother's side of the family are from 
Houston, and I helped get the Galveston Bay Foundation started. 
They are doing great work.
    Dr. Babin. Absolutely. Thank you. Thanks to her.
    Mr. Baker. Thank you for your support.
    My simple answer is science. Make sure science is at the 
table. Sometimes scientists will disagree. Bring them together. 
Tell them to hash it out and give the best recommendation they 
can come up with.
    Dr. Babin. That is good.
    I would like to also add that I used to work for the Texas 
Parks and Wildlife Department between college years. I was a 
wildlife technician and worked in inland and marine fisheries, 
both.
    Yes, ma'am.
    Ms. Trail. The Lake Pontchartrain region is actually not 
part of the National Estuary Program, although we do function 
very similarly to one.
    So we partner with not only the State government, but also 
local government, and it is just important that we collaborate, 
as my colleagues have mentioned.
    And I would also like to reiterate what Mr. Baker mentioned 
about science. Our organization is grounded in science, and 
integrity in science is everything we do.
    Dr. Babin. Great. Thank you.
    Yes, sir, Mr. Ford.
    Mr. Ford. Yes, sir. I think the additional aspect that 
really comes to my mind is the effectiveness of communication, 
and I think Mr. Woodall brought that up, that, you know, hey, 
yeah, sounds like things are great. Well, they are not that 
great.
    Well, how do I evaluate that? I work with people where some 
algae is good and other algae is bad or too much algae or the 
algae in the wrong place.
    So our ability to effectively communicate and manage these 
partnerships collaboratively, make sure that science is nested 
in that communication is a key element in our success, and it 
is one of those places where I think we could all do some more 
work.
    Dr. Babin. Thank you.
    And I do not have much time left, but just talking about 
the money, the science, the partnerships, moving forward, do 
you believe that we can create and incentivize more public-
private partnerships that will allow us to be responsible 
stewards of this land and the taxpayers' dollar?
    And why should someone, say, from Iowa be footing the bill 
for land and water conservation in Texas?
    Would somebody like to take a stab at that before our time 
runs out, which it already has, but does somebody want to take 
a stab at that?
    Mr. Baker. Sure.
    Dr. Babin. Go ahead, Mr. Baker.
    Mr. Huffman. A quick stab.
    Mr. Baker. The answer is yes. But ask the folks in Iowa did 
they like the seafood that comes out of the Galveston Bay.
    Dr. Babin. Absolutely. Thank you.
    Mr. Huffman. All right. The chair, I now recognize myself 
for 5 minutes.
    And I want to thank this excellent panel. It is great to 
hear witnesses from some of the great estuaries around our 
country and the communities that depend on them.
    We know and we are being reminded today that estuaries 
provide a wide range of ecosystems services. Those of us in the 
San Francisco Bay area--welcome, Supervisor--we get that. We 
take great pride in our outdoor recreation, our commercial and 
recreational fishing, as well as the benefits of coastal 
resiliency that our wetlands provide buffers against rising sea 
levels.
    And let's not forget also the role of blue carbon, the 
potential for healthy wetlands to help sequester the carbon 
emissions that are imperiling our planet. So lots to consider 
here.
    Supervisor Pine, thanks especially to you for coming out 
and helping talk about the importance of San Francisco Bay as 
an estuary that is truly of national importance. In your 
testimony you discussed the important role that our bay 
provides to waterfowl in the Pacific flyway; of course, our 
iconic California salmonid species, and Dungeness crab.
    Species like salmon are not just iconic for California 
though, and we need to remind people that. They are truly west 
coast-wide, and I appreciate the testimony of Ms. Blackmore 
reminding us about the importance that salmon provide to the 
declining orca population. And so there are many reasons to 
work together to protect these resources.
    Californians, I think, definitely recognize the importance 
of San Francisco Bay, and that is why in 2016, the nine bay 
area counties came together, actually taxed themselves, passed 
Measure AA, to support climate adaptation and restoration 
funding.
    And Supervisor Pine, I wanted to ask you to just speak a 
little more about that. I think it is important that Members of 
Congress know that the Federal support that this estuary 
provides a place like San Francisco Bay is matched many times 
over with really unique and important local support. Could you 
speak to that, please?
    Mr. Pine. I would be happy to. The Measure AA process 
really started with the creation of what is called the San 
Francisco Bay Restoration Authority in 2008, and this is a 
special district encompassing all the bay. And we were 
chartered with the task of finding a local funding mechanism to 
accelerate the bay restoration.
    So between 2008 and 2016, we looked at a variety of 
approaches and waited for the economy to improve, and then went 
forward across all nine counties with a $12 parcel tax for 
every parcel in the bay area.
    And the effort had a remarkable coalition behind it, with 
strong backing from the business community, who of course 
recognized the flood protection elements of restoration; strong 
backing from labor; strong backing from the environmental 
community.
    And when we polled, we found that our residents care deeply 
about the bay and its ecosystem and want to be sure it is 
passed on to the next generation in a better place than it is 
today. So a 70-percent positive vote was the remarkable 
outcome, and we have had two rounds of grant funding through 
Measure AA that have kicked off or helped supplement 13 
different projects, and is really a linchpin of our restoration 
efforts now.
    Mr. Huffman. Yes. Seventy percent support is remarkable. I 
mean, just the fact that these counties all did come together 
to tax themselves is impressive, but that level of support 
really speaks to the imperative that the people of the bay area 
see to protect the bay.
    Now, obviously we have done some harmful things to the San 
Francisco Bay Estuary over the years, going all the way back to 
the Gold Rush but certainly including the dam-building period 
of the previous century, and the loss of sediments. I know one 
of the imperatives that weigh on the mind of voters was the 
fact--projections--that we may be only a decade away from 
losing many of the salt marshes and mudflats that make up the 
bay.
    Can you speak to that and how that played into the minds of 
voters?
    Mr. Pine. Yes. That is a big concern because with sea level 
rise accelerating, we do run the risk of losing the 
opportunities to do this restoration. The last thing we want, I 
want, for the San Francisco Bay is just to surround it by 
infrastructure and flood walls. Former saltponds, which of 
course were a very industrial use, were really kind of a 
blessing in disguise because the land is at least there to be 
restored. But if we don't act, those lands will be flooded.
    Mr. Huffman. Thanks, Supervisor. In my final few seconds, I 
want to just say how proud I am to be a cosponsor of 
Congresswoman Jackie Speier's bill. You mentioned it earlier, 
H.R. 1132, establishing authorization of $25 million a year 
annually for EPA grants to bay conservation and restoration. I 
hope that is something that we can work on together in this 
Congress.
    And with that, I will yield. And Mr. Garamendi for 5 
minutes.
    Mr. Garamendi. Thank you, Mr. Chairman, Acting Chair.
    I want to just really commend all of you for the work you 
do. It is extremely important. Back in the 1990s, when I was at 
the Department of the Interior, where we started working on the 
Everglades program--not there yet; working on the Chesapeake 
program--not there yet; San Francisco Bay, and on and on. The 
NEP is extremely important.
    The support of the Federal Government is critical here. 
Much of this started with the Clean Water Act, foundational. 
And some States were ahead of it; other States followed along 
after the Clean Water Act went in place, providing the 
foundational law for cleaning up our estuaries and our rivers. 
And we have got more to do.
    I notice that this particular NEP expires in 2021. I would 
hope that we have a reauthorization effort this year so that by 
the end of 2020, we are ready to go. And I suspect all of you 
support that; you can nod your heads yes. I noticed you all 
nodding. There is more to do.
    The role of the Federal Government here is critically 
important. It provides the foundation. It also provides support 
in many, many different ways--not just with the small amount of 
funding in the estuary program, but with all of the other 
programs.
    I think it was--I forget which one of you--were talking 
about the length of time that it takes. Mr. Ford, I believe you 
were the one. You talked about the length of time it takes to 
get a project underway. And you want to claim credit for that 
comment, Mr. Pine; that is fine.
    But it does take forever. And the coordination between the 
various agencies is really something we need to work on here 
and to pull that together. I would really appreciate your 
specific suggestions on how that might be done.
    So let's run quickly through, right to left, my right to 
your left. That would be you, Mr. Ford, first. Thank you for 
the work you have done on Santa Monica Bay.
    Mr. Ford. Thank you, sir.
    Mr. Garamendi. I have been involved in that for more than 
40 years myself, so let's go.
    Mr. Ford. Right.
    Mr. Garamendi. How do we coordinate? What do we need to do?
    Mr. Ford. Yes. I think what we are able to provide now, and 
arguably with continued support we would be able to continue to 
provide it and increase it, which is simply that we get folks 
working to get on the ground early so that when these projects 
manifest, sir, they are not a surprise.
    I have certainly heard from various leadership in the State 
of California or here in the District of trying to figure out 
how to help streamline and fast-track some of these programs 
that have these environmental benefits because we need them and 
we need them now. So I think there is plenty of opportunity to 
explore it.
    Mr. Garamendi. Early on. Get together early.
    Ms. Trail. Thank you for this great question. I think we 
have a lot of great work that goes on, and it is continuous. As 
I have mentioned, we have been around for 30 years. And a lot 
of the decisions that we make are driven by the data that we 
have collected continuously for 30 years. And so it is really 
important for us to maintain that continuous data set to drive 
smart decisions.
    So to keep this program going and to ensure that that 
funding continues on a regular basis would really help us to 
continue that science-driven work.
    Mr. Baker. On the Chesapeake, there is something called the 
Executive Council, which meets annually--the Governors of all 
six States, the mayor of the District of Columbia, and the 
Federal lead agency, EPA, bringing the leadership together to 
discuss and decide and plan how to move forward new projects. I 
think it has been critical for us, and I would suggest it is a 
good model.
    Ms. Blackmore. The National Estuary Program requires us to 
pull together the Federal Government, the State government, 
local government, Tribes, the agricultural community, the 
environmental community, business community. We do that now in 
all 28----
    Mr. Garamendi. You are doing--excuse me. I am going to 
interrupt. We are almost out of time here.
    Ms. Blackmore. Oh, sorry.
    Mr. Garamendi. You are doing it. Do we need to go into the 
various Federal agencies that are involved--Corps of Engineers, 
EPA, so forth--and require them to coordinate with the local 
agencies?
    Ms. Blackmore. It is a great question, and actually, in 
Puget Sound, so Congressmen Heck and Kilmer, have introduced 
H.R. 2247, the PUGET SOS Act, which would require the creation 
of a Federal task force in the program office at EPA. And that 
would help coordinate, bring them together, hold them 
accountable, require all the Federal agencies to work together 
to create their own action plan, working with us.
    Mr. Pine. Congressman Garamendi, in the bay area, we have 
taken this challenge on in earnest in creating what we've 
called the Bay Restoration Regulatory Integration Team, where 
we are requiring and helping to fund, the regulators to look at 
our applications in a more comprehensive and collaborative way. 
And we have put in place timelines----
    Mr. Garamendi. I am going to have to interrupt. I am out of 
time. Excuse me for interrupting. The question is really one 
directed to the Federal Government and to a Federal law or 
requirement that the Federal agencies must coordinate and come 
together early on in an issue, whatever that issue might be.
    And I would like to hear from all of you with a little memo 
following up on that. Thank you very much.
    Mrs. Napolitano [presiding]. Thank you, Mr. Garamendi.
    I believe we will go into a brief second round of 
questions, if you do not mind. And I guess I will start off 
with all of you.
    If Congress does not reauthorize the NEP and increase 
funding for the programs, will our coasts suffer, and will you 
enjoy economic growth? Will you be able to restore those areas? 
From any of you.
    Mr. Baker. The Chesapeake Bay is not part of the National 
Estuary Program. It was really the model that the NEP was 
formed, based on. But I would like to take the opportunity to 
thank Congresswoman Elaine Luria for introducing legislation to 
restore the authorization for the Chesapeake Bay Program.
    And I might also just mention one notion. Estuaries are the 
first line of defense for the impacts of climate change on 
coastal areas.
    Mrs. Napolitano. But they do not believe in climate change.
    Mr. Baker. Just if you are concerned about increased 
storms, sea level rise, warmer water, estuaries are the first 
line of defense, call it whatever. Estuaries are too important 
not to protect for the benefit of people living in coastal 
areas. Thank you.
    Mrs. Napolitano. Mr. Ford?
    Mr. Ford. If I may, and Will said it earlier, the glue is 
much of what a lot of this funding provides. And I have no 
doubt that our estuaries of national significance amongst those 
28 programs that are out there working day in and day out, if 
this funding were to go away, they would be greatly diminished 
and the services that they provide would also be greatly 
diminished.
    Mr. Cole. We think we have a model program in Wisconsin, 
and we get to go back and tell the Wisconsinites that we have a 
partnership with Federal Government. They care about clean 
drinking water. They know that adaptation is important for 
climate change, that they recognize that people in Wisconsin 
often have challenges turning on their drinking water to get 
clean drinking water.
    Economic development aside, the human health implications 
about what we are doing with this funding is part and parcel to 
saving babies' lives, saving communities, and reducing the 
harm. So our commercial, where Governor Evers and I said, 
``Congress gets it.'' Thank you.
    Mrs. Napolitano. Thank you very much.
    There is a problem sometimes, and I have heard that topsoil 
has been part of the contamination problem. Is there a problem 
with the farmers or the agricultural industry not participating 
or being slow in participating in cleanup?
    Mr. Cole. I have certainly gone on record to say that 
farmers in the State of Wisconsin are part of the heavy lift in 
changing their own practices to preserve the soil that is 
already there, beginning to use cover crops and using different 
management practices to reduce harm in our estuaries.
    Mrs. Napolitano. Good.
    Ms. Blackmore. In Puget Sound, we're working on a really 
interesting initiative called Flood Plains by Design, where we 
work with the farm community, the flood community, and the 
salmon habitat community to come up with projects that actually 
benefit all three. So we are reducing flood risk, improving 
salmon habitat, and maintaining sustainable working lands at 
the same time. So farmers have definitely been part of the 
solution.
    Mr. Pine. In the bay area, farming is not really the issue, 
but storm runoff is a significant concern. So we are investing 
in considerable green infrastructure to retain and allow waters 
to go back into the ground before they reach the bay to reduce 
the pollutants.
    Mrs. Napolitano. Thank you.
    Ms. Trail. In south Louisiana in the Pontchartrain Basin, 
we are the recipient of the waters from 41 percent of the 
United States. And a lot of that is America's heartland and the 
farming country. And we cannot achieve any successes without 
the cooperation of farmers.
    We have seen great successes. It has come a long way over 
the past several years, and especially in south Louisiana. We 
have a great working relationship with the farmers in south 
Louisiana. We have a lot of dairy farms in our basin, and we 
have not been able to achieve those successes without their 
cooperation. So we really appreciate their support.
    Mrs. Napolitano. Great. Anybody else?
    Mr. Baker. Farmers put a lot of their own money into 
conservation. But they need technical assistance and they need 
cost-share dollars----
    Mrs. Napolitano. Are they getting it?
    Mr. Baker [continuing]. And they are getting much of it 
through the Federal farm bill, the conservation article. 
Critically important for Congress to continue that conservation 
funding in the farm bill. So farmers want to do the right 
thing. They, like municipalities and even corporations, need 
some help in getting the job done.
    Mrs. Napolitano. Thank you, sir. Thank you.
    Mr. Westerman.
    Mr. Westerman. Thank you, Madam Chair. I will try to be 
brief here.
    I talked in the last set of questions about how I am an 
engineer, but I am also a forester, maybe the more gentle side 
of me. But I think we face a lot of similar issues across the 
spectrum in managing our natural resources. It has often been 
said that forests are the lungs of the Earth, but a lot of 
people do not realize they are also kind of the kidneys of the 
Earth. They do a lot to clean water and protect estuaries and 
waterways.
    Most of our drinking water in this country comes from a 
forest. And I get frustrated sometimes working on the forestry 
side of it, on how do we streamline the management of our 
forests so that we get cleaner air and cleaner water.
    And Mr. Pine, I noticed in your testimony you felt some of 
this frustration as well. You talked about: ``The time-
consuming and expensive permitting process is a significant 
hurdle to accelerating the pace and scale of wetlands 
restoration in San Francisco Bay.''
    You talked about forming that Bay Restoration Regulatory 
Integration Team to expedite permitting for wetland restoration 
projects. It seems like sometimes we trip over our own feet. We 
know the right thing to do, and we put obstacles in our way to 
keep us from doing the right thing.
    Would you like to comment on that more, about what we can 
do to streamline the process? And does anybody else have issues 
in their area where the permitting process sometimes gets in 
the way of doing the good work that you are all trying to do?
    Mr. Pine. Yes. We are just kicking off this new regulatory 
integration effort and have high hopes for it. It has been 
discouraging because when we are working on this restoration 
work and we are doing projects for the benefit of the 
environment, and then to see the process sometimes takes 3 
years, is definitely concerning.
    And each of the agencies has important missions and 
important goals. But the lack of coordination and the lack of 
early involvement in some of the applications has led to these 
delays. And we are hopeful that this will be a model that other 
areas in the country can look to.
    Now, we are actually providing funding for this staff so 
that they will be dedicated to these projects, and they will 
follow certain rules and procedures that have been agreed to. 
So it is not without an incremental cost. But we think that 
cost is warranted given that the delays that have been caused 
are causing us to fall behind and causing our projects to cost 
more.
    Ms. Blackmore. In Puget Sound, the Federal agencies are 
working together to streamline permitting for shoreline 
restoration projects, particularly for shoreline property 
owners, landowners, who have a seawall or a bulkhead. And we 
want them to take those out and replace it with green shoreline 
infrastructure.
    But the permitting process is incredibly expensive and 
time-consuming and discouraging for them. So the EPA, NOAA, and 
the Corps are working together on that right now in Puget 
Sound.
    Mr. Ford. And I would submit that, again, the local, State, 
Federal angles on this--and Mr. Garamendi can speak to this 
from his leadership when he was in Sacramento--that the State 
of California's response to much of this was the formation of 
the Ocean Protection Council, bringing together some of the 
lead agencies within the State so that they were in harmony on 
their priorities to make these processes move through the 
systems much faster so that elements like that, in conjunction 
with what I just heard from Laura, are heartening. And I think 
that they are a very good roadmap forward.
    Mr. Cole. Time is money, whether it is regulatory 
permitting for wetlands. We have statutory timelines to meet. 
It is open and it is clear. We have dual authority with the 
U.S. Corps in the permitting process so it is one-stop 
shopping. In the State of Wisconsin, when you are trying to get 
projects done, it is open. It is clear. And if we do not meet 
those timelines, then we are held accountable.
    There can be hiccups, but that's when we again all roll up 
our sleeves to see whether problems exist. And quite often, it 
is just the early stages of not having enough information to 
fulfill the permit. So we will not start the clock until they 
have everything ready for us.
    Mr. Westerman. And I am glad that it is not just the 
forestry world that suffers in the regulatory burden sometimes. 
I know there are parts of environmental work and restoration 
where the well-intended guidelines often become an impediment 
to doing good work.
    I hope we can learn lessons from that as we work on policy 
to come up with policy that actually allows good things to 
happen on the ground and does not delay it, costing time, does 
not become a hurdle within itself.
    You have to be quick.
    Mr. Cole. As a Missouri-trained forester, the State of 
Wisconsin performs the timber sales on behalf of the 
Chequamegon and the Nicolet to get past the burdensome 
bureaucracy associated with timber sales in the State of 
Wisconsin. So the mills are humming in the State of Wisconsin.
    Mrs. Napolitano. Thank you very much.
    Ms. Mucarsel-Powell.
    Ms.  Mucarsel-Powell. Thank you, Madam Chair, for granting 
me a few more moments here since I truly believe this is one of 
the most important issues facing our country.
    I wanted to ask Mr. Baker, you had mentioned in your 
testimony that the health of the Chesapeake Bay saw a setback 
in 2018 due to the extraordinary rains and the associated 
polluted runoff that contaminated the bay. We saw the same 
thing in Lake Okeechobee after Hurricane Irma.
    But it seems that 2019 is in many ways following that same 
pattern that we saw in 2018 in precipitation. So how can we 
continue to make the bay more resilient to the changes in 
climate and extreme weather events that seem to be happening 
with more regularity, and yet continue to make progress in 
improving the overall health of the bay and other areas like 
Lake Okeechobee as well?
    Mr. Baker. We do not give up, is the simple answer. And I 
do not mean to be glib, but that is it. We are nowhere near the 
end. We have to keep working.
    One interesting thing, in this region about 2018 we had 
double the amount of rain, but in significantly less number of 
storms. Do the math. That means the storms were far more 
intense. Nature abhors extremes. That was adding to the impact 
as well.
    We are seeing a lot of rain this year, but it is not coming 
in quite the same intensity. So I like to keep my fingers 
crossed. And I am an optimist by heart.
    Ms.  Mucarsel-Powell. Good. Me, too. That is why I am here. 
If not--and one last question. You mentioned the role of 
wetlands in protecting our communities from climate change. But 
as you know, wetlands are also threatened by sea level rise, 
and we have seen that in south Florida.
    What role can the Federal Government play in protecting and 
restoring our wetlands through programs like the Chesapeake Bay 
Program or other regulatory efforts?
    Mr. Baker. I think the chairwoman talked about blue carbon. 
Wetlands are incredibly important, for any number of reasons. 
We have got a lot of areas to develop, and we just have got to 
stop destroying wetlands. The concept of mitigating destruction 
two to one, three to one, with manmade wetlands, human-made 
wetlands, just does not work anywhere near as well as the 
original wetland.
    The only other last thought is that wetlands with sea level 
rise can be destroyed. They need room to migrate inland. That 
has happened throughout the millennia, but very slowly. Now it 
is happening much more quickly, and that is a critical need, to 
allow wetlands to migrate inland as the seas rise.
    Ms.  Mucarsel-Powell. Thank you so much. I yield back my 
time.
    Mrs. Napolitano. Thank you, ma'am.
    Mr. Garamendi.
    Mr. Garamendi. Thank you, Madam Chair.
    I want to continue on what I was talking about earlier, and 
that has to do with the way in which we regulate or don't at 
the Federal level, the need to pull together the various 
Federal agencies so that they are all working together early on 
in the process.
    Just for a heads up, the U.S. military has a lot of bases 
around. They are required by law to reach out to the Native 
American communities, which they usually do at the end of 
process, which then creates lawsuits and other kinds of delays.
    So I am looking at ways in which we can have the Federal 
Government engage earlier in a coordinated way. I ran out of 
time last time, so if you could come back with your best ideas 
about how that could be done across the board--Army Corps of 
Engineers, military, EPA, and the like.
    Also, one of you early on in your testimony indicated the 
length of time it takes to process any application. 
Unfortunately, right now it is a 5-year period of time that an 
applicant, once approved, stands. We are looking at extending 
that to a 10-year period of time. So if you are able to obtain 
a permit, that permit is good for 10 years, considering that it 
takes 5 years just to get started on the next project.
    So we are looking at that. I draw that to the attention of 
the committee and for your review of it--and if you like it let 
us know; we hope to move that. We would hope that we could 
authorize, reauthorize, the NEP this year, at least no later 
than next year, so that when 2021 arrives, we are good to go 
and more money.
    So just a couple of questions for you that you might 
respond to. How could we better coordinate? I think I ended--I 
cut you off. Whose sound got cut off in the middle that we 
never got to San Francisco or beyond.
    Ms. Blackmore. Sure. So H.R. 2247, introduced by 
Congressmen Heck and Kilmer, includes an idea I think aimed at 
exactly what you are saying, sir. It would require the creation 
of a Federal task force that includes the military as well as 
EPA, NOAA, the Corps, the usual suspects.
    It requires them to come together, create an action plan 
working with us, the State, and with our Tribes early in the 
process to identify actions that the Federal Government will 
undertake. And it also requires regular reporting on their 
progress and outcomes. So I am very excited about that 
possibility.
    Mr. Garamendi. I think that was done early on in the 
Everglades, like in the 1990s, that task force.
    Ms. Blackmore. Oh, really? OK. Yes.
    Mr. Garamendi. That would apply across the Nation, or just 
for----
    Ms. Blackmore. This bill just applies to Puget Sound. But I 
could imagine it having benefit across the Nation.
    Mr. Garamendi. Well, it's back to San Francisco.
    Mr. Pine. Yes. So I have had the opportunity to talk about 
our regulatory integration team. And just to make one further 
point there, what we of course often see is that regulators 
have timelines, but those timelines commence when the 
application is deemed ``complete.'' And often that's where the 
delay occurs, with back and forth until that completion is 
deemed ready.
    So in our new efforts, we are hoping that the regulators 
will work to make sure the application is complete to get those 
clocks running, and we are putting timelines in place that 
measure performance from the submission of the application, not 
necessarily from the date of completion. So that is an area 
where we want to see improvement.
    Mr. Cole. As I had mentioned earlier, we have some dual 
responsibilities as it relates to permitting. The State of 
Wisconsin and the U.S. Corps of Engineers have a dual 
permitting process so it is one-stop shopping. When you put 
your permit in, we act as the agent and coordinate with the 
U.S. Corps of Engineers, EPA.
    That region is in Chicago. We hold quarterly meetings on 
enforcement issues related to actions that we are taking, 
actions that they are taking, where they are there in the State 
in Wisconsin. And so we collaborate. I am blessed to have the 
previous Secretary for the DNR being the Regional Administrator 
in Chicago for the EPA. So we spend a lot of time having 
conversations as well.
    Mr. Garamendi. Another thing I draw attention to is the 
nationwide process rather than a regional Corps of Engineers 
issue here. It is really important, particularly with regard to 
Native American sites. There would be a nationwide program. 
That is in--that was in process. It has now been delayed. We 
will see if we can move that along.
    Thank you very much. I draw your attention once again to 
H.R. 1764 that extends the deadline or the permit from 5 to 10 
years.
    Thank you very much. I yield back.
    Mrs. Napolitano. Thank you, Mr. Garamendi.
    Mr. Lowenthal, would you have any additional questions, 
sir?
    Mr. Lowenthal. I might have one.
    Mr. Pine, first I want to congratulate the San Francisco 
Bay Restoration Authority on its selection as 1 of the 10 pilot 
projects for the beneficial use, or beneficial reuse, of dredge 
materials by the U.S. Army Corps in I believe it was December 
of 2018.
    I understand that since the Gold Rush, San Francisco Bay 
has lost over 90 percent of its wetlands due to development, 
but that this pilot project is part of a larger regional effort 
to restore thousands of acres of wetlands and aquatic habitat.
    Can you expand on this initiative and tell us how your 
region has been able to forge a multi-agency partnership to 
restore these tidal wetlands? Be very----
    Mr. Pine. Yes. I would be happy to. One of the big 
challenges we face in restoring wetlands is finding sufficient 
dirt and mud to build up former agricultural lands or former 
salt production lands, which over time have subsided. So in 
order to restore them, tremendous amounts of soil need to be 
brought in. And the beneficial reuse of dredge materials will 
be critical if we are to restore the properties that we want 
to.
    Historically, oftentimes those materials were brought out 
under the Golden Gate and dumped in the ocean. So under this 
pilot program, we are trying to change the direction towards 
the reuse and restoration. One challenge we face is although we 
are one of the pilots, as the other nine, the funding from the 
U.S. Army Corps has not yet emerged to fund those pilots. And 
that is something that needs yet to be straightened out. But we 
desperately need the beneficial reuse of dredge material.
    Mr. Lowenthal. Well, I think it is great that you are doing 
it, and I can just imagine how that can be used. Recently I 
spent a weekend with Congressman Graves from Louisiana--I do 
not think the congressman is here--and from southern Louisiana 
on the importance also of using the sediment that comes down 
from the Mississippi because they have lost thousands and 
thousands of acres.
    And so he showed me what was going on. So my question is: 
How come is it taking so long, and what has been the Army 
Corps' issue? Why are we talking about a pilot project rather 
than a regular project, and what has happened in the past?
    Mr. Pine. Well, the Army Corps has always taken the view 
that it is less expensive and more economical to simply dump 
the materials in the ocean. But that is really not correct when 
you think about the project as a whole. To bring in those soils 
from a land-based source is extraordinarily expensive. So it 
has really been an argument with the Corps about the economics 
of the reuse of dredging material.
    Mr. Lowenthal. Does anyone else want to comment on this, 
the reuse, beneficial reuse, and what some of the issues are? 
If not----
    Mr. Ford. Very quickly, sir, for us in our region, the Los 
Angeles River, as you are very familiar with----
    Mr. Lowenthal. Very familiar. I am on the receiving end----
    Mr. Ford. Yes, you are.
    Mr. Lowenthal [continuing]. Or lack of receiving end.
    Mr. Ford. So the very good news from the Army Corps of 
Engineers is that the sediment sampling in the Los Angeles-Long 
Beach Harbor, due to getting rid of the pollutant loading, is 
that those sediments are now approaching a point where they 
could be beneficially reused.
    Mr. Lowenthal. OK. That is a very----
    Mr. Ford. So the obstacle that we found in the past was 
that, yes, the water was polluted. The sediments were polluted. 
And so there were very few options with what to do with the 
sediment.
    We certainly need it. We need to put it in smart places. 
And at this point in time, because of all the work we have 
done, we are approaching sediments that are clean enough to do 
that work.
    Mr. Lowenthal. Thank you.
    Yes?
    Ms. Trail. Mr. Lowenthal, I'm with the Lake Pontchartrain 
Basin Foundation in south Louisiana. So we were happy to host 
you on your visit to south Louisiana to see some of the amazing 
projects we have.
    Mr. Lowenthal. And they are amazing.
    Ms. Trail. Yes. Yes. And so we view the Mississippi River 
as a tool, and we look forward to being able to use that 
sediment to rebuild our wetlands. And of course we are 
dependent upon that permitting process to be expedited, get 
those sediment diversion projects constructed so that we can 
restore our coast.
    Mr. Lowenthal. I am just so glad to have this discussion 
about the beneficial reuse. I think it is just critically, 
critically important, and I know it has been a difficult issue 
to deal with in the past. But because of all the work, both the 
one I am aware of in L.A. County and cleaning up and the 
permitting that has kept the dumping out and the cleaning of 
our waterway, and working with the Army Corps now to begin to 
figure out, how do we use this beneficial reuse? And it is a 
beneficial reuse, critically important.
    And with that, I thank the chair, and I yield back.
    Mrs. Napolitano. Thank you, Mr. Lowenthal. It is funny that 
you mention the Army Corps. I understand Brigadier General Toy 
is going to be in charge of the Mississippi River. So maybe we 
could schedule a meeting to be able to give him our concerns 
over the dredging material and other things.
    With that, I ask unanimous consent that the record of 
today's hearing remain open until such time as our witnesses 
have provided answers to any of the questions that may be 
submitted to them in writing; and unanimous consent that the 
record remain open for 15 days for any additional comments and 
information submitted by Members or witnesses to be included in 
the record of today's hearing. And without objection, so 
ordered.
    And I would like to thank all of you for being here so long 
and for providing testimony to this committee. And if no other 
Members have anything to add, the committee stands adjourned.
    [Whereupon, at 12:06 p.m., the subcommittee was adjourned.]

                       Submissions for the Record

                              ----------                              


  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    Thank you to our witnesses for being here today to discuss regional 
watershed programs and areas that are part of EPA's National Estuary 
Program.
    These critical areas contribute to the health of regional 
ecosystems and are responsible for local and national economic 
benefits, supporting commercial and recreational fisheries, wildlife, 
and tourism.
    Unfortunately, some of these estuaries and watersheds are in need 
of restoration.
    Cooperative programs like EPA's National Estuary Program and EPA's 
regional watershed initiatives are important to those efforts.
    I look forward to the testimony of our witnesses today and learning 
about successes and challenges these estuaries and watersheds face. I 
yield back.

                                 <F-dash>
Statement of Hon. Jackie Speier, a Representative in Congress from the 
    State of California, Submitted for the Record by Hon. Napolitano
    Thank you, Chairwoman Napolitano and Ranking Member Westerman, for 
convening this hearing on how to protect our historic waterways, and 
for your consideration of H.R 1132, the San Francisco Bay Restoration 
Act. I have introduced this legislation every Congress since the 111th 
Congress in 2010, and the need for action to protect the Bay has been 
increasing ever since. With climate change and rising tides threatening 
to cause serious damage in the coming decades, the urgency could not be 
greater. The degradation of San Francisco Bay would be an enormous loss 
for the residents of the Bay Area and our Nation. San Francisco Bay is 
the heart of the region, which generates more than $370 billion in 
goods and services annually and is home to more than three and a half 
million jobs. And, it is a natural treasure to the Nation, with a 
vibrant ecosystem that is home to the largest estuary on the West 
Coast.
    It is so important that we provide more federal funding to protect 
and restore the Bay. Not only does the Bay strongly contribute to 
federal, state, and local public health and economic strength but it is 
also a home to more than 100 endangered and threatened species. 
Similarly, the region's tidal and seasonal wetlands are a significant 
part of the coastal resources of the United States. Forty percent of 
the land in the State of California drains to the estuary, so its 
restoration is essential to a healthy ocean ecosystem.
    Over the last 200 years, an alarming 90% of the Bay's wetlands have 
been destroyed by human activity. The increase in pollution from cars, 
homes and communities in the burgeoning Bay Area has flowed into the 
creeks, rivers, and streams that pass into San Francisco Bay and 
eventually the Pacific Ocean, further damaging the Bay and the 
coastline. In August 2010, the Government Accountability Office 
published a sobering report on the San Francisco Bay Delta Watershed, 
finding that a lack of sufficient federal funding is one of the biggest 
risks to long-term restoration. We must protect the San Francisco Bay, 
and it is obvious that we cannot do so without steady and robust 
federal funding.
    The urgency could not be greater. Rising tides due to climate 
change are threatening to irreversibly drown the Bay's wetlands unless 
we take immediate action. Studies have shown that by 2030 the expected 
sea level rise in San Francisco Bay will exceed the rate at which the 
marshes can elevate and grow into higher ground. If we don't step in 
now to accelerate the pace of Bay wetland restoration, the marshes will 
drown and the Bay Area's shoreline communities will lose the crucial 
flood protection that restored wetlands would provide.
    Additional federal funding, as proposed in HR 1132, will create 
huge benefits for Bay restoration and pollution mitigation. The funding 
will buttress ongoing efforts by state and local authorities, who have 
already invested significantly in the Bay. In fact, Bay Area voters 
decided to tax themselves to restore their treasured wetlands, passing 
Measure AA with 70 percent support in all 9 Bay Area counties in 2016 
to pay for tidal marsh restoration grants through the San Francisco Bay 
Restoration Authority. The Measure AA parcel tax is generating $25 
million each year, and over 20 years will generate $500 million in 
local funding for the Bay, but that is still less than one third of the 
funding estimated to be needed to restore 36,000 acres of tidal marsh 
and maintain it--mostly on federal government property in the San 
Francisco Bay National Wildlife Refuge. In fact, the State of 
California has invested more than the Federal Government to acquire 
retired salt evaporation ponds and diked hayfields to add to this 
federal refuge, so they can be restored to tidal marsh habitat.
    The San Francisco Estuary Partnership's Comprehensive Conservation 
and Management Policy (CCMP) found an enormous gap between funding 
needed for a healthy Bay and what is available from current local, 
state and federal funds for San Francisco Bay. Local citizens and 
community organizations are striving to fill the gap left by inadequate 
federal efforts. Save The Bay mobilizes 5,000 volunteers annually to 
help restore the Bay's shoreline habitat and remove trash and invasive 
species; San Francisco Baykeeper patrols the Bay to spot pollution from 
ships and sewage treatment plants; and many neighborhood groups have 
adopted creeks that flow into the Bay to try to restore them to health. 
But we need more resources to support the federal agencies that are 
failing to meet their current legal obligations--to manage tens of 
thousands of acres of national wildlife refuges and marine sanctuaries, 
to prevent pollution and preserve habitat in the Bay as required by the 
Clean Water Act, and to protect fish and wildlife as required by the 
Endangered Species Act.
    There is additional evidence that current federal funding is 
insufficient. Recent demand for grant funding from the U.S. 
Environmental Protection Agency's (EPA) small San Francisco Bay Water 
Quality Improvement Fund (WQIF) has been more than three times what is 
available in that program to restore wetlands and reduce water 
pollution. Over the last 11 years, the WQIF has received $176 million 
in grant requests for the $50 million available to grant--that's 350 
percent more project funding requested than available over those 11 
fiscal years. The WQIF lacks statutory authorization and has not grown 
to meet the need for resources.
    Increased funding through H.R. 1132 would also restore some balance 
to our federal investment in our Nation's iconic waterways. Between 
2008 and 2016, EPA geographic programs invested only 45 million dollars 
into San Francisco Bay, while Puget Sound received over 260 million 
dollars and Chesapeake Bay 490 million dollars--over ten times as much, 
and a fraction of the ecological needs established in the CCMP. Looking 
at the relative size of the populations served by these bodies of 
water, a mere 6 dollars was spent on the Bay for each resident of the 
San Francisco Bay Area, while almost 30 dollars were spent for each 
resident living near Chesapeake Bay and almost 60 dollars spent for 
each resident living near Puget Sound. And in the most recent round of 
appropriations in early 2018, the SF Bay's WQIF appropriations remained 
at $4,819,000, while smaller geographic programs received substantially 
more, including Lake Champlain ($8,399,000) and Long Island Sound 
($12,000,000). These disparities underscore how the federal government 
has been under-investing in the San Francisco Bay, compared to more 
substantial efforts for other waterways.
    My bill, H.R. 1132, the San Francisco Bay Restoration Act, would 
fill the gap and provide the federal investment needed to protect the 
Bay. This legislation will authorize $25 million annually for five 
years to the EPA to fund projects, programs, and studies that implement 
priority objectives of the CCMP. The priority objectives for the 
funding would include water quality improvement, wetland and estuary 
restoration, endangered species recovery, and adaption to climate 
change. It will also establish a San Francisco Bay Program Office 
within Region 9 of the EPA, and it will authorize the EPA Administrator 
to appoint a Director of that Program Office to oversee that funding. 
The bill will require that the President's annual budget submission to 
Congress provide information on federal agency expenditures for the 
protection and restoration of the San Francisco Bay, so that we can 
better monitor federal investments in the Bay.
    This bill has enormous support from the local community. It is co-
sponsored by the entire California Bay Area Congressional delegation, 
including Speaker Nancy Pelosi and Representatives Anna Eshoo, John 
Garamendi, Ro Khanna, Jared Huffman, Barbara Lee, Zoe Lofgren, Jerry 
McNerney, Mark DeSaulnier, Eric Swalwell, and Mike Thompson.
    It is clear that we cannot save San Francisco Bay without federal 
funds. We know that by 2030 the damage to the Bay will be irreversible, 
and Californians and Americans nationwide will suffer as a result. 
Chairwoman Napolitano and Ranking Member Westerman, I thank you again 
for convening this hearing, and I urge you to please take action to 
move H.R. 1132 expeditiously through committee so that we can begin to 
make the full efforts necessary to save the San Francisco Bay Estuary 
for people today and in future generations.

                                 <F-dash>
Letter of June 25, 2019, from Hon. Elaine G. Luria, a Representative in 
 Congress from the State of Virginia, Submitted for the Record by Hon. 
                               Napolitano
                                                     June 25, 2019.
Hon. Grace Napolitano
Chairwoman
Subcommittee on Water Resources and Environment, Committee on 
        Transportation and Infrastructure, 1610 Longworth House Office 
        Building, Washington, DC 20515
Hon. Bruce Westerman
Ranking Member
Subcommittee on Water Resources and Environment, Committee on 
        Transportation and Infrastructure, 209 Cannon House Office 
        Building, Washington, DC 20515

    Dear Chairwoman Napolitano and Ranking Member Westerman,
    Thank you for holding this hearing on ``Protecting and Restoring 
America's Iconic Waters.'' Keeping our waterways healthy and safe must 
be a top priority. I want to additionally thank you for inviting Will 
Baker of the Chesapeake Bay Foundation and drawing attention to the 
urgent need to reauthorize the Chesapeake Bay Program.
    The Chesapeake Bay is one of our nation's greatest natural 
resources. It generates $33 billion in economic value annually and 
hosts one of the most important sites for ecological diversity in North 
America. Thanks to innovative partnerships across the state and federal 
level, great progress has been made in preserving, protecting, and 
restoring this crucial ecosystem.
    The Chesapeake Bay Program Reauthorization Act (H.R. 1620) would 
fully fund the Chesapeake Bay Program for the next five years, ensuring 
that states get the resources they need to comply with their 
obligations to protect the Bay. The vast majority of funding for this 
Program would go directly toward states within the Chesapeake Bay 
Watershed to help them control pollution and manage runoff into the 
tributaries that feed into the Bay. This bipartisan bill will help 
ensure that the Bay remains a vibrant and beautiful destination for 
future generations.
    I again thank you for holding a hearing on this crucial topic and 
urge you to pass H.R. 1620 out of Committee before the end of July.
        Sincerely,
                                            Elaine G. Luria
                                                 Member of Congress

                                 <F-dash>
   Letter of June 24, 2019, from Hon. Gretchen Whitmer, Governor of 
         Michigan, Submitted for the Record by Hon. Napolitano
                                                     June 24, 2019.
Hon. Grace F. Napolitano
Chairwoman
Subcommittee on Water Resources and Environment, Committee on 
        Transportation and Infrastructure, U.S. House of 
        Representatives
Hon. Bruce Westerman
Ranking Member
Subcommittee on Water Resources and Environment, Committee on 
        Transportation and Infrastructure, U.S. House of 
        Representatives
    Dear Chairwoman Napolitano, Ranking Member Westerman, and Members 
of the Subcommittee:
    On behalf of the State of Michigan, the Michigan Department of 
Environment, Great Lakes, and Energy (EGLE), and the Michigan 
Department of Natural Resources (DNR), I ask you to reauthorize the 
Environmental Protection Agency's Great Lakes Restoration Initiative.
    The subject of Tuesday's hearing is to protect and restore 
America's iconic waters. As Governor of The Great Lakes State, I 
believe there are no more iconic waters in our country than The Great 
Lakes. These bodies of water hold 21 percent of the world's freshwater, 
84 percent of the country's fresh surface water, and generate over one 
million jobs. In addition to offering unique, pristine beauty, The 
Great Lakes are among the most vital ecological and economic resources 
in America.
    Congress has long recognized the importance of The Great Lakes and 
has taken action to protect and restore this precious resource. The 
Great Lakes Restoration Initiative (GLRI), created by Congress in 2010, 
is a key means by which the Federal Government demonstrates its 
commitment to The Great Lakes. The GLRI is a multi-agency collaboration 
that provides funding to 16 federal organizations to strategically 
target the biggest threats to The Great Lakes ecosystem and to 
accelerate progress toward achieving long term goals, including 
ensuring safe sources of drinking water; providing safe water for 
recreation, including the catching and consumption of fish; delisting 
of federal Areas of Concern (AOCs); and protecting habitats and native 
populations from harmful algal blooms and invasive species. Since 2010, 
the GLRI has provided nearly $3 billion to federal organizations to 
work toward these goals. Over the past nine years, one-third of the 
region's most toxic hotspots have been cleaned up, sparking 
redevelopment and business opportunities on waterfronts; conservation 
practices on area farms have doubled, reducing harmful nutrient runoff; 
and habitat and wildlife connectivity continue to improve, with nearly 
5,000 miles of rivers cleared of darns and other barriers.
    In Michigan, there are many demonstrable positive impacts of the 
GLRI to our economy, our people, and our environment. A wide variety of 
programs in Michigan's EGLE and DNR are supported by the GLRI, 
including infrastructure related to The Great Lakes and the Aquatic 
Invasive Species program. Local communities have received millions of 
dollars of GLRI funding, enabling the creation of programs to address 
AOCs that have been identified as showing severe environmental 
degradation, combat invasive species that threaten tourism and the 
economy, and improve conditions across parks, lakes, and riverfronts.
    Among many examples of the impact of GLRI funds on Michigan 
communities and the health of The Great Lakes:

    <bullet>  Two of Michigan's fourteen Areas of Concern, White Lake 
in West Michigan and Deer Lake in the Upper Peninsula, have been 
cleaned up and removed from the list of Great Lakes toxic hotspots;
    <bullet>  The GLRI funds a Michigan Grass carp response team that 
is responsible for leading the implementation of control actions in 
Michigan waters of Lake Erie. Grass carp, one of four invasive Asian 
carp species, have the potential to disrupt The Great Lakes' ecosystems 
by consuming large amounts of vegetation and reducing habitat for 
native fish and wildlife. Crews are conducting work to address critical 
uncertainties that are limiting the effectiveness of removal actions. 
These actions will lead to more effective control strategies, with the 
goal of eradicating Grass carp from The Great Lakes;
    <bullet>  GLRI-funded restoration work in Lake Michigan and Lake 
Huron is restoring historically important reef complexes to support the 
recovery of native fish species, such as Lake Trout and Whitefish, 
which are vitally important to our recreational and commercial 
fisheries. For example, with $980,000 in GLRI funding, The Saginaw Bay 
Rock Reef Restoration Project will restore approximately 2 acres of 
rock reef habitat to support the bay's recreational fishery; and
    <bullet>  In 2015 and 2016, $9 million in GLRI funding was used to 
construct the Little Rapids GLRI habitat restoration project on the St. 
Marys River. The project removed a causeway and replaced it with 
approximately 600 feet of open-span bridge, restoring unrestricted flow 
of the St. Marys River through the Little Rapids to improve fish 
spawning habitat for several important game species, such as salmon, 
trout, bass, perch, and smelt.

    But there is much more to be done. The spread of new and existing 
aquatic invasive species continues to be exacerbated by warming waters 
due to climate change. Our residents' health is still at risk due to 
toxic sediment in the remaining twenty-two AOCs. Harmful algal blooms 
caused by runoff from farm fields threaten our water systems and 
economy. Communities across The Great Lakes region face aging, 
crumbling drinking water and wastewater infrastructure, while lead, 
copper, and emerging contaminants such as per- and polyfluoroalkyl 
substances (PFAS) pose risks to the safety of our drinking water.
    The Great Lakes have benefited immeasurably from the GLRI, and we 
must neither slow nor halt the progress that has been made in 
protecting and restoring these iconic waters. Knowing of its 
importance, I respectfully ask Congress to reauthorize the GLRI for 
five years at $475 million per year, the amount first appropriated in 
2010. The Great Lakes region's economy, environment, and public health 
all rely on this important program.
        Sincerely,
                                           Gretchen Whitmer
                                               Governor of Michigan

                                 <F-dash>
 Letter of June 24, 2019, from Thomas Wegner, Board Chairman, and Adam 
Payne, County Administrator, Sheboygan County, Wisconsin, Submitted for 
                     the Record by Hon. Napolitano
                                                     June 24, 2019.
Hon. Peter A. DeFazio
Chair
Committee on Transportation and Infrastructure, U.S. House of 
        Representatives
Hon. Grace F. Napolitano
Chair
Subcommittee on Water Resources and Environment, Committee on 
        Transportation and Infrastructure, U.S. House of 
        Representatives
Hon. Sam Graves
Ranking Member
Committee on Transportation and Infrastructure, U.S. House of 
        Representatives
Hon. Bruce Westerman
Ranking Member
Subcommittee on Water Resources and Environment, Committee on 
        Transportation and Infrastructure, U.S. House of 
        Representatives
    Dear Honorable Members of the House Transportation and 
Infrastructure Committee and Water Resources and Environment 
Subcommittee,
    Due to decades of industrial pollution and its neglect, the 
Sheboygan River was named a Great Lakes Area of Concern (AOC) and 
Superfund site in 1986. For over thirty years the community dealt with 
the stigma associated with having one of the nation's dirtiest rivers. 
What should have been promoted as an asset to our region was frankly a 
black eye that was limiting investment and redevelopment in the area. 
For years, the community worked tirelessly to produce a solution and 
progress was painfully slow. Fortunately, thanks to tremendous teamwork 
and persistence, we were finally able to begin the necessary dredging, 
clean-up and habitat restoration work to begin the long process of 
delisting our river from the list of AOC's. This work would not have 
taken place without the Great Lakes Restoration Initiative (GLRI) 
funding.
    Sheboygan County passionately encourages you to continue to fund 
the program and recommends increasing the funding available as costs 
have undoubtedly risen since its inception.
    The GLRI invested over $50 million in cleaning up the Sheboygan 
River. Without that investment, the community would still be hanging on 
to hope that something might one day happen. Instead, our riverfront is 
going through a renaissance. Since 2013 when the dredging and habitat 
restoration work concluded, well over $60 million in redevelopment 
activities have taken place directly adjacent to, or very near, the 
Sheboygan River. In addition, many more development projects are in the 
planning stages, and charter fishing, recreational use and tourism are 
all on the rise.
    Thanks to the Great Lakes Restoration Initiative, the Sheboygan 
River is no longer a polluted, wretched body of water. This work is 
critical for health and safety, economic development, and is simply the 
right thing to do for our children and generations to come. We urge you 
to continue to support the Great Lakes Restoration Initiative. Thank 
you for your consideration and leadership.
        Respectfully,
                                              Thomas Wegner
                                    Sheboygan County Board Chairman

                                                 Adam Payne
                                     Sheboygan County Administrator

                                 <F-dash>
 Letter of June 21, 2019, from Darren J. Nichols, Executive Director, 
  Great Lakes Commission, Submitted for the Record by Hon. Napolitano
                                                     June 21, 2019.
Hon. Peter A. DeFazio
Chair
Committee on Transportation and Infrastructure, U.S. House of 
        Representatives
Hon. Grace F. Napolitano
Chair
Subcommittee on Water Resources and Environment, Committee on 
        Transportation and Infrastructure, U.S. House of 
        Representatives
Hon. Sam Graves
Ranking Member
Committee on Transportation and Infrastructure, U.S. House of 
        Representatives
Hon. Bruce Westerman
Ranking Member
Subcommittee on Water Resources and Environment, Committee on 
        Transportation and Infrastructure, U.S. House of 
        Representatives
    Dear Chairman DeFazio, Chairwoman Napolitano, and Ranking Members 
Graves and Westerman:
    I am writing on behalf of the Great Lakes Commission (GLC) to urge 
Congress's continued investment in restoring the Great Lakes under the 
Great Lakes Restoration Initiative (GLRI).
    The GLC appreciates the Subcommittee on Water Resources and 
Environment convening a hearing on a topic of such importance to the 
Commission and to the eight party states to the Great Lakes Basin 
Compact.
       The Great Lakes: A Vital Asset for the Great Lakes States
    The Great Lakes are a vital environmental and economic asset for 
the United States and Canada, and for the eight states and two 
provinces of the Great Lakes Basin. With 90 percent of the U.S. supply 
of fresh surface water, the Great Lakes provide abundant fresh water 
for communities and industries; an efficient transportation system for 
raw materials and finished goods; unparalleled recreational 
opportunities for residents and tourists; and extensive habitat for 
valuable fish and wildlife resources. The Lakes provide the social and 
cultural foundation for millions of citizens and visitors, indigenous 
communities, cities and shorelines.
    The Great Lakes are a significant component of our national and 
regional economy. Michigan Sea Grant estimates that more than 1.5 
million jobs are directly connected to the Great Lakes, generating $62 
billion in wages. NOAA's 2019 Report on the U.S. Ocean and Great Lakes 
Economy shows that our nation's water-dependent economy grew much 
faster than other sectors of the economy and, in 2016, employed more 
people than the national crop production, telecommunications and 
building construction sectors combined.
    The Great Lakes and St. Lawrence River form the longest deep-draft 
inland navigation system in the world, stretching 2,300 miles to the 
geographic center of North America and the North American heartland. 
The Great Lakes maritime system links more than 100 U.S. and Canadian 
ports to the global economy, moves 200 million tons of cargo annually, 
generates more than 325,000 jobs and $45 billion in business revenue, 
and supports industries such as manufacturing, steel production, 
agriculture and energy generation.
    The binational Great Lakes-St. Lawrence River Basin hosts a $6 
trillion economy and nearly one-third of U.S. and Canadian economic 
activity. The maritime transportation system is a vital component of 
our region's economic infrastructure. These figures--and the growing 
value of abundant fresh water--illustrate the Great Lakes' unique 
competitive advantage. Restoring, protecting and wisely using the lakes 
is a key component of a broader binational strategy to create jobs, 
stimulate economic development, and strengthen communities. An 
environmentally healthy Great Lakes and economically vibrant regional 
economy are in our national interest.
            Restoring the Great Lakes: A Bipartisan Priority
    Restoring and caring for the Great Lakes is a longstanding and 
bipartisan priority for federal, state and local leaders in the region. 
The current Great Lakes restoration program is based on a comprehensive 
strategy initiated by a set of priorities identified by the region's 
Governors and developed with active input from more than 1,500 
stakeholders across the eight-state region. Completed in 2005, the 
strategy was put into action under the Great Lakes Restoration 
Initiative (GLRI).
    Since 2010, the GLRI continues to enjoy enthusiastic and bipartisan 
support among Great Lakes leaders, regional organizations, and the 
Great Lakes Congressional delegation. Each year the GLC collaborates 
with a coalition representing state, tribal and local governments, 
conservation groups, business and industries, and Great Lakes ports on 
a suite of priorities for the Great Lakes, and the GLRI is consistently 
at the top of the list. Sustaining Great Lakes restoration has been an 
ongoing priority for the House and Senate Great Lakes Task Forces, and 
earlier this year a bipartisan group of 59 members of the House 
delegation wrote to the appropriations committee supporting at least 
$300 million for the GLRI in FY 2020.
    The GLC and Great Lakes states have been actively engaged with the 
GLRI since its inception and find it to be a strong and valuable 
program. GLRI has administered funding through programs and authorities 
from a range of federal agencies and projects that address the most 
serious problems facing the Great Lakes. While U.S. EPA manages the 
overall program, the Great Lakes Interagency Task Force ensures 
engagement across the federal government and leverages specific areas 
of expertise in each agency. This process has evolved to include multi-
agency subgroups focused on specific priorities with the goal being to 
improve efficiency in identifying and targeting resources to priority 
projects. The GLRI is supported by sound science and is guided by an 
Action Plan with detailed performance goals. An updated Action Plan III 
is currently being finalized and appears to provide continued, sound 
direction and accountability for the GLRI program.
                 Highlights of Progress Under the GLRI
    The latest Great Lakes Restoration Initiative Report to Congress 
and the President provides a comprehensive summary of progress under 
the program. The GLC believes the GLRI has demonstrated strong 
performance and has achieved a majority of the measures of progress 
established in the GLRI Action Plan. The latest report to Congress 
aptly summarizes the program's impact, stating that ``GLRI investments 
have spread across almost 300,000 square miles and have supported more 
than 4,000 projects within the Great Lakes basin. These investments 
have made a monumental difference in repairing and protecting one of 
the United States most unique and significant natural resources for the 
more than 24 million U.S. citizens who rely on the Lakes' recreational 
and economic value.''
    From the GLC's perspective, the following are some highlights of 
the GLRI's impact:
Cleaning up the most heavily degraded Areas of Concern
    Perhaps the most striking impacts from the GLRI are being seen in 
the Areas of Concern (AOC), where cleanup and restoration enables 
communities to revitalize once-degraded waterfront areas, provide new 
recreational opportunities, enhance fishing, maintain commercial and 
recreational boating, and stimulate business development in under-
utilized urban areas. Approximately one-third of annual GLRI funding 
has been allocated to cleanup work in the AOCs, making this a major 
focus of the program. While much work remains, the progress has been 
significant: four AOCs have been formally delisted; all cleanup work 
has been completed in eight additional AOCs; 85 Beneficial Use 
Impairments (key benchmarks of environmental degradation) have been 
removed (out of 255 total); and approximately three million cubic yards 
of contaminated sediments have been remediated, with $330 million 
leveraged from non-federal partners. This work is taking place in the 
31 U.S. and binational AOCs spread across all eight of the Great Lakes 
states, making this a highly visible component of the GLRI that is 
generating significant impacts at the community level. While 
environmental restoration is the primary focus of AOC cleanup work, it 
is having a real economic impact by catalyzing and creating ``enabling 
conditions'' for new development in waterfront areas, facilitating new 
recreational opportunities, and supporting tourism. Ultimately, the 
GLRI will generate multiple benefits beyond the ecosystem improvements 
that are its primary focus. The economic impact of the GLRI is 
discussed further below.
Reducing nutrient pollution to prevent harmful algal blooms and protect 
        drinking water
    The Great Lakes continue to suffer from the effects of nutrient 
pollution, which include risks to drinking water for over 48 million 
people that depend on the lakes. Driven primarily by nonpoint source 
losses from agricultural land, solutions are proving to be complex. 
Support from the GLRI is accelerating progress, both in the research 
needed to understand how phosphorus moves from farm fields to the lakes 
and the social science needed to better understand changes in farmer 
behavior. Recent attention has also been giving to the economics of 
conservation, with GLRI supporting ``soil health'' initiatives to 
demonstrate that healthier soil can lead to improved water quality and 
resiliency during storm events, but also higher yields. The GLRI is 
also continuing to support Great Lakes communities and researchers 
seeking to better understand the formation of harmful algal blooms and 
take action to prevent or minimize impacts to drinking water safety, 
recreation, and tourism.
Restoring and protecting habitat for valuable native species
    Since 2010, the GLRI has enabled federal and state agencies, 
tribes, municipalities, and numerous local and regional partners to 
implement a significant number of habitat restoration projects across 
the Great Lakes Basin. Nearly 5,000 miles of rivers and streams have 
been opened to fish passage and over 225,000 acres of fish and wildlife 
habitat have been improved or restored. Dozens of projects have focused 
on enhancing habitat for federal trust species, while additional work 
has accelerated restoration of fisheries that generate billions in 
annual economic benefits and provide outdoor recreation opportunities 
on private and public lands for millions of people. While many of these 
projects have focused on habitat improvement, a common side benefit is 
addressing aging infrastructure such as failing dams or dilapidated 
bridges. Substantial investments have gone into improving Great Lakes 
coastal wetlands where the water meets the land. These areas are 
hotspots of biodiversity and have outsized economic benefits due to 
their ability to remove excess nutrients that cause harmful algal 
blooms, protect property from the impacts of high water levels, and 
provide important habitat for fish and waterfowl.
Preventing and controlling harmful aquatic invasive species
    Aquatic invasive species (AIS) represent a serious threat to the 
Great Lakes, which currently contain more than 180 non-native aquatic 
species, many of which are invasive and are causing ecological and/or 
economic damage. The Great Lakes food webs are now dominated by 
invasive species that change how the ecosystem functions and result in 
substantial economic costs to the region by limiting access to clean 
water, interfering with recreation, disrupting native fish populations 
and hurting tourism. Preventing new species introductions and managing 
existing harmful species is a top priority for the GLC. GLRI 
investments in invasive species prevention and control have totaled 
more than $443 million in eight years, providing vital support for

    <bullet>  actions to prevent the introduction of Asian carp into 
the Great Lakes;
    <bullet>  development of new ballast water treatment technologies 
to prevent new AIS introductions through commercial shipping;
    <bullet>  implementation of advanced early-detection methods to 
identify new species early in the invasion process;
    <bullet>  increased capacity to detect and contain or eradicate new 
invasions before they can do damage to the environment or economy;
    <bullet>  research and manage to respond to priority species such 
as zebra and quagga mussels, Phragmites, invasive crayfish, and 
hydrilla; and
    <bullet>  implementation of control activities to reduce 
populations of established species and minimize their harmful impacts.
       Economic Impact of the Great Lakes Restoration Initiative
    In 2018 the GLC and the Council of Great Lakes Industries released 
the first-ever comprehensive study of the overall impact of the GLRI on 
the Great Lakes regional economy. Conducted by a team of economists 
with the University of Michigan's Research Seminar in Quantitative 
Economics, the study analyzed the economic impacts of GLRI project 
spending between 2010 and 2016; the amount of region-wide economic 
activity that will be generated through 2036; the growth in regional 
tourism that has resulted from the GLRI; and the program's impact on 
the region's quality of life as reflected in increased home values. The 
study's key findings are that

    <bullet>  Every dollar of GLRI project spending from 2010 through 
2016 will produce $3.35 of additional economic activity in the Great 
Lakes region through 2036. The number was even higher in some Great 
Lakes communities: each dollar invested in Buffalo, New York, and 
Detroit will produce more than $4 of additional economic activity.
    <bullet>  The GLRI has enhanced tourism in the Great Lakes region. 
Every dollar of GLRI project spending from 2010 through 2016 will 
generate $1.62 in economic value in tourism-related industries through 
2036.
    <bullet>  The GLRI increased the value that residents place on 
living coastal areas: every project dollar spent between 2010 and 2016 
produced quality of life improvements in coastal communities worth 
$1.08 to residents as measured in housing values, which means that 
people place a higher value on living in those communities because of 
GLRI projects.
    <bullet>  Despite its primary focus on environmental restoration, 
the GLRI created or supported as many jobs per dollar of investment 
that would be created by a conventional federal stimulus program.

    To provide local context for the results, the study developed case 
studies that demonstrated how the GLRI's regional impacts have 
translated into real improvements in eight Great Lakes coastal 
communities: Duluth, MN, Superior, WI; Sheboygan, WI; Waukegan, IL; 
Muskegon, MI; Detroit, MI; Ashtabula, OH; Erie, PA; and Buffalo, NY. 
Key, local impacts from GLRI investments include:

    <bullet>  Millions of dollars of new real estate and commercial 
development, particularly in waterfront areas;
    <bullet>  Resurgence in traditional recreational activities and the 
emergence of new opportunities such as kayaking, kitesurfing, and 
paddle-boarding;
    <bullet>  Increased tourist visits and growth in revenues earned by 
tourism-related businesses; and
    <bullet>  Improved quality of life as shown by new residential 
housing, growing numbers of young people choosing to stay in or 
relocate to Great Lakes communities, and the marketing of water-related 
amenities as a recruiting tool for employers.
                  Legislative Priorities for Congress
    The GLC offers two priorities for Congress to sustain progress 
under the GLRI:

    <bullet>  Sustain funding for the GLRI: Continued funding for the 
GLRI of at least $300 million annually, together with ongoing program 
reviews and accountability, will build on planning, investments and 
progress underway at the federal, state, tribal and local levels. This 
will help maintain progress toward achieving goals outlined in the new 
GLRI Action Plan, which focuses on cleaning up AOCs, reducing 
phosphorus runoff that causes harmful algal blooms, controlling 
invasive species, and restoring habitat for native species. As just one 
important example, work is still underway in 19 AOCs, including the 
largest and most complex areas with the costliest cleanup needs. In FY 
2020 alone, U.S. EPA is prepared to begin implementation of ten 
contaminated sediment cleanups in five states that require an estimated 
$88 million in federal funding and will leverage nearly $60 million 
from nonfederal partners. Over the course of the next five-year GLRI 
Action Plan III, U.S. EPA projects that up to 50 additional 
contaminated sediment sites will be ready for remediation, requiring 
substantial continued GLRI funding. This is just one component of our 
region's ongoing Great Lakes restoration needs, with continued support 
also needed to prevent nutrient pollution that causes harmful algal 
bloom and halt the threatened invasion of Asian carp into Great Lakes, 
among other priorities.
    <bullet>  Reauthorize the GLRI: The GLRI was formally authorized in 
2016, providing a more secure legal foundation for continued 
appropriations and Congressional oversight. The GLC calls on Congress 
to reauthorize the program in 2020 to sustain this legal authority and 
provide Congress with an opportunity to provide additional legislative 
direction on the GLRI's management and priorities. The GLC will consult 
with its members states on opportunities to improve the program's 
effectiveness and looks forward to conveying its recommendation to the 
committee as the authorization process moves forward.
                               Conclusion
    Great Lake restoration is a complex, long-term investment in a 
national asset. While achievements to date are substantial, they 
reflect the ``low-hanging fruit.'' Looking ahead, we face daunting 
challenges, including cleaning up the largest and most complex AOCs, 
such as the Detroit, Rouge, Cuyahoga, Fox, St. Louis and Grand Calumet 
Rivers--rivers that were heavily used and, in many cases, severely 
degraded during the latter half of the 20th century; further 
implementing a long-term solution to prevent the introduction of Asian 
carp into the Great Lakes; and preventing harmful algal blooms in Lake 
Erie and other vulnerable areas of the Great Lakes.
    Successfully confronting these challenges will require sustained, 
focused investment, collaboration, science-based solutions, and long-
term monitoring and adaptive management. The GLRI provides a necessary 
framework and capacities for continued progress. The GLC urges Congress 
to support and continue successful federal-state-tribal-local 
investments to restore the Great Lakes.
    The GLC appreciates the Committee's interest and oversight and 
looks forward to providing input on how to best advance the Great Lakes 
Basin's regional goals for a healthy environment and strong economy. If 
you have questions, please contact me at ------------ or -------------.
        Sincerely,
                                          Darren J. Nichols
                                                 Executive Director

cc: Great Lakes Commission Board of Directors

                                 <F-dash>
 Letter of June 25, 2019, from Chad Lord, Policy Director, Healing Our 
    Waters-Great Lakes Coalition, Submitted for the Record by Hon. 
                               Napolitano
                                                     June 25, 2019.
Hon. Grace F. Napolitano
Chairwoman
Subcommittee on Water Resources and Environment, Committee on 
        Transportation and Infrastructure, U.S. House of 
        Representatives
Hon. Bruce Westerman
Ranking Member
Subcommittee on Water Resources and Environment, Committee on 
        Transportation and Infrastructure, U.S. House of 
        Representatives
    Dear Chairwoman Napolitano and Ranking Member Westerman:
    On behalf of the Healing Our Waters-Great Lakes Coalition, thank 
you for holding the hearing on ``Protecting and Restoring America's 
Iconic Waters.'' Because of the Great Lakes Restoration Initiative, we 
are seeing incredible results in protecting and restoring the drinking 
water for 30 million Americans. Even with these results, however, we 
still have a tremendous amount of work to do. I write today to offer 
our views on the GLRI and ask that this letter be included in the 
hearing record.
    The Healing Our Waters-Great Lakes Coalition is comprised of more 
than 160 environmental, conservation, hunting, and fishing 
organizations; museums, zoos, and aquariums; and businesses 
representing millions of people whose goal is to restore and protect 
North America's greatest freshwater resource. Millions depend on the 
Great Lakes for their drinking water, and more benefit from the 
business, industry, and commerce that is connected to them. But the 
Lakes have long suffered from a legacy of toxic pollution, the 
introduction and spread of invasive species, and the loss and 
degradation of habitat.
    In 2004, the Great Lakes community and policy makers recognized the 
growing burden of these challenges and the lack of progress being made 
up to address them. The Great Lakes Regional Collaboration was 
initiated under President George W. Bush to develop a strategic 
blueprint for restoration and protection.\1\ After a yearlong process 
involving 1500 stakeholders, a plan was finalized that identified a 
list of actions necessary for restoration and protection of the Great 
Lakes, including stopping sewage contamination that closes beaches and 
harms recreational opportunities; cleaning up toxic sediments that 
threaten the health of people and wildlife; preventing polluted runoff 
from cities and farms that cause harmful algal blooms which poison 
drinking water; restoring and protecting wetlands and wildlife habitat 
that filter pollutants, provide a home for fish and wildlife, and 
support the region's outdoor recreation economy; and preventing the 
introduction of invasive species, such as Asian carp, that threaten the 
economy and quality of life for millions of people. It was out of a 
need to implement activities that achieved the collaboration strategy's 
goals that President Barack Obama created the Great Lakes Restoration 
Initiative in 2010.
---------------------------------------------------------------------------
    \1\ GLRC. 2005. ``Great Lakes Regional Collaboration Strategy to 
Restore and Protect the Great Lakes.''
---------------------------------------------------------------------------
    Today, the GLRI is working as intended and producing dramatic 
results. The program allows the region to undertake one of the world's 
largest freshwater ecosystem restoration projects. Non-governmental 
groups, industries, cities, states, and federal agencies forge public-
private partnerships to clean up toxic hot spots, restore fish and 
wildlife habitat, and combat invasive species--partnerships that may 
never have come together had it not been for the GLRI. The GLRI's size 
and scope means it plays a central role in successfully restoring and 
protecting the Great Lakes. Rather than just accelerating progress, it 
catalyzes critical restoration action that would have never happened 
otherwise. The GLRI organizes an enormous region of the country to 
protect one-fifth of the world's surface drinking water.
                  Environmental and Economic Benefits
    The GLRI is critical to the health and quality of life of the 
region and nation. It drives economic development--and jobs--in 
communities across the eight states, which supports the broader U.S. 
economy. A report last fall from economists at the University of 
Michigan, Central Michigan University, and Duke University demonstrated 
that the Great Lakes Restoration Initiative's (GLRI) ecological 
investments are resulting in significant economic benefits. The study 
showed that for every $1 the GLRIinvested through 2016 to clean up 
toxic hot spots in Areas of Concern (AOC), control invasive species, 
restore wildlife habitat, protect wetlands, and reduce harmful algae 
the investment will produce more than $3 in additional economic 
activity regionwide through 2036 (more in some cities; see chart).

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    This research demonstrated that the GLRI is creating new real 
estate and commercial development--particularly in waterfront areas. 
This development has resulted in a resurgence in water-based, outdoor 
recreation and increasing tourism across the region, increasing housing 
options and home values, and an increasing number of young people 
staying in or relocating to Great Lakes communities. In addition, this 
research showed that restoration investments created or supported jobs. 
GLRI projects through 2016 are responsible for more than 9 percent 
total job growth in Ashtabula County, Ohio; 4.2 percent total job 
growth in Duluth, Minn.; and 3.2 percent total job growth in Sheboygan, 
Wis. Specific examples include:

    <bullet>  Twenty-seven new businesses opened to serve growing 
numbers of waterfront visitors in Ashtabula, Ohio, since 2010.
    <bullet>  Buffalo, N.Y. opened a multi-million-dollar entertainment 
complex in 2015 on an old industrial site, offering a restaurant, 
ziplining, a climbing wall, kayak and paddleboard rentals, a hockey 
rink, and roller derby facilities.
    <bullet>  Business at Detroit Outpost (a kayak outfitter and tour 
company) has increased 500 percent since 2013 and business at Detroit 
River Sports has doubled since 2015.
    <bullet>  Bay Marine Chicago Yachting Center opened in Waukegan, 
Ill. in 2018. The $5-million development serves pleasure boaters.

    These economic outcomes are possible because of restoration 
successes like these:

    <bullet>  Four Areas of Concern have been delisted (one prior to 
the GLRI) and an additional eight have completed all management actions 
necessary to delist.
    <bullet>  Between 2010 through 2019, 80 beneficial use impairments 
(BUIs) have been removed in Illinois, Indiana, Michigan, Minnesota, New 
York, Ohio, Pennsylvania, and Wisconsin, nearly seven times the total 
number of BUIs removed in the preceding 22 years. BUIs are the 
benchmarks of environmental harm that characterize AOCs.
    <bullet>  Additional early detection and monitoring exercises and 
vital support for the Asian Carp Regional Coordinating Committee 
prepared the region to respond to new and existing aquatic invasive 
species, while federal agencies and partners in one year funded work to 
protect over 18,000 acres from aquatic and terrestrial invasive 
species. Since the GLRI's inception more than 153,000 acres have been 
protected or treated.
    <bullet>  Combined with other funding, farmers implemented 
conservation action on more than 700,000 acres of rural lands through 
2018 to reduce erosion and farm runoff that feeds toxic algal 
outbreaks. GLRI's supplemental funding helped double farmland under 
conservation around Western Lake Erie, Saginaw Bay, and Green Bay, 
reducing projected phosphorus runoff by more than 880,000 pounds.
    <bullet>  Habitat and wildlife connectivity continued to improve as 
the Fish and Wildlife Service, National Park Service, Natural Resources 
Conservation Service, and National Oceanic and Atmospheric 
Administration worked with partners to restore, protect, or enhance 
over 370,000 acres of wetlands and other habitat. 5,289 river miles 
have also been cleared of dams and barriers resulting in fish swimming 
into stretches of river where they have been absent for decades.

    While these numbers are impressive, the stories behind them are 
more illuminating:

    <bullet>  At the Ashtabula River in Ohio, a sediment cleanup and 
habitat restoration project has restored the lower two miles of the 
river and advanced efforts to get it de-listed as a Great Lakes Area of 
Concern. The project has improved water quality and deepened the river 
channel, making the lower Ashtabula suitable again for maritime 
commerce, fishing, and recreational boating.
    <bullet>  The iconic Two-Hearted River in Michigan has seen 
increased opportunities for recreation and fishing thanks to 
restoration that stabilized the riverbanks. In addition, 23 road 
crossings over the river were repaired and culverts were replaced. The 
combination of this work connected 35 miles of river and reduced 
sediment pollution by more than 625 tons per year.
    <bullet>  In Duluth, Minn., a conservation corps project has 
improved stream health and habitat while providing jobs for 14 
unemployed or underemployed Duluth residents. The Stream Corps project 
worked with 175 landowners to plant more than 18,000 trees and shrubs, 
which improved water quality as well as property values.
    <bullet>  North Point Marina Beach in the Chicagoland area is safe 
for residents to swim at once more, thanks to an increase in native 
plants. In 2007, prior to restoration, the beach was closed for 82 
percent of the swimming season due to bacteria build up from gulls. By 
planting the expansive beach with native plants and grasses the 
ecosystem is no longer hospitable to the gulls and bacterial pollution 
has decreased.

    These stories and more can be found at www.healthylakes.org/
SuccessStories
                        Building on a Solid Base
    How the region is accomplishing all this work is as impressive as 
what we are doing. The GLRI is a model for large, landscape-scale 
restoration. It ensures that the focus remains on the highest regional 
priorities that are identified by stakeholders through the GLRI Action 
Plans, which are themselves based on the larger restoration blueprint, 
the ``Great Lakes Regional Collaboration Strategy to Restore and 
Protect the Great Lakes.'' It also provides a way for the U.S. to meet 
its commitments under the 2012 Great Lakes Water Quality Agreement with 
Canada. The GLRI is a critical component towards ensuring that the 
goals we set for ourselves in both the agreement and in this 
comprehensive plan can be achieved.
    Additionally, the way the GLRI works also effectively allows 
federal agencies to obligate their GLRI funds quickly to on-the-ground 
work. The EPA, working with other federal agencies like the Fish and 
Wildlife Service, National Oceanic and Atmospheric Administration, 
Natural Resources Conservation Service, and National Park Service, 
quickly convert the funding they receive to supplement restoration 
activities through existing, authorized programs. This structure allows 
for funds to move quickly from EPA through the interagency agreements 
EPA reaches with the other federal agencies and onto the ground to 
complete important restoration work. This model also ensures 
accountability through the establishment of an ``orchestra leader'' 
(EPA), helps accelerate progress, and avoids potential duplication, all 
of which help save taxpayers money while focusing efforts on the 
highest, consensus-based priorities.
    This model, however, works best when both existing federal agencies 
and programs, as well as the GLRI, have the funding they need to 
support each other.
               Maintaining Support Until the Job is Done
    Even with the tremendous results we are seeing, the Great Lakes 
still face serious threats. Nineteen U.S. AOCs are still contaminated 
with toxic sediment, threatening the health of people and stunting the 
development of communities. Harmful runoff from farm fields continues 
to pollute our waters, causing toxic algae outbreaks that threaten 
water systems, public health, and economic vitality. Habitat loss and 
aquatic invasive species continue to damage our region's outdoor way of 
life. And communities across the Great Lakes region continue to grapple 
with crumbling, antiquated water infrastructure and are faced with a 
staggering $179 billion over the next 20 years for needed improvements, 
upgrades, and repairs in the eight-state region. Many of these threats 
disproportionately impact people that have historically borne the brunt 
of environmental injustice underscoring an urgency to address these 
issues for everyone in the region. Furthermore, our changing climate is 
exacerbating all our region's challenges, making restoration efforts 
more complex and even more critical to ensure our communities 
resiliency.
    The GLRI works, but with far reaching and ambitious conservation 
targets being set in the next GLRI Action Plan, there is still a lot of 
work left to be done. For example:

    <bullet>  The GLRI has helped remediate 80 beneficial use 
impairments (BUIs) across the region--less than a third of all 
identified BUIs. Under the proposed Action Plan III, the EPA aims to 
remove another 48 BUIs and achieve the completion of management actions 
at 22 of 31 AOCs. Yet, by 2024 nearly half of identified BUIs will 
remain untreated and management actions at 30 percent of AOCs will 
remain uncompleted. Furthermore, greater challenges lay ahead as the 
remaining AOCs are expected to see increasingly complex and expensive 
contaminated sediment issues. In 2020 alone, 10 pending sediment 
cleanup projects are expected to require $88 million in federal funding 
with ongoing projects awaiting another $130 million in future years.
    <bullet>  The GLRI has resulted in an estimated reduction of 
881,467 lbs. of nutrients across the priority watersheds of the Maumee, 
Saginaw, Genesee, and Lower Fox Rivers. A significant step, but under 
the binational Great Lakes Water Quality Agreement the U.S. has 
committed to a 40% Phosphorus reduction--a reduction of over 7.3 
million pounds--in Lake Erie alone.\2\ Other state and federal actions 
have led to significant reductions in Lake Erie, but early estimates 
suggest achieving only a 34% reduction by 2020. Greater action is 
needed to meet our bi-national targets, improve water quality, and 
address the increasing likelihood of HABs across all Great Lakes.
---------------------------------------------------------------------------
    \2\ EPA, 2018 ``Factsheet: U.S. Action Plan for Lake Erie (2018)'' 
Accessed: https://www.epa.gov/sites/production/files/2018-03/documents/
lake_erie_action_plan_fact_sheet_-_march_1_2018.pdf
---------------------------------------------------------------------------
    <bullet>  Habitat restoration is critical to protecting and 
improving regional water quality, enhancing the recovery of native 
species, and improving the resiliency of coastal communities. The GLRI 
has led to the restoration, protection, and enhancement of over 370,000 
acres of habitat. A lot of work remains. The Great Lakes Interagency 
Taskforce identifies 1,550,000 acres of habitat in need of action and 
expect to have only reached 29% of this target by 2024, under current 
funding levels. Simply reaching the target of 260,000 acres of coastal 
wetland restoration, under current estimates, could cost somewhere in 
the range of $336 to $483 million alone.\3\
---------------------------------------------------------------------------
    \3\ Hansen et al. Targeting Investments To Cost Effectively Restore 
and Protect Wetland Ecosystems: Some Economic Insights, ERR-183, U.S. 
Department of Agriculture, Economic Research Service, February 2015; 
Accessed at: https://www.ers.usda.gov/webdocs/publications/45347/
51895_err183.pdf?v=0

    Additional congressional investment through the GLRI is critical to 
begin to close the gap on these targets. Beyond the GLRI, it is 
congressional action that will help supplement this restoration 
progress by helping communities replace lead pipes, address emerging 
contaminants like PFAS, ending polluted stormwater runoff, and keeping 
water affordable and safe for everyone. Congress must further support 
action to stop Asian carp and other aquatic invasive species from 
invading the region and act to mitigate the damage from climate 
pollution to help the Great Lakes adapt to a changing climate. We also 
need strong clean water protections, as well as institutions that are 
adequately staffed and funded to enforce protections that we all depend 
on.
                               Conclusion
    The Great Lakes Restoration Initiative is working, and along with 
other restoration investments, is producing unprecedented results. This 
initiative has given the region an opportunity to protect and restore 
one of the world's largest freshwater ecosystems. It has spurred 
public-private partnerships between non-governmental groups, 
industries, cities, states, tribes, and federal agencies. Their work is 
resulting in cleaned up toxic hot spots, restored fish and wildlife 
habitat, and protected against the harmful impacts of urban and 
agricultural runoff. The GLRI's size and scope gives it a central, 
albeit not the only, role in our region's success for restoring and 
protecting the Great Lakes. It's a good program for which this 
subcommittee should be proud.
    But serious threats remain, and we must continue to work together 
to bring about the restoration of our waters and our region. As you 
look to the future, we urge you to continue to support the GLRI. 
Recognizing its success as a model for landscape-wide restoration, but 
also seeing that as our region begins to deal with more and more 
complex restoration challenges its resources are being stretched 
further than ever before. We call on Congress to reaffirm its 
commitment to the region and a program with far-reaching impacts within 
the basin and beyond its boundaries. We ask you to reauthorize this 
program for another five years bringing its funding levels up to $475 
million to match the first year of the program.
    We appreciate the subcommittee's interest and leadership in 
highlighting the results stemming from the GLRI and for holding today's 
hearing that examines the benefits of protecting and restoring our 
iconic waters. The Great Lakes region will celebrate next year a decade 
of successful restoration and protection. Even with the broad benefits 
of the GLRI, it is important to recognize that there is still much work 
to be done.
    Thank you again for your support and the opportunity to share our 
views with you. If you have questions, please do not hesitate to 
contact me at ------------ or -------------.
        Sincerely,
                                                  Chad Lord
                                                    Policy Director

                                 <F-dash>
  Statement of Jim Murdaugh, Ph.D., President, Tallahassee Community 
   College, Tallahassee, FL, Submitted for the Record by Hon. Webster
    Good morning Chairman Napolitano, Ranking Member Westerman, and 
members of the Committee:
    Thank you for the opportunity of providing written testimony for 
this most important hearing today on Protecting and Restoring America's 
Iconic Waters. My name is Jim Murdaugh, and I am President of 
Tallahassee Community College (TCC), located in the state capital of 
Florida. As most Floridians will tell you we are all very connected to 
our natural environment, our estuaries, our beaches and waterways. Our 
economy, and the wellbeing of our State depends on a healthy 
functioning environmental ecosystem. As an educational institution we 
strive to teach, educate, and provide solutions to maintain and grow 
the vibrancy of all of our costal waterways. We are well aware of the 
impact of harmful algal blooms like red tide on our state. We have seen 
the loss of key habitats resulting in significant impacts on fisheries 
and water quality, we know first hand the impact of flooding and 
coastal erosion related to sea level rise. Our state has become a 
bellwether for our nation, and what we are able to do here has national 
implications on improving our waterways throughout the country. We at 
TCC are ready to help.
    Tallahassee Community College is an open admission, comprehensive 
community college and is one of 28 members of the publicly funded 
Florida Community College System. TCC serves the most educationally and 
economically disadvantaged area of Florida and has over 12,000 students 
including the state's largest number of African American community 
college students. The college ranks ninth nationally in the number of 
Associate degrees awarded annually. Fourth nationally in the number of 
Associate degrees awarded to African American students annually. First 
among the 28 members of the Florida College System in the percentage of 
graduates who transfer to the State University System the next year 
with 75%; and first among Florida College System members in the 
percentage of Associate degree completers with disabilities. TCC meets 
the educational needs of a large, diverse student population with 
Associate in Arts (AA) and Science (AS) degrees in 56 curriculum areas, 
courses for transfer to four-year colleges, and more than 70 job 
training programs. TCC is ranked among the nation's top 20 percent of 
colleges and universities for veterans having been recognized as a 
military-friendly college. In addition to its educational initiatives, 
TCC has also embraced its environmental mission and in 2012 started 
construction on the Wakulla Environmental Institute (WEI).
    WEI is a world-class Institute that brings together education, 
conservation and recreation in a manner that stimulates economic 
development in an environmentally responsible way. This region is 
regarded as one of the top five biodiversity hotspots in all of North 
America. The Institute is situated on 158 acres of untouched land which 
includes pine forest, a natural land bridge, sink holes and swamp. The 
campus building boasts 10,000 square feet of classrooms, meeting 
spaces, a state-of-the-art wet lab, and plenty of covered porch area 
ideal for taking in the beautiful campus scenery. WEI was created to 
highlight Wakulla's natural heritage and biodiversity through 
education. The Institute offers environmentally- focused certificates 
and educational programs that promote education, conservation and 
recreation through hands-on activities, practical experiences and 
online coursework. One of our more unique programs is our Oyster 
Aquaculture Certificate Training Program.
    This program was developed as a sustainable alternative to wild 
oyster harvesting in response to the depleting level of oysters in the 
waters of Wakulla, Franklin and Gulf Counties. Threats caused by 
overharvesting, the BP oil spill and a narrowing of public combing 
areas led many to find work in alternative industries. Steering 
oystermen back into the industry creates a domino effect which benefits 
the region's economy. The program's mission is to provide oysterman and 
fishermen the tools to open their own businesses by offering training 
on how to farm-raise oysters in Wakulla County. However, in addition to 
the educational and business opportunities created there has also been 
tremendous positive environmental impacts from our oyster program which 
have the potential to be completely transformative for the state of 
Florida and our Nation.
    You may be wondering why oysters are so important. Oysters are 
filter feeders and are thus natural combatants to red tide and other 
harmful algal blooms. For millions of years oysters have lined the Gulf 
and the Eastern Seaboard and have protected the coastline against 
erosion, harmful algal blooms, and other environmentally harmful 
effects. Now, 85% of natural oyster reefs are gone around the world 
which are a key component to global ocean health. Oysters are a 
keystone species, and once you take away a keystone species it has a 
dramatic downward effect on the entire ecosystem. For example, oysters 
clean about 50 gallons of water a day while oyster reefs provide 
support for over 300 species of marine life.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

        The water in both tanks is from the same time and place.
                   The tank on the right has oysters.

    In response to the decline in wild oyster harvests and the 
subsequent impact on the local economy, WEI initiated a grower training 
program for oyster aquaculture in 2013. It obtained a five-acre 
submerged land, full water column lease for aquaculture in the Oyster 
Bay, Wakulla County, FL; the first ever awarded by the Florida Cabinet. 
As a result of our efforts in establishing an Oyster Aquaculture 
Training Program we have found that the reintroduction of oysters has 
had a tremendous economic as well as a profound environmental effect on 
the region. Within a few years of establishing our Aquaculture Program 
we noticed the Bay waters became clearer and the return of other 
aquatic species to an area which had been desolate due the absence of 
oysters. We engaged with Florida A&M University to conduct water 
quality tests to determine what level of impact our Oyster Aquaculture 
Program had on Oyster Bay and the results have been astounding. Not 
only did the three year study determine the amount of nitrogen removed 
from the system, it quantified the level of water quality by 
equivocating it to be the same as having an $8 million wastewater 
treatment facility per year on a five acre lease. This became the 
genesis of our habitat restoration efforts in finding a way to export 
clean water.
    Since the start of our oyster aquaculture program in Oyster Bay we 
have seen the area change from a soft bottom system with little 
productivity and few species to a more diverse community with greater 
abundance of fishes and the presence of seagrasses returning to the 
area. In order to expedite this amazing natural occurring process, TCC 
has created a patent pending invention that will reintroduce oysters 
where they have been decimated by re-establishing natural oyster reefs. 
We have created oyster domes.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

             (Oyster domes ready to be placed in the water)

    Domes are \1/2\ of a sphere. Approximately 3 feet in diameter and 
about 2 feet tall. Each dome has approximately 10 holes around the dome 
about 4 inches in diameter. The thickness of the dome is approximately 
3 inches.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

 (From the top of the dome, a PVC pipe, holds several mature oysters. 
 The oysters in the pipe spawn and populate the area with oyster that 
                         attach to the domes.)

    The deployment of our oyster reef dome technology creates an 
environment for oysters to thrive by providing a protected and 
deployable seed source. Our domes re-seed an area, re-establishes 
oyster reefs, thus improving water quality, and acts as a buffer zone 
between the watershed and estuary, thus mitigating the problems that 
arise from watershed runoff.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

              (Oyster dome after it has been in the water)

    We have a solution that will reintroduce oysters in areas where 
they have been decimated and re-establish natural oyster reefs.

    <bullet>  A 5-acre oyster dome site will bring in a permanent 
oyster seed source to an ecosystem. This seed source will spread oyster 
seed miles from the original spawn site, growing the oyster ecosystem.
    <bullet>  As the 5-acre oyster dome system matures, trillions of 
oyster larva will be spawned sending oyster seed to the surrounding 
area, constantly improving the local ecosystem.
    <bullet>  The trillions of egg and sperm released into the water 
serves as a major food source to 300 species of very small animals that 
in turn, will feed the food chain. This will greatly improve the local 
fisheries.
    <bullet>  The domes serve as wave attenuators, this helps with 
reducing coastal erosion.
    <bullet>  Oyster domes work in areas where there are limited 
natural seed source or none at all. Each dome comes with its own seed 
source.
    <bullet>  5 acres of domes will produce on average of 750 trillion 
oyster eggs and quadrillions of oyster sperm per group spawn.
    <bullet>  The domes serve as a permanent space for fisheries 
nursery. This will improve the local fishing.
    <bullet>  As the water clarity improves, the sunlight will be able 
to get to the sea floor. This will allow sea grasses to develop and 
thrive. This will allow more fish to grow and improve spawning.
    <bullet>  Each 5-acre site will clean 500 billion gallons of 
seawater per year, by year two. This is equivalent to $8 million 
dollars of water treatment from a typical wastewater treatment plant 
per year.
    <bullet>  Each dome concentrates the oyster spawn up to 5 times the 
normal rate of fertilization. This technique allows far more oyster 
larvae back into the environment to expand the local oyster reefs.

    Harmful algal blooms are the one of most destructive natural forces 
besides hurricanes that impact Florida. Red tide affects the beaches 
and thus tourism which is the number one economic industry in the 
Florida. Red tide and other harmful algal blooms are the result of an 
imbalance in the natural habitat environment caused by toxic waste 
being dumped in our estuaries from inland river systems. Harmful algal 
blooms feed on nitrogen, picoplankton, zooplankton, undersea sediments 
to name a few. This imbalance keeps occurring because there aren't 
enough oyster reefs to filter these nutrients out of the system and 
feed on algae in the water column. Because oysters remove harmful 
nutrients and feed on algae, they are the perfect foil in addressing 
problems with harmful algal blooms.
    In Sarasota County alone, last year it was estimated that red tide 
had a $44 million effect on the residents and businesses in that area. 
Tourism, health, and fisheries related incidents are where the bulk of 
the estimated damages occurred. Since 2013 when we started the oyster 
aquaculture industry here in the state of Florida, we have produced 
more than 20 million oysters in the bay, and in two years we have 
experienced a dramatic change in water quality and fishing in the areas 
surrounding our leases. Last year Oyster Bay did not have any recorded 
accounts of red tide. We know that this is because of the presence of 
the oysters as a keystone species being reintroduced in the area and 
thus keeping levels of nitrogen and other nutrients that harmful algal 
blooms feed on in check.
    In closing, I must say it is an honor to come before the Committee 
and provide written testimony to discuss these important issues. We all 
understand the significant threat our waterways are under, and the 
swiftness for which we must act to mitigate against true and permanent 
environmental damage. As Tallahassee Community College's President, I 
come before you today with possible solutions that have the potential 
to be transformative for our Nation. I thank you for holding this 
hearing and allowing me the opportunity to address this Committee.


                                Appendix

                              ----------                              


Questions from Hon. Grace F. Napolitano to Preston D. Cole, Secretary, 
               Wisconsin Department of Natural Resources

    Question 1. You mention in your testimony that Great Lakes 
Restoration Initiative funding has helped protect local drinking water 
by ``working with farmers to prevent nearly 800,000 pounds of 
phosphorous from polluting the Great Lakes and causing harmful algal 
blooms.''
    Can you describe, in more detail, what actions have been taken, and 
the agreements reached between regulators and farmers to achieve this 
significant reduction? Are additional efforts underway in the watershed 
to control harmful algal blooms? Can these efforts be replicated 
elsewhere?
    Answer. Thank you for the opportunity to provide some additional 
information about the GLRI and the work that the states and our 
partners are doing to address these issues.
    Since its beginning, Great Lakes Restoration Initiative (GLRI) 
goals and performance metrics recognized that success depended on 
reducing both urban and agricultural sources of nutrients. The GLRI 
funding has supported a multi-pronged approach that increased capacity 
to carry out on-the-ground actions, develop tools to target and 
prioritize, monitor effectiveness, and encourage innovation (based on 
supporting science, including better understanding of the drivers of 
harmful algal blooms).
    The GLRI funding has supported a wide variety of actions to reduce 
phosphorus loading from agricultural lands. The actions include (among 
others) restoring/installing wetlands, providing incentives for 
planting cover crops and implementing no-till practices, re-
naturalizing channelized streams, stabilizing eroding streambanks, 
creating riparian buffers, installing waste storage facilities, 
conducting farm risk assessments and implementing nutrient management 
plans. Farmers are actively engaged in selecting agricultural practices 
to tailor them to their farming operations and needs. The GLRI has also 
supported green infrastructure projects such as rain gardens, 
bioswales, porous pavement, and bioretention ponds to reduce runoff 
pollution from developed urban areas.
    A particularly innovative and successful GLRI-funded effort is the 
establishment of the Demonstration Farm Networks, a program that was 
piloted in the Lower Fox River watershed (WI) \1\, and has now been 
replicated in multiple watershed areas throughout the Great Lakes 
region. The Demonstration Farms program has allowed farmers to try new 
practices, such as side dressing manure into corn, interseeding (sowing 
cover crop seeds into the field before crops have been harvested), and 
no-till practices. The program also incorporates edge-of-field 
monitoring, so scientists can document the impact of the innovative 
practices on water quality and provide recommendations to conservation 
professionals and farmers for improving practices. And perhaps most 
importantly, it facilitates peer learning by providing opportunities 
for the demonstration farmers to interact with neighbors through field 
days, social events (e.g., breakfasts on the farm), and workshops.
---------------------------------------------------------------------------
    \1\ First Great Lakes Demonstration Farm Network to Launch in Green 
Bay Area https://www.nrcs.usda.gov/wps/portal/nrcs/detail/wi/newsroom/
releases/?cid=STELPRDB1241556
---------------------------------------------------------------------------
    The funding for these actions is allocated through existing federal 
programs such as the USDA-NRCS Environmental Quality Incentives Program 
(EQIP), competitive awards to state or local agencies and nonprofit 
organizations, and non-competitive awards to states where the actions 
support priorities of the Lakewide Action and Management Plan (a multi-
jurisdictional plan established under the U.S.-Canada Great Lakes Water 
Quality Agreement). These multiple funding pathways are important for 
enabling partners to work together toward shared goals and leverage 
different organizational capacities, technical expertise, and 
relationships.
    Since many of the agricultural best management practices are 
installed on private lands, farmers enter into voluntary agreements to 
install and maintain those practices. The agencies overseeing the 
projects establish contracts with farmers to maintain the practice for 
a certain number of years (variable depending on the place and the 
practice; usually 5 years to 15 years). In some cases, permanent 
easements are established. The agencies provide funding to help pay for 
the installation of the practice and may provide incentive payments for 
their continued maintenance. Farmers participating in the Demonstration 
Farms Network have seen significant improvements in soil health, which 
in turn leads to reduced operating costs and resiliency to extreme 
weather events. Many Demonstration Farmers are adopting practices for 
water quality without additional contracts or incentive payments.
    Beyond the GLRI-funded projects and programs, state and local 
partners are working on multiple fronts to reduce nutrient inputs and 
control harmful algal blooms. One example is the federal Total Maximum 
Daily Load, or TMDL, Program which is part of the Clean Water Act. This 
provides a systematic framework for monitoring to identify waters that 
are degraded, characterizing the sources of pollutants, and assigning 
reductions to those sources based on the allowable pollutant load 
established by the TMDL. Pollutant limits are then incorporated into 
point source permits while nonpoint sources from agricultural lands are 
addressed through strategic watershed plans known as Nine Key Element 
Plans. The Nine Key Element Plans provide the local, ground-level 
information that conservation professionals need to strategically work 
with agricultural producers for establishing practices to achieve load 
reductions. These plans are focal points for public, private, and non-
governmental organizations to work together for implementation.
    As a state authorized to implement the TMDL Program, Wisconsin has 
been proactively developing TMDLs. U.S. EPA has approved TMDLs for the 
Lower Fox River Basin (2012) and the Milwaukee River Basin (2018). A 
TMDL was recently completed for the Upper Fox and Wolf River Basins. 
Additional TMDL development is underway in multiple watersheds in 
Wisconsin's Lake Michigan Basin.
    Wisconsin was one of the first states to adopt numeric Phosphorus 
Water Quality Standards for surface waters (rivers, lakes and streams), 
which were adopted on December 1, 2010. In addition, the rule package 
set procedures to implement these phosphorus standards in Wisconsin 
Pollution Discharge Elimination System (WPDES) permits that included 
flexibility in the compliance provisions to reduce phosphorus from 
nonpoint sources. Although the agricultural performance standards are 
mandatory, the obligation to comply may be contingent on a 70% cost 
share offer; however, available funding is very limited.
    Wisconsin has also been at the forefront in the Great Lakes region 
for developing a water quality trading program that enables point 
sources to work with agricultural landowners to achieve nutrient 
reductions required by their permits while saving money on plant 
upgrades. Market-based approaches for reducing nutrients have also been 
explored in the Erie P Trade project [https://www.glc.org/work/
eriepmarket] led by the Great Lakes Commission. Water quality trading 
and other market-based approaches to reducing nutrients may be 
transferable to other areas (and indeed, the Great Lakes region has 
learned from the Chesapeake Bay experiences and others). Wisconsin has 
also been encouraging the adoption of managed grazing systems, as they 
have potentially significant water quality and economic benefits for 
raising livestock compared to confinement systems.
    Other Midwestern states are exploring new and innovative avenues 
for reducing nutrient loads as well. To reduce algal blooms, Ohio has 
studied a tax on fertilizer to reduce soluble phosphorus and 
implemented an Agricultural Fertilizer Applicator Certification 
[https://nutrienteducation.osu.edu/FertilizerCertification], which 
requires anyone who applies fertilizer (other than manure) to more than 
50 acres of agricultural production grown primarily for sale to become 
certified by attending training and meeting application record-keeping 
requirements. Michigan has established the Michigan Agriculture 
Environmental Assurance Program (MAEAP), a state-supported voluntary 
program that enables local conservation technicians to provide a 
confidential farm evaluation and recommendations for practices that 
will improve water quality. Farms that implement the recommendations 
receive recognition and earn regulatory assurances as well as increased 
access to cost share and technical assistance (see http://
www.maeap.org/).
    Within the Lake Erie basin, the 4-R Stewardship Program engages 
fertilizer retailers, agriculture consultants, farmers and conservation 
organizations in a common-sense approach to use the right fertilizer 
source, at the right rate, at the right time, with the right placement 
(see https://4rcertified.org/ and https://www.nutrientstewardship.com/
4rs/). Incentives include cost recovery for soil testing. Farmers see 
an economic benefit that also reduces nutrients.
    It is important for these implementation-focused programs to 
operate in the larger context of watershed goals. The TMDLs and Nine 
Key Element Plans provide those goals on a local scale. In a system as 
large as the Great Lakes, regional goals can also play a key role. For 
example, in the Western Lake Erie Basin, Binational Phosphorus Load 
Reduction Targets [https://www.epa.gov/glwqa/recommended-binational-
phosphorus-targets] for phosphorus have been developed as part of 
implementing the Great Lakes Water Quality Agreement. The phosphorus 
reduction targets provide a shared goal and create a common sense of 
purpose, while enabling tracking efforts such as Blue Accounting's 
ErieStat [https://www.blueaccounting.org/issue/eriestat]. Ohio, 
Michigan, Indiana and Pennsylvania have developed Domestic Action Plans 
[https://binational.net/2018/03/07/daplanphosredinlakeerie/] that 
establish the measures for achieving those targets.
    The key elements of all of these efforts that may be transferable 
to other areas include collaborative, science-based goal-setting; 
tracking progress towards those goals; and employing multi-sector, 
diverse strategies to reach them (blending regulatory and voluntary 
approaches). Flexibility and adaptive learning are necessary for new 
ideas to be tested and rolled out to broader audiences. Local, 
producer-led innovation and information sharing should be supported. 
Monitoring to track progress and inform future actions is necessary for 
ensuring resources are allocated to effective programs and practices. 
Funding to support all of this work is important. The science community 
is already collaborating beyond the Great Lakes region to share lessons 
learned about HABs and HAB control and evaluate transferability.

    Question 2. In your testimony, you describe some of the ongoing 
threats to the Great Lakes and note that ``most of these threats 
disproportionately impact people who have historically borne the brunt 
of environmental injustice.''
    Can you be more specific as to these threats and the populations 
affected? Would you recommend something specific this administration or 
Congress can do to address these disproportionately affected 
populations?
    Answer. Great Lakes rivers and harbors were industrial hubs as the 
U.S. became an economic power in the late 19th and early 20th 
centuries. The industries that grew up along the shores of the lakes 
and rivers often left behind legacies of polluted soils, groundwater, 
and riverine sediments in the centers of some of the Great Lakes 
region's greatest cities. The populations who continue to live in these 
urban centers (for reasons discussed in the literature \2\) are often 
low-income communities and racial and ethnic minorities \3\.
---------------------------------------------------------------------------
    \2\ For example: Taylor, D. Toxic Communities: Environmental 
Racism, Industrial Pollution, and Residential Mobility; New York 
University Press: New York, NY, USA, 2014. [Google Scholar]
    \3\ Cole, F.; Foster, S. From the Ground up: Environmental Racism 
and the Rise of the Environmental Justice Movement; New York University 
Press: New York, NY, USA, 2001. [Google Scholar]
---------------------------------------------------------------------------
    While many good programs and projects have been funded to address 
water quality and infrastructure in underserved communities to date, 
more work is needed. To address these disproportionately affected 
populations, the federal government can act on a number of fronts.
    It can support and strengthen existing programs that remove toxic 
pollutants, including U.S. EPA's Great Lakes Legacy Act Program and 
Brownfields Program. Removing these pollutants is an important first 
step in any effort to revitalize blighted urban centers. Currently, the 
Legacy Act funds can only be applied to communities designated as Great 
Lakes Areas of Concern (AOCs). Expanding the program beyond these Areas 
of Concern would provide opportunities to communities burdened with 
toxic legacy pollution but without the AOC designation.
    Green infrastructure practices should be considered as 
redevelopment of brownfields and waterfronts occurs. Practices such as 
rain gardens, pervious pavement, bioswales, and green roofs should be 
encouraged and supported to reduce the impact of contaminated 
stormwater runoff on waterways, enhance resilience to extreme weather 
events, and bring green spaces to urban centers. They can provide 
increased access to waterfronts, recreational facilities, and parks. It 
is well documented that access to green spaces supports health and 
wellness \4\. The GLRI has supported these types of projects in Great 
Lakes communities and funding the GLRI at $475 million would accelerate 
their implementation.
---------------------------------------------------------------------------
    \4\ For example, see ``The Health Benefits of Small Parks and Green 
Spaces'' https://www.nrpa.org/parks-recreation-magazine/2017/april/the-
health-benefits-of-small-parks-and-green-spaces/ by Kathleen L. Wolf, 
Ph.D.
---------------------------------------------------------------------------
    Congress and the administration can continue to support U.S. EPA's 
Office of Environmental Justice which provides financial and technical 
assistance to overburdened communities for addressing environmental 
justice issues. Examples of successful projects are a Groundwork 
Milwaukee (WI) [http://www.groundworkmke.org/] project funded through a 
2015 OEJ award and a People United for Sustainable Housing (PUSH)-
Buffalo [https://www.pushbuffalo.org/] project funded through a 2016 
Environmental Justice Collaborative Problem-Solving Program award \5\. 
Both projects involved installing green infrastructure (rain gardens 
and rain barrels in Milwaukee; riparian buffers in Buffalo) by working 
with teens and young adults. The young adults gained skills in planting 
and building the practices and became ambassadors to their communities 
for raising awareness of green infrastructure.
---------------------------------------------------------------------------
    \5\ EPA Environmental Justice Grants and Communities, a story map: 
https://www.arcgis.com/apps/Cascade/
index.html?appid=d426d553c4cc44a3af62bff7e175108e
---------------------------------------------------------------------------
    Another program that merits continued support is the U.S. EPA Urban 
Waters Federal Partnership Program (https://www.epa.gov/
urbanwaterspartners). This program helps reconnect economically-
disadvantaged urban communities with their waterways by providing an 
enhanced level of coordination among federal agencies. An example 
project is in Grand Rapids, MI, where efforts to restore the Grand 
River are leading to expanded public use and economic redevelopment 
\6\.
---------------------------------------------------------------------------
    \6\ Details available at ``Urban Waters and the Grand River/Grand 
Rapids (Michigan),'' https://www.epa.gov/urbanwaterspartners/urban-
waters-and-grand-rivergrand-rapids-michigan
---------------------------------------------------------------------------
    Recognizing the importance of water and wastewater infrastructure 
for maintaining healthy communities and the high cost of upgrading 
deteriorating systems, the federal government can increase funding for 
drinking water and wastewater infrastructure replacement and upgrades 
to accelerate the pace of progress on this issue. In addition, the 
federal government can provide flexibility for meeting (or forgiving) 
local cost share requirements for federal programs.
    Great Lakes harbors and ports are economic engines of their 
communities. The U.S. Army Corps of Engineers dredges navigation 
channels to maintain sufficient depth for shipping and the dredge 
material must be placed appropriately, often in confined disposal 
facilities (CDFs). The Corps requires local communities to share in the 
cost of the dredging and disposal which can reduce the economic 
viability of ports, especially as existing CDFs are filled up. Congress 
and the administration can amend the Great Lakes Dredged Material 
Recycling provision of the Water Resources Development Act to increase 
flexibility of the Corps and its partners to remove previously disposed 
dredged material for suitable beneficial purposes. The language should 
be amended to state that ``the removal of previously disposed dredged 
material, transportation, and unloading of such material at the site of 
use shall be conducted at federal expense if the costs associated with 
these activities are less than the proportionate federal share of 
construction of a new disposal facility for dredged material from the 
same harbor or channel.'' This would extend the life of existing CDFs, 
which in turn reduces the burden on local communities for finding 
alternative dredge placement options and maintains ports and shipping 
as economic drivers.
    Congress and the administration can also consider how to directly 
implement, or support local municipalities in implementing, the 
following procurement policies that strengthen local economies while 
improving the quality of life for residents: pay prevailing wages for 
publicly-funded projects; when contracting by Request for Proposals 
(RFP), award extra points for designs that incorporate habitat, green 
infrastructure, and/or public access features; ensure that established 
minority & women-owned business set asides are enforced; and, implement 
local hire ordinances, such as the one established by Gary, Indiana 
(Ord. No. 6972, Sec.  6, 1-20-1998; see http://garycityclerk.com/gary-
municipal-code/code/) \7\.
---------------------------------------------------------------------------
    \7\ Additional discussion of this topic: ``Local Purchasing 
Preferences'' by Stacy Mitchell and Olivia LaVecchia, 26 Aug 2015 
https://ilsr.org/rule/local-purchasing-preferences/
---------------------------------------------------------------------------
Additional information:
    Toxic pollutants that were left behind by industrial development 
before the key environmental regulations of the 1970s are referred to 
as ``legacy pollutants.'' Legacy pollutants include polychlorinated 
biphenyls (PCBs), a chemical that was used in electrical equipment, 
paper manufacturing, and other manufacturing processes. PCBs are 
persistent (i.e., they do not break down in the environment) and 
accumulate in the tissues of insects, fish, and mammals. They are 
probably carcinogens \8\. Another common legacy pollutant is polycyclic 
aromatic hydrocarbons (PAHs), which is a general name for multiple 
chemical compounds. These were released to the environment by coal 
gasification plants and other industrial operations and some of the 
compounds are considered to be carcinogenic \9\. Other legacy 
pollutants include metals such as mercury, lead and arsenic.
---------------------------------------------------------------------------
    \8\ refer to ATSDR public health statement for PCBs: https://
www.atsdr.cdc.gov/phs/phs.asp?id=139&tid=26
    \9\ refer to Wisconsin DHS web page for information: https://
www.dhs.wisconsin.gov/chemical/pah.htm
---------------------------------------------------------------------------
    Individuals who live in the same neighborhoods as these 
contaminated sites can be exposed to these pollutants in a variety of 
ways. They can be exposed when they catch and consume fish from 
polluted waterbodies. They can breathe air that contains particulate 
matter from polluted sites on a dry, windy day. They can eat vegetables 
from a garden that has been grown in polluted soil. They can drink 
water that has been drawn from polluted surface water or groundwater 
and not properly treated and transported.
    The U.S. and Canada recognized the importance of addressing toxic 
pollution for restoring the health of Great Lakes communities, and in 
the Great Lakes Water Quality Agreement [https://www.epa.gov/glwqa] 
(first signed in 1972 and updated in 1978, 1987 and 2012) designated 
Great Lakes Areas of Concern to create a framework for addressing toxic 
hotspots around the Great Lakes. This in turn prompted the U.S. federal 
government to authorize the Great Lakes Legacy Act (GLLA) [https://
www.epa.gov/great-lakes-legacy-act/about-great-lakes-legacy-act] in 
2002 (reauthorized in 2008) to provide technical support and funding 
for toxic sediment cleanups in the Areas of Concern. This legislation 
has played a very important role in helping communities to remove 
contaminants, which they otherwise may not have been able to do given 
the high costs of cleanups.
    The Great Lakes Restoration Initiative (GLRI) has expanded the 
capacity of the GLLA to carry out cleanups, and strong public-private-
partnerships have formed to carry out the cleanup projects. Examples of 
GLLA cleanups include the Buffalo River [https://bnwaterkeeper.org/
projects/buffalo-river-restoration/] in Buffalo, New York; Lincoln 
Creek [https://dnr.wi.gov/topic/greatlakes/lincolnpark.html] in 
Milwaukee, Wisconsin; and, the Detroit River [https://www.canr.msu.edu/
news/yes_we_are_restoring_the_detroit_rivers_area_of_concern] in 
Detroit, MI. Following cleanups in AOCs, communities have seen 
significant economic revitalization \10\. The GLLA represents a success 
story and one recommendation would be to expand the GLLA--allow it to 
support cleanups in communities that aren't AOCs and provide additional 
funds to the program (i.e., support the GLRI at the authorized $475 
million).
---------------------------------------------------------------------------
    \10\ Assessing the Investment: The Economic Impact of the Great 
Lakes Restoration Initiative, a report by the Great Lakes Commission 
and Council of Great Lakes Industries; see https://www.glc.org/work/
blue-economy/GLRI-economic-impact
---------------------------------------------------------------------------
    While the GLLA supports the removal of toxics from waterbodies, the 
land-based cleanups are also important and regulatory programs such as 
the Comprehensive Environmental Response, Compensation, and Liability 
Act (CERCLA, or Superfund), the Resource Conservation and Recovery Act 
(RCRA), and Brownfields programs have been successful in transforming 
polluted industrial sites into desirable locations for new businesses, 
green spaces, and residential development. These regulations and 
programs should be sustained and strengthened to ensure the pace of 
cleanup continues and communities can return to health as soon as 
possible.
    Great Lakes communities can be exposed to toxic substances not only 
from contaminated soils and sediments but also as a result of nutrient 
inputs from the surrounding watershed. Toxic algae can cause rashes, 
stomach or liver illness, and respiratory problems in people and pets 
\11\. Toxic algae impacted the drinking water system of Toledo, OH in 
2014 when a severe bloom occurred in the area of the city's drinking 
water intake pipe. As a result, more than 400,000 residents were 
without safe drinking water \12\ for three days \13\. Restaurants 
closed, tourism slowed, and residents had to rely on bottled water. The 
costs of the bloom were examined in a 2015 report, Economic Benefits of 
Reducing Harmful Algal Blooms in Lake Erie, prepared by Environmental 
Consulting & Technology, Inc., which estimated the cost of the 2014 
bloom to be $65 million.\14\
---------------------------------------------------------------------------
    \11\ Nutrient Pollution Effects: Human Health (https://www.epa.gov/
nutrientpollution/effects-human-health)
    \12\ ``Toxic Algae Bloom Leaves 500,000 Without Drinking Water in 
Ohio'' https://www.ecowatch.com/toxic-algae-bloom-leaves-500-000-
without-drinking-water-in-ohio-1881940537.html
    \13\ ``Lake Erie's algae bloom is growing again after paralyzing 
Toledo water system'' https://www.bridgemi.com/michigan-environment-
watch/lake-eries-algae-bloom-growing-again-after-paralyzing-toledo-
water-system
    \14\ ``Economic Benefits of Reducing Harmful Algal Blooms in Lake 
Erie'', M. Bingham, S. K. Sinha, and F. Lupi, Environmental Consulting 
& Technology, Inc., Report, 66 pp, October 2015.
---------------------------------------------------------------------------
    Because many Great Lakes communities are at the bottom of the 
watershed, and often have little say in what happens on land upstream 
of their communities, they bear the costs of these blooms while others 
in the watershed are relied upon to take the actions that would 
alleviate the blooms (and since those actions are largely voluntary, 
they are not necessarily occurring to the degree that is needed to have 
a meaningful impact on the severity of the blooms). The nutrient issue 
is one that many federal, state and local agencies and organizations 
are working together to address (see response to question 1). One 
possible strategy for strengthening relationships among the partners 
seeking solutions is to connect agricultural producers and the 
downstream communities through fishing trips, community roundtables and 
farm visits. These activities can help to build a sense of shared goals 
and empathy for the day-to-day lives of others and how they are 
affected by these watershed issues (see Wanted: Innovative farmers to 
help slow algal bloom on Lake Erie by Richard Mertens \15\, which 
mentions that ``Fishing boat captains are taking farmers out on Lake 
Erie to let them see algal blooms first-hand.'').
---------------------------------------------------------------------------
    \15\ https://www.csmonitor.com/Environment/2018/0529/Wanted-
Innovative-farmers-to-help-slow-algal-bloom-on-Lake-Erie
---------------------------------------------------------------------------
    Contaminated sediment sites and toxic algae blooms are often 
visible problems that garner attention from community leaders and 
funders. Less visible a threat is the reliance by older Great Lakes 
cities on crumbling, antiquated drinking water and wastewater 
infrastructure. Communities in the eight-state region are faced with a 
staggering $179 billion over the next 20 years for needed improvements, 
upgrades, and repairs. Lead service lines in drinking water 
distribution systems continues to threaten the health of families in 
these older urban centers. Until all lead service lines are replaced, 
there will be a risk of exposure to lead in drinking water. Part of the 
cost of replacing the service lines falls to the homeowner. Funding 
mechanisms that would alleviate this cost for disadvantaged communities 
could help ensure that infrastructure upgrades occur equitably and do 
not leave them behind.
    Strategies for addressing these threats share some common themes. 
Successful programs such as the Great Lakes Legacy Act and Brownfields 
programs exist and should be sustained and potentially expanded. 
Partnerships should be supported as no one agency or organization can 
clean up a sediment site, alleviate harmful algal blooms, or upgrade 
infrastructure on its own. Flexibility to allow partners to arrive at 
shared, innovative solutions should be supported by the agencies 
managing government programs. Limited funding is an issue affecting 
disadvantaged communities' ability to address these threats, and 
flexibility for meeting (or forgiving) local cost share requirements 
for federal programs should be considered. Funding for drinking water 
and wastewater infrastructure replacement and upgrades should be 
increased to accelerate the pace of progress on this issue. And 
importantly, agencies who are seeking to support disadvantaged 
communities should engage members of those communities in developing 
solutions [for an interesting article, see ``Community Theories of 
Change: Linking Environmental Justice to Sustainability through 
Stakeholder Perceptions in Milwaukee (WI, USA)'' \16\].
---------------------------------------------------------------------------
    \16\ Hornik, Kaitlyn, Bethany Cutts, and Andrew Greenlee. Int. J. 
Environ. Res. Public Health 2016, 13(10), 979 https://www.mdpi.com/
1660-4601/13/10/979/htm#B3-ijerph-13-00979

    Question 3. Your testimony also mentions the challenges of emerging 
contaminants, such as nanoparticles and PFAs. These are becoming water 
quality challenges across the country.
    Do you have any suggestions for actions that Congress, or U.S. EPA 
should be taken to address these emerging threats to water quality, 
especially drinking water quality?
    Answer. As Secretary Cole described in his testimony, there are a 
suite of new chemicals that we are just beginning to understand, 
including nanoparticles, microplastics, pharmaceuticals, personal care 
products, and PFAS. Understanding sources of or these chemicals, 
cycling, bioaccumulation, exposure, and short- and long-term health 
effects of these chemicals individually and in combination is going to 
be needed moving forward to protect the health and safety of our Great 
Lakes citizens. Emerging contaminants like PFAS are particularly 
challenging to address because they are long-lasting, and substitutions 
use chemicals with similar chemical formulations that have been shown 
to be as harmful as the original product.
    For all these chemicals, most notably PFAS, the first important 
step for the Federal Government is to require EPA to set nationwide 
maximum contaminant levels (MCLs) for all emerging contaminants that 
fully protects the public health from exposure in drinking water, 
groundwater, and surface water as soon as possible. There are currently 
no federal standards for PFAS, microplastics, pharmaceuticals, or 
personal care products. They are not regulated by the Safe Drinking 
Water Act, or Clean Water Act, and there is no federal mandate to be 
monitoring for the chemicals. In the absence of federal standards, some 
states have begun to develop their own standards and monitoring 
programs, which takes time and resources away from other needs at the 
state level. EPA needs to make evidence-based PFAS guidelines in 
drinking, surface water, and groundwater a priority. Additionally, EPA 
leadership needs to set guidelines for handling and managing waste 
containing these chemicals, so contamination does not continue to be an 
issue after point-sources of emerging contaminants are identified and 
controlled.
    Guidelines for emerging contaminants need to be guided by public 
and environmental health concerns. Following guidelines and research 
from the Agency for Toxic Substances and Disease Registry (ATSDR), EPA 
needs to use up-to-date scientific weight of evidence to determine safe 
levels of exposure to emerging contaminants across all media. 
Substances currently banned in the US may be entering undetected 
through a global supply chain. The binational Great Lakes Water Quality 
Agreement, through the Chemicals of Mutual Concern annex provides a 
model for nominating chemicals, systematically evaluating their sources 
and potential for release into the environment and health risks and 
developing strategies to address them. Two examples of leveraging 
studies conducted outside of the US were presented in June at the 2019 
Great Lakes Water Quality Forum. Environment Canada (EC) initiated a 
study to identify whether short-chain chlorinated paraffins (SCCPs), 
substances banned in both Canada and the US were entering the country. 
Preliminary results presented indicated SCCPs were detected in several 
products including children's toys. This illustrates that we cannot 
simply consider US-based sources of exposure.
    Additionally, EPA needs to consider and fund studies that increase 
our understanding of exposure health effects of unstudied emerging 
contaminants and the impacts of contaminants in combination with one 
another. A recent study found that even 93 percent of bottled water 
showed some sign of microplastic contamination after accounting for 
possible background contamination \17\, and microplastics are present 
in human food sources \18\ \19\ As microplastics break down in the 
water and become nanoparticles, they can pass directly through the 
blood-brain barrier \20\ and cell membranes to enter the body. Because 
of their size they are difficult to measure in the environment and more 
difficult to filter out. Many emerging contaminants can bioaccumulate 
up the food chain, impacting the aquatic food web, the health of the 
Great Lakes fisheries, and the health of those who consume Great Lakes 
fish and wildlife, so funding to understand and determine these 
bioaccumulation factors are important to setting appropriate guidelines 
that prioritize public health. These chemicals are not isolated in the 
environment, and human and aquatic life are exposed to a suite of 
chemicals at once. Understanding how these chemicals interact with one 
another and their cumulative effects on human and wildlife is necessary 
to setting appropriate thresholds.
---------------------------------------------------------------------------
    \17\ Mason et al. Synthetic polymer contamination in bottled water. 
https://orbmedia.org/sites/default/files/FinalBottledWaterReport.pdf
    \18\ Yang, D., H. Shi, L. Li, K. Jabeen, and P. Kolandhasamy 
(2015). Microplastic Pollution in Table Salt from China. Environmental 
Science & Technology, 49, 13622-13627.
    \19\ Van Cauwenberghe, L. and C. R. Janssen (2014). Microplastics 
in bivalves cultured for human consumption. Environmental Pollution, 
193, 65-70.
    \20\ Mattsson, Karin et al. 2017. Brain damage and behavioral 
disorders in fish induced by plastic nanoparticles delivered through 
the food chain. Scientific Reports 7: 11452
---------------------------------------------------------------------------
    The federal government needs to develop and fund analytical methods 
and monitoring programs. Guidance on monitoring protocols and program 
development at the state and regional level would be invaluable for 
states to quantify emerging contaminants in the environment. EPA has an 
analytical method to test for 18 PFAS in drinking water, but there are 
nearly 5,000 PFAS chemicals in addition to a plethora of other emerging 
contaminants. There is no plan in place to develop an analytical method 
to measure emerging contaminants, such as PFAS, in surface water and 
wastewater. Analytical methods for both media are necessary to quantify 
contamination and exposure in the environment and assess treatment and 
remediation technologies. As part of this method development, EPA needs 
to ensure that there are certified reference materials and other 
standards solutions so results are uniform and reliable. EPA could use 
its TSCA authority to request information on lab methods from PFAS 
manufacturers. Alternatively, EPA's Green Chemistry Challenge \21\ 
serves as a model that partners with the chemical industry, trade 
associates, academia, non-governmental organizations (NGOs) and other 
government agencies to promote pollution prevention and incentives.
---------------------------------------------------------------------------
    \21\ https://www.epa.gov/greenchemistry
---------------------------------------------------------------------------
    As stated in the testimony, we do have solutions for many of these 
problems, but the federal government needs to provide capacity to 
states to enact solutions. Funding is required to develop new treatment 
processes for contaminants, and to provide capacity for states and 
communities to install new technology and properly dispose of 
contaminated materials. For example, we do not have effective treatment 
systems for removal of pharmaceuticals and personal care products in 
the wastewater treatment process. A study \22\ in 2013 found that only 
half of prescription drugs and other newly emerging contaminants in 
sewage are removed by treatment plants and that the impact of most of 
these chemicals on the health of people and aquatic life remains 
unclear. Wastewater treatment plants were not designed to handle these 
types of chemicals, and most municipalities in the Great Lakes are 
under tight budgets \23\, making additional federal programs and 
supplemental funding critically important for them to implement new 
technologies as they are developed. Both drinking water and wastewater 
infrastructure is underfunded, and revenue caps constrain the actions 
communities and their utilities can take to address them. Small 
communities frequently do not have the resources to upgrade their 
wastewater treatment technologies that address chemical contaminants 
effectively. These communities look to states for both technical and 
financial assistance.
---------------------------------------------------------------------------
    \22\ Uslu et al. 2013. A Survey of Occurrence and Risk Assessment 
of Pharmaceutical Substances in the Great Lakes Basin. Ozone: Science 
and Engineering.
    \23\ ``Only half of drugs removed by sewage treatment plants.'' 
https://www.scientificamerican.com/article/only-half-of-drugs-removed-
by-sewage-treatment/
---------------------------------------------------------------------------
    While removal of contaminates at the source is a key step moving 
forward, Congress needs to provide funding and guidance to remove 
contamination already in the environment. States are struggling to 
protect drinking water sources from PFAS contamination. In Michigan, 
PFAS foam on lakes and rivers is an issue, prompting consumption 
advisories on the Rogue River and Van Etten Lake \24\. PFAS has 
contaminated drinking water wells in Marinette, WI, with eleven being 
above the EPA's health advisory limit \25\. Currently there is little 
guidance on who has authority to order investigations and cleanups and 
authority of federal entities to incur remediation costs. To facilitate 
contamination remediation, EPA needs to determine which PFAS are 
regulated under RCRA and/or CERCLA as hazardous waste or hazardous 
substances and provide information to guide remediation of PFAS-
contaminated sites per the recommendation of states and professional 
organizations. We encourage EPA to complete the process to list PFAS as 
hazardous substances as quickly as possible. Further, the federal 
government needs to make available low- or no-cost programs for 
regional cleanup efforts and fully fund projects necessary to ensure 
that EPA and States can manage risks associated with emerging 
contaminants.
---------------------------------------------------------------------------
    \24\ 7 ways to address PFAS contamination in Michigan https://
www.mlive.com/news/2018/07/7_ways_to_address_pfas_contami.html
    \25\ New evidence of groundwater pollution turning up near Lake 
Michigan at Tyco plant in Marinette. https://www.jsonline.com/story/
news/local/wisconsin/2018/06/18/new-evidence-groundwater-pollution-
turning-up-near-tyco-plant/703136002/
---------------------------------------------------------------------------

Questions from Hon. Grace F. Napolitano to Dave Pine, Supervisor, First 
    District, San Mateo County Board of Supervisors, and Chair, San 
                  Francisco Bay Restoration Authority

    Question 1. In your testimony, you mention that you have put into 
place a 20-year local funding source for San Francisco Bay restoration 
projects.
    How does this local funding sources compare to the Federal funding 
the program receives? Does the San Francisco Bay need to continue 
receiving Federal funding to reach the restoration goals the Commission 
has outlined?
    Answer. Despite significant investment of state, regional and even 
private funds, fully restoring the tidal wetlands of the San Francisco 
Bay cannot be accomplished without additional federal funding.
    The vast majority of SF Bay acreage awaiting restoration is federal 
property within the national wildlife refuge complex. Yet the San 
Francisco Bay Joint Venture estimates that of the funds spent on 
acquisition, restoration and enhancement of bay lands between 1997 and 
2018, only 28% were from federal sources.
    In 2008, the San Francisco Bay Restoration Authority (SFBRA) was 
created to raise and allocate local funding for Bay restoration. This 
was accomplished with Measure AA, a 20-year, $12 parcel tax that was 
passed by 70% of the voters across all nine Bay Area counties in June 
2017. Measure AA was predicated on the idea that both the state and 
federal government would each contribute approximately one third of the 
funds necessary to restore the Bay, with SFBRA funding through Measure 
AA providing the last third.
    The need for additional federal resources is clearly illustrated by 
the large gap between currently available funding and funding requests 
for projects. In its first two annual grant rounds, SFBRA received 
almost three times more demand for project funding ($131 million) than 
funding available ($47 million).
    Similarly, the EPA administered San Francisco Bay Water Quality 
Improvement Fund (WQIF) program, which began in 2008 and provides 
grants to protect and restore San Francisco Bay, has received $176 
million in grant requests but has only been able to provide $50 million 
in funding. The SF Bay WIQF program has been funded through a directed 
appropriation averaging only $4 million to $5 million annually. The SF 
Bay WQIF program lacks statutory authorization and has not grown to 
meet the funding needs of the Bay. The SF Bay WQIF program funding is a 
small fraction of what the following estuaries received from Congress 
in FY 2019: Chesapeake Bay ($73 million), Puget Sound ($28 million), 
and Long Island Sound ($14 million).
    The cost to restore land in public ownership to tidal wetlands is 
estimated to total at least $1.4 billion. Moreover, this estimate does 
not include the cost of preventing pollution in the Bay and providing 
other benefits crucial to its health, as described in the EPA-mandated 
Comprehensive Conservation and Management Plan (CCMP) completed by San 
Francisco Estuary Partnership, which is San Francisco Bay's National 
Estuary Program. The total cost estimate for all CCMP actions is many 
billions of dollars. Measure AA over its 20 year term will generate 
approximately $500 million, far short of the total amount needed.
    The U.S. General Accounting Office, at the request of the House 
Transportation and Infrastructure Committee, has reviewed the federal 
role in the San Francisco Bay's restoration efforts and has also called 
out the need for more federal funding. The GAO's report, published in 
August 2018, found that:

    <bullet>  San Francisco Bay restoration needs additional federal 
funding:
                ``Obtaining sufficient federal funding for water 
                quality improvement and ecosystem restoration 
                activities'' is considered one of the top factors 
                posing a ``Very Great'' or ``Great'' challenge by those 
                GAO surveyed.'' [p.49--figure 8, and p. 50 supporting 
                narrative].

    <bullet>  The Bay can effectively utilize more federal funding: The 
GAO found a high level of coordination and collaboration among entities 
working on Bay restoration which will enable federal funding to be 
effectively utilized and leveraged.
                ``The results of federal and nonfederal entities 
                working together can be seen in parts of the watershed, 
                such as the Bay, where this work has resulted in the 
                development of comprehensive regional strategies, 
                sources of funding for some restoration projects, an 
                expanding regional database, and an inventory of 
                potential projects.'' [p. 52]

    <bullet>  Better tracking and coordination of federal funding from 
different agencies is needed: HR 1132, introduced by Congresswoman 
Jackie Speier and discussed below, calls for the establishment of an SF 
Bay Program office at the EPA. Such a program office could track and 
report to Congress all federal agency funding in S.F. Bay.

    The limited federal funding for San Francisco Bay was the impetus 
for Congresswoman Jackie Speier's HR 1132. HR 1132 recognizes the 
success of the EPA's National Estuary Program model and the need to add 
additional federal funds ($25 million a year) to implement the CCMP for 
San Francisco Bay.
    Stakeholders in the Bay Area and the state have demonstrated a 
willingness to invest in the restoration of the Bay. The urgency of 
restoring tidal wetlands in the Bay is increasing with the threat of 
rising sea levels, and without additional federal funding the window of 
opportunity will close for much of the potential restoration work that 
remains.

    Question 2. Often, investment in the restoration of local 
ecosystems can be narrowly portrayed as only benefiting the environment 
for its own sake; yet, several studies have shown that investment in 
the restoration of local ecosystems has far greater benefits than just 
protection of the environment. For example, I understand that several 
global companies have offices in the San Francisco Bay region; yet, 
many of these businesses also face risks due to climate change, sea 
level rise, and other environmental challenges.
    Can you discuss your work with the business community and others in 
advocating for the restoration of the San Francisco Bay, and how the 
business community perceives the benefits of the Bay's restoration?
    Answer. The Silicon Valley Leadership Group and the Bay Area 
Council, the two largest business member driven organizations in the 
region, were very involved in the crafting and passage of Measure AA, 
and continue to be involved with the SFBRA's work. They have done so 
because numerous businesses, including some of the most recognizable 
corporations in the world, are located on or near the Bay shoreline and 
face the threat of sea level rise and flooding.
    Businesses such as Google, Facebook, and the San Francisco Giants 
publicly endorsed and contributed financially to Measure AA. In 
addition to the Silicon Valley Leadership Group and the Bay Area 
Council, numerous business organizations supported Measure AA 
including:

    <bullet>  Bay Planning Coalition
    <bullet>  Environmental Entrepreneurs
    <bullet>  Joint Venture Silicon Valley
    <bullet>  North Bay Leadership Council
    <bullet>  Oakland Chamber of Commerce
    <bullet>  Outdoor Industry Association
    <bullet>  Palo Alto Chamber of Commerce
    <bullet>  San Francisco Chamber of Commerce
    <bullet>  San Jose Silicon Valley Chamber of Commerce
    <bullet>  San Mateo County Economic Development Association

    The business community in the Bay Area is keenly aware that not 
only are their immediate properties in some instances imperiled by 
rising seas, but so is the infrastructure upon which they and their 
employees rely. They appreciate that tidal wetlands provide a buffer 
from storm surges and rising seas by knocking down large waves and 
absorbing floodwaters. They also understand that a healthy Bay is a 
crucial ``quality of life'' amenity for their employees.

    Question 3. Unlike Chesapeake Bay and the Great Lakes, the San 
Francisco Bay is a water body contained within one state.
    Why does a healthy San Francisco Bay matter to the nation as a 
whole?
    Answer. Economically, the Bay Area itself would rank 19th in the 
world by GDP due in part to the businesses surrounding the Bay, 
including numerous leading Silicon Valley companies, which are a 
critical economic engine for the nation. The Bay is also a vital hub 
for the movement of people and goods between the United States and Asia 
and along the west coast. Three major airports are located near the 
Bay, and the Bay contains six shipping ports, including the Port of 
Oakland which is the eighth busiest container port in the United 
States.
    Ecologically, the San Francisco Bay also is of great national 
importance:

    <bullet>  It is the largest estuary on the west coast of North and 
South America.
    <bullet>  It contains more than 100 federally listed threatened and 
endangered species.
    <bullet>  It is the winter home for 50 percent of the diving ducks 
in the Pacific flyway.
    <bullet>  It hosts more wintering and migrating shorebirds than any 
other estuary along the U.S. Pacific Coast south of Alaska.

    The San Francisco Bay has received several national and 
international designations due to its critical ecological value. It has 
been designated as a ``Ramsar Wetland of International Importance'' by 
an intergovernmental wetland conservation treaty, as one of 67 Areas of 
Continental Significance for waterfowl by the North American Waterfowl 
Conservation Plan, and a Site of Hemispheric Importance by the Western 
Hemispheric Shorebird Reserve Network.
    The restoration of San Francisco Bay benefits both the environment 
and businesses. Restored tidal wetlands trap polluted runoff before it 
reaches open water, provide protection against flooding, rising sea 
levels and storms, prevent erosion, and capture greenhouse gases to 
counter climate change.
    The State of California, Bay Area taxpayers through Measure AA, and 
private foundations have all contributed to the remarkable progress we 
have made in restoring the Bay. The missing partner in this effort is 
the federal government. With additional federal investment the health 
of the San Francisco Bay can be dramatically improved and our 
businesses, communities and ecosystem protected for the benefit of our 
nation and the world.

    Questions from Hon. Denny Heck to Laura L. Blackmore, Executive 
                   Director, Puget Sound Partnership

    Question 1. Unlike Chesapeake Bay and the Great Lakes, the Puget 
Sound is a water body contained within one state.
    Why does a healthy Puget Sound matter to the nation as a whole?
    Answer. Puget Sound is an economic engine: it supports a $4 billion 
flow of goods and services annually, and 780,000 water-dependent jobs. 
A healthy Puget Sound is good for America's economy as a whole. 
Restoring Puget Sound to health makes it more resilient to the effects 
of extreme weather events, thus avoiding the use of federal taxpayer 
dollars to rebuild.
    American families nationwide consume fish and shellfish produced in 
Puget Sound waters. Washington State is the largest producer of 
hatchery-reared and farmed shellfish in the U.S, with more than 300 
farms accounting for 25% of the total domestic production by weight and 
an annual farmgate value exceeding $108 million.\1\ Salmon fishing in 
Puget Sound has an average economic impact of $100 million per year.\2\
---------------------------------------------------------------------------
    \1\ Pacific Shellfish Institute website, 2013. http://pacshell.org/
default.asp.
    \2\ Duke's Seafood & Chowder, 2017. ``Disappearance of wild salmon 
hurts local economy.'' Seattle Times, November 20, 2017. https://
www.seattletimes.com/sponsored/disappearance-of-wild-salmon-hurts-
local-economy/
---------------------------------------------------------------------------
    American families also come to Puget Sound for tourism. Out-of-
state visitors to Washington State accounted for an estimated 12 
percent of all participant days, and 27 percent of total outdoor 
recreation spending.\3\ Eighty percent of tourism and recreational 
spending in Washington State is tied to Puget Sound.\4\
---------------------------------------------------------------------------
    \3\ Earth Economics. 2015. Economic Analysis of Outdoor Recreation 
in Washington State, January 2015, http://www.rco.wa.gov/documents/
ORTF/EconomicAnalysisOutdoorRec.pdf
    \4\ Earth Economics, 2008. A New View of the Puget Sound Ecology: 
The Economic Value of Nature's Services in the Puget Sound Basin. 
https://www.floods.org/ace-files/documentlibrary/committees/
A_New_View_of_the_Puget_Sound_Economy.pdf
---------------------------------------------------------------------------
    Beyond these facts and figures, we also know that the nation and 
the world care about Puget Sound recovery because they told us so. The 
Governor's Southern Resident Killer Whale Task Force received over 
18,000 public comments during its first year, and over 2,600 public 
comments on its final report.\5\ While most of these were from 
Washingtonians, 28 percent were from other states, and 6 percent were 
from other countries. Schoolchildren from across the country sent 
handwritten letters, and individuals flew to our meetings from 
Wisconsin (and the United Kingdom) to testify in person. People care 
about orcas, and orcas rely on a healthy Puget Sound.
---------------------------------------------------------------------------
    \5\ Office of Washington Governor Jay Inslee, 2018. Summary of 
public comments received between October 24 and October 29 on the 
October 24 version of the draft recommendations. https://
www.governor.wa.gov/issues/issues/energy-environment/southern-resident-
orca-recovery/task-force

    Question 2. What resources is the state of Washington putting 
towards Puget Sound recovery? Why is additional funding beyond the 
state's existing contribution necessary?
    Answer. The state of Washington invests robustly in Puget Sound 
recovery. The Washington State Legislature's enacted capital budget for 
the 2019-2021 biennium includes the following investments in Puget 
Sound recovery:

    <bullet>  Over $300 million for habitat protection and restoration 
projects;
    <bullet>  $275 million to replace culverts under state roads that 
block fish passage; and
    <bullet>  Over $280 million for projects to prevent toxic pollution 
of our waterways.

    Via the operating budget, the state also invests substantially in 
state agency programs to protect and restore habitat, prevent toxic 
pollution, and reopen shellfish beds to harvest. As just one example, 
the Legislature awarded the Puget Sound Partnership nearly $12 million 
in operating funds for this biennium. The total amount of operating 
budget investment in Puget Sound recovery is not possible to calculate 
because most state agency programs are statewide; however, we know that 
the total is vastly larger than the $12 million provided to our small 
agency per biennium.
    Notwithstanding these impressive numbers, federal funding remains 
crucial to our work. The primary source of funding to implement our 
Comprehensive Conservation & Management Plan, or Action Agenda for 
Puget Sound, required under the National Estuary Program is the Puget 
Sound Geographic Program. Over the past several fiscal years, Congress 
has appropriated $28 million annually into this fund, managed by the 
EPA. We leverage this funding at $30 for every $1 of federal 
investment.\6\
---------------------------------------------------------------------------
    \6\ US Environmental Protection Agency, 2018. NEPORT 2018 database.
---------------------------------------------------------------------------
    While this funding is significant and appreciated, estimates of the 
actual need to fully implement the Action Agenda show that the funding 
received falls far short: the funding gap for the 2014-2015 Action 
Agenda was 68 percent, and for the 2016-2018 Action Agenda it was 73 
percent.\7\ The funding gap for salmon recovery is about 84 percent.\8\ 
Our monitoring shows that at these funding levels, we are barely 
holding our ground against further degradation, if not managing decline 
of the ecosystem.
---------------------------------------------------------------------------
    \7\ Puget Sound Partnership, 2017. 2017 State of the Sound. 
Olympia, Washington. November 2017. 84pp. www.psp.wa.gov/sos
    \8\ Governor's Salmon Recovery Office, 2018. State of the Salmon 
Report, Executive Summary, page 9. Accessed June 20, 2019. https://
stateofsalmon.wa.gov/exec-summary/
---------------------------------------------------------------------------
    Federal funding is essential to our ability to recover this 
ecosystem.

    Question 3. If the Puget Sound Geographic Program was funded at the 
$50 million level it would be authorized to receive by the PUGET SOS 
Act, what kinds of projects would that extra funding go towards?
    Answer. The 2018-2022 Action Agenda for Puget Sound charts the 
course for ecosystem recovery. It contains over 600 ready-to-go near-
term actions that, if funded, could be implemented within the next four 
years. These projects are focused in three strategic initiatives:

    1.  Protecting and restoring habitat
    2.  Preventing toxic pollution from stormwater
    3.  Reopening shellfish beds

    Examples of excellent projects simply awaiting funding include the 
following:

    <bullet>  Lyre River Watershed Protection and Restoration Phase II 
(protect and restore habitat)
    <bullet>  City Habitats: A Regional Partnership for Stormwater 
Innovation (prevent pollution from stormwater)
    <bullet>  Lower Stillaguamish Pollution Identification and Control, 
Phase III (reopen shellfish beds)

    Information about all of the projects is available online at Puget 
Sound Info, our new online platform for sharing information and stories 
about Puget Sound recovery. Access it at www.pugetsoundinfo.wa.gov.

    Question 4. Aside from the Puget Sound Geographic Program and the 
National Estuary Program, what other resources should Congress support 
to enhance Puget Sound recovery?
    Answer. A multitude of additional federal programs enhance Puget 
Sound recovery, including the following:

    <bullet>  The Pacific Coastal Salmon Recovery Fund (PCSRF) is a 
multi-state, multi-tribe program that has provided crucial support for 
salmon recovery efforts throughout the Pacific coast region. These 
funds have supported the implementation of over 13,200 projects, 
protected and restored over 1.1 million acres of habitat, and opened 
access to over 10,550 miles of previously inaccessible streams.\9\
---------------------------------------------------------------------------
    \9\ NOAA Fisheries Service, West Coast Region, 2019. Pacific 
Coastal Salmon Recovery Fund. https://www.westcoast.fisheries.noaa.gov/
protected_species/salmon_steelhead/
recovery_planning_and_implementation/pacific_coastal_salmon_recovery_fun
d.html
---------------------------------------------------------------------------
    <bullet>  The Pacific Salmon Treaty (PST) provides crucial funding 
to meet the provisions of the Endangered Species Act, address tribal 
fishing rights, and maintain sustainable US fisheries. Signed by the 
United States and Canada in 1985, the revamped PST (2019-2028) reflects 
the international commitment to ensure a better future for salmon and 
Southern Resident orca.
    <bullet>  The NOAA Coastal and Marine Habitat Restoration Grants 
fund community-based restoration projects that use a habitat-based 
approach to rebuild productive and sustainable fisheries, contribute to 
the recovery and conservation of protected resources, promote healthy 
ecosystems, and yield community and economic benefits. Funding for the 
NOAA Habitat Conservation and Restoration Program is critical.
    <bullet>  The US Department of Agriculture's voluntary conservation 
programs for working lands also make important contributions to Puget 
Sound recovery. These programs help reduce soil erosion, enhance water 
supplies, improve water quality, increase wildlife habitat, and reduce 
damages from floods and other natural disasters.
    <bullet>  The US Army Corps of Engineers' aquatic ecosystem 
restoration business lines and continuing authorities program support 
the Puget Sound Nearshore Ecosystem Restoration Project to design and 
implement habitat restoration projects. These programs leverage 
already-secured state funds to improve the health of nearshore habitats 
and their ability to support shorebirds, shellfish, salmon, orca, and 
humans.
    <bullet>  The Corps also needs adequate and timely funding for 
necessary next steps to complete the federally-required downstream fish 
passage at the Howard Hanson Dam and upgrades at the Hiram Chittenden 
Locks, which represent important steps to increasing the number of 
salmon in Puget Sound and supporting the recovery of Southern Resident 
orcas.

Questions from Hon. Grace F. Napolitano to William C. Baker, President, 
                       Chesapeake Bay Foundation

    Question 1. In your testimony, you discuss the Trump 
administration's efforts to roll back Clean Water Act protections 
through its Dirty Water Rule to change the scope of water and wetlands 
entitled to Federal protection.
    Can you discuss how the President's Dirty Water Rule, if allowed to 
go into effect, would affect the long-term health of the Chesapeake 
Bay? Supporters of the President's proposal suggest that States will 
simply fill any gap in protection of waters and wetlands; do you agree?
    Answer. The Chesapeake Bay receives half of its water from an 
intricate network of 111,000 miles of creeks, streams, and rivers and 
1.7 million acres of wetlands, many of which are non-navigable 
tributaries, non-tidal wetlands, and ephemeral and intermittent 
streams. Of particular note are the 34,000 acres of Delmarva Potholes 
on the Eastern Shore. These features all provide significant benefits 
to the Bay. Wetlands, for example, soak up storm surges, trap polluted 
runoff (helping to slow the flow of nutrients, sediments and chemical 
contaminants) and provide habitat to hundreds of fish, birds, mammals 
and invertebrates. The benefits they provide regarding storm surges and 
flooding are becoming increasingly critical as the watershed faces new 
threats and challenges from climate change.
    In response to the confusion that unfolded following the Supreme 
Court's decision in Rapanos v. United States, where there was no clear 
majority and no definition of ``significant nexus'' (the prevailing 
theory for identifying waters that are not navigable in fact), EPA and 
the Army Corps of Engineers (the agencies) finalized a new definition 
of ``Waters of the United States'' (WOTUS) in 2015. Commonly referred 
as the Clean Water Rule, it provided clarity about what types of 
wetlands require Section 402 (National Pollutant Discharge Elimination 
System or NPDES) and Section 404 (dredge and fill) Clean Water Act 
permits and was based on extensive review and scientific analysis. In 
2017, President Trump issued Executive Order 13778, Restoring the Rule 
of Law, Federalism, and Economic Growth by Reviewing the 'Waters of the 
United States' Rule, and the agencies announced a two-step plan to 
repeal and replace the 2015 Clean Water Rule.
    In 2017, the agencies proposed rules to repeal the Clean Water Rule 
(and recodify the regulatory language that was in place prior to 2015) 
and change the effective date of the 2015 Rule to 2020. We expect the 
agencies to finalize the repeal of the Clean Water Rule in the near 
future. In December of 2018, the agencies announced their Replacement 
Rule that narrows the definition of WOTUS, most notably by excluding 
features that only contain water during or in response to rainfall 
(ephemeral features), groundwater, many ditches (including most 
roadside or farm ditches), and prior converted cropland. In addition, 
interstate waters and interstate wetlands would now be considered a 
separate category of WOTUS. If adopted, it is estimated that this 
replacement rule will affect the status of 18 percent of streams and 51 
percent of wetlands nationwide.
    In the Bay watershed, this limited interpretation will have the 
greatest impact in states that rely exclusively upon the federal 
definition of WOTUS for the protection of ephemeral streams and 
wetlands in their jurisdiction like Delaware, the District of Columbia 
and West Virginia. In Delaware, for example, almost 200 thousand acres 
of wetlands would be vulnerable to destruction. Even in Maryland, 
Pennsylvania and Virginia--where the states have additional water 
protection programs--the impacts will be felt. We do not believe that 
the state programs are sufficiently protective without a strong federal 
program in place. These state programs each have areas of weakness that 
will be exposed, and the lack of protections upstream will lead to 
problems downstream. In addition, there have been attempts in both 
Pennsylvania and in Virginia to limit the states' authority to regulate 
beyond what is proscribed at the federal level.
    The Administration's proposal narrows the scope of the Clean Water 
Act well beyond anything that was considered in the Rapanos case and 
would leave numerous wetlands and ephemeral streams in the watershed 
unprotected. CBF opposes this change, and hopes that EPA, in 
particular, will fulfill its purpose of setting the standard for 
protecting water quality and seek ways to fulfill its leadership 
obligations to the Bay under Section 117 of the Clean Water Act. I am 
attaching our formal comments for a more thorough presentation of our 
position.

[The formal comments are retained in committee files.]

    Question 2. In your testimony, you urge Congress to expand two 
Chesapeake Bay grant authorities--one for water quality and habitat and 
one for innovative and market-based approaches to reducing pollution.
    Can you give some success stories of this existing program that 
justify its expansion?
    Answer. As mentioned during my testimony last month, the Chesapeake 
Bay Program is the glue that holds this historic clean-up partnership 
together. Funds are used to coordinate cross-state science, research, 
modeling, monitoring, and data collection. Each state uses this 
information to plan, track, and adapt their restoration activities to 
meet their pollution reduction goals. Over 60 percent of program funds 
go to states, primarily through grant programs that leverage private 
investment for restoration activities. Additionally, every federal 
dollar unlocks more than $2 from other sources.
    The Chesapeake Bay Foundation advocated for an increased level of 
funding for two of the grant programs that are specifically listed in 
the Chesapeake Bay Program appropriation:

    1.  One grant program goes toward improving water quality and 
habitat of small, local waterways known as the Small Watershed Grants 
Program.
    2.  A second grant program supports innovative and market-based 
approaches to reducing pollution, aptly named the Innovative Nutrient 
and Sediment Reduction Grants Program.

    This increased federal support is an important step to save the Bay 
and repair some of the most damaged waterways in Virginia, 
Pennsylvania, and Maryland. The Small Watershed Grant project is 
administered for the Bay Program by the National Fish and Wildlife 
Foundation (NFWF) which awards grants to local governments and non-
profit organizations. What is remarkable is that while the grants range 
in size from $20,000 to $200,000, since 2000 this investment has 
supported over 600 projects and the $27 million in total grant awards 
has leveraged almost $90 million. Simply stated, there are no other 
programs that add up to over $100 million in community-based 
restoration projects. When people see an investment in their 
communities, they take ownership over the water quality improvements 
and develop an increased sense of stewardship. The dedication and 
vested interest that results from local restoration projects cannot be 
quantified.
    The Chesapeake Bay Innovative Nutrient and Sediment Reduction Grant 
program is also administered by NFWF. The grants awarded under this 
program are larger, ranging from $200,000 to $1 million. These grants 
are awarded competitively and focus on those projects that can serve as 
a demonstration of innovative new practices that have the potential to 
accelerate pollution reductions. Additionally, through this grant 
program, there is an investment in those best management practices and 
strategies that prove most cost-effective and efficient at nutrient 
reductions.
    Like the Small Watershed Grants Program, the Innovative Nutrient 
and Sediment Reduction Grant Program has aided in getting projects in 
the ground throughout the watershed. According to the Bay Program, 
close to 150 conservation projects have been funded through this 
investment and the $69 million in federal support has leveraged over 
$100 million in matching dollars.
    The two programs combined have led to over 960 projects throughout 
the watershed. From a total grant investment of $125 million, $233 
million in matching funds has been leveraged. CBF is advocating for 
more funding for these two programs because they have proven to be 
successful, they provide unique opportunities to leverage additional 
investment in clean water, and because year after year the project 
applications exceed available funding.
    I have attached a map and summary chart of all the projects 
supported in whole or in part through the grant programs and two 
documents that highlight particular projects. Looking through the list 
of projects you will see they are both big and small, are spread 
throughout the watershed and have an impressive return on investment 
through the dollars leveraged. The other characteristic that stands out 
is partnership--communities, local and state governments, and various 
stakeholders have come together under the common goal of clean water. 
It is that partnership that has gotten the Bay where it is today, and 
that very same sense of collaboration is what will get us to a saved 
Bay.

[The map and summary chart are retained in committee files.]

  Questions from Hon. Grace F. Napolitano to Kristi Trail, Executive 
             Director, Lake Pontchartrain Basin Foundation

    Question 1. In your testimony, you mention a few projects that Lake 
Pontchartrain Basin Foundation has completed with the assistance of 
grants from EPA's Lake Pontchartrain Program. Specifically, you 
reference ongoing water quality monitoring and the establishment of a 
museum.
    Please provide the Committee with a detailed accounting of all the 
grant funding the Lake Pontchartrain Basin Foundation has received and 
expended pursuant to section 121 of the Clean Water Act (33 U.S.C. 
1273) for the past ten years. Please include the following information 
for each grant received:
    (a.)  the annual cumulative grant amount received by the Lake 
Pontchartrain Basin Foundation (and date(s) the grant funding was 
received);
    Answer. Please find below a table indicating the grant amount 
received. Please note that this is a cost reimbursement grant. 
Therefore, LPBF must have a signed grant agreement in order to receive 
reimbursement for costs expended.

----------------------------------------------------------------------------------------------------------------
                                                                               Date LPBF Received Signed Grant
                  FY                           Amount awarded to LPBF                     Agreement
----------------------------------------------------------------------------------------------------------------
2009..................................                         $562,485.00                 9/15/2009 \<dagger>\
----------------------------------------------------------------------------------------------------------------
2010..................................                         $568,000.00                 9/14/2010 \<dagger>\
----------------------------------------------------------------------------------------------------------------
2011..................................                         $756,800.00                  8/5/2011 \<dagger>\
----------------------------------------------------------------------------------------------------------------
2012..................................                         $616,492.00                 7/27/2012 \<dagger>\
----------------------------------------------------------------------------------------------------------------
2013..................................                         $799,500.00                           10/16/2013
----------------------------------------------------------------------------------------------------------------
2014..................................                         $335,080.00                            9/30/2014
----------------------------------------------------------------------------------------------------------------
2015..................................                         $246,080.00                             9/8/2015
----------------------------------------------------------------------------------------------------------------
2016..................................                         $326,680.00                            11/3/2016
----------------------------------------------------------------------------------------------------------------
2017..................................                         $300,000.00                           11/16/2018
----------------------------------------------------------------------------------------------------------------
2018..................................                         $346,323.00                  Not yet received \\
----------------------------------------------------------------------------------------------------------------
2019..................................                                    RFP not yet issued   Not yet received
----------------------------------------------------------------------------------------------------------------
\<dagger>\ For these dates, this is the date LPBF was notified of the award, not the date of the signed
  agreement; typically an agreement was signed 3 months after notification
\\ LPBF was notified of our FY18 award on July 26, 2018; however, to date, no signed agreement has been
  received. Therefore, funds are not yet available to LPBF for our FY18 award.


    (b.)  a detailed description of any further activity or project 
funded through the Foundation using such grant, including the recipient 
of the funding, the intended purpose of such activity or project, and 
the date(s) such activity or project was awarded by the Foundation, and 
the date such activity or project was completed;
    Answer. As LPBF is a sub-recipient of this funding, we do not grant 
these funds to other entities. Below please find a list of LPBF's 
current ongoing programs, and a summary of purpose for each program.
    According to the current management conference structure of this 
grant at this time, all items funded by PRP must produce tangible 
results & preserve, protect or restore water quality & or habitat of 
the Pontchartrain Basin in accordance with the Lake Pontchartrain Basin 
Comprehensive Management Plan (CMP). It should be noted that the 
referenced CMP was written by LPBF.
    Water Quality Program: LPBF performs its basin-wide monitoring 
program to gain knowledge of the water quality of basin waterways. The 
program began in 2001 and still continues to this day. These funds have 
helped ensure that we can monitor approximately 10-12 sites for water 
quality parameters, disperse that data to the media weekly, and analyze 
the data to assess trends. Based on results obtained in the basin-wide 
monitoring program, LPBF established its sub-basin pollution source 
tracking program in January 2002. The purpose of this program is to 
locate and correct sources of fecal coliform pollution in the sub-
basins of the Pontchartrain Basin. Because data collected from this 
program is used to identify sources of pollution, LPBF has an 
assistance program to assistant local entities with wastewater 
treatment. Additionally, LPBF established multiple ``Water Quality Task 
Forces'' in various regions within the basin to coordinate sewage 
problems among local, parish and state organizations. Accomplishments 
of these task force meetings are developing and implementing a sewage 
education plan, providing updates on the status of wastewater treatment 
facilities and identifying problem wastewater treatment facilities and 
coordinating efforts to rectify.
    Coast & Community Program: Although LPBF has been active in coastal 
restoration since its inception in 1989, it was in June 2005 that a 
formal program was established. This aggressive commitment to the coast 
was triggered by the realization that the coastal wetlands were 
deteriorating in spite of ongoing authorized restoration programs. A 
plan was devised by LPBF called the Multiple Lines of Defense Strategy, 
which was referenced in LPBF's testimony on June 25, 2019. This 
strategy recognizes natural and manmade lines of defense combined with 
wetland habitat restoration to provide hurricane protection as well as 
coastal restoration. Following the hurricanes of 2005, LPBF looked 
carefully to its Comprehensive Habitat Management Plan (CHMP). The CHMP 
consists of over 100 projects and is the blueprint for restoration of 
the habitats in the Pontchartrain Basin. This program also conducts 
many projects around the basin, including scientific studies, 
restoration projects and long-term analysis. The development of our 
Hydrocoast Maps provides a bi-weekly snapshot of conditions across the 
basin. Additionally, LPBF partners with many agencies, NGOs and 
universities to study, plan and implement projects that protect all of 
our citizens from future storms and to keep our coastal region 
economically and culturally sustainable for the future. This program 
continues today.
    Education & Outreach: LPBF's Outreach & Education Department has a 
goal to educate the public on important issues affecting the 
Pontchartrain Basin. With increased awareness of water quality and 
coastal issues, citizens of the basin become better stewards of the 
region where they live. LPBF programming is conducted onsite at LPBF's 
New Canal Lighthouse as well as offsite. LPBF also works in partnership 
with other organizations to keep the community informed about basin 
issues. LPBF aims to inspire K-12 students in the region through STEM 
activities rooted in the history and natural resources of the 
Pontchartrain Basin. We teach students environmental recovery and 
restoration strategies through water quality testing, hands-on models 
for choosing natural and human-made coastal protection options, and 
field identification of insects and marsh grasses used in coastal 
restoration--in the urban marsh we created at Bayou St. John--and much 
more. Funding provides programs and materials at LPBF's New Canal 
Lighthouse Museum and Education Center and a nearby urban marsh on 
Bayou St. John, created by LPBF.
    Public Access: The Lake Pontchartrain Basin stretches from lush 
hardwood forests and slow flowing rivers of the north shore to the 
bayous, swamps, lakes and sounds leading to the Chandeleur Islands. 
From the fisherman making his way through the early morning fog to the 
kayaker slowly making her way through the spring irises, to the family 
picnicking along the shores of Lake Pontchartrain, the Basin is an 
environment to experience and cherish. LPBF and its partners have 
restored many of the waterways and habitats of the Pontchartrain Basin 
so they are once again a resource for recreational opportunities. This 
program aims to communicate the ways for the public to enjoy our basin. 
We started this program in 2006 and continue it to this day.
    New Canal Lighthouse & Museum: LPBF restored the New Canal 
Lighthouse, which opened to the public in 2013, and has operated it as 
a museum and education center with funding from PRP. Our museum's 
colorful displays, photos, maps, and videos provide historical context: 
when the Mississippi River deposited Louisiana's coastal soils long 
ago; Native American and French explorers; the City of New Orleans' 
growth; the recovery of Lake Pontchartrain's waters; and strategies to 
restore Louisiana's coast. The New Canal Lighthouse Museum and 
Education Center educates locals and visitors about the water quality 
and habitats of the Lake Pontchartrain Basin, about LPBF's Multiple 
Lines of Defense Strategy to address critical coastal issues, & about 
the history of the lighthouse and lifesaving station.

    (c.)  a description of the source and amounts of additional funds 
(other than those provided by section 121) paired with grant funding to 
carry out such activity or project; and
    Answer. The below table contains a breakdown of the percent of 
funding that the Pontchartrain Basin Restoration Program has 
contributed per program. Please note that we are required to have at 
least a 25% match for our PRP funding for each grant period.

----------------------------------------------------------------------------------------------------------------
                                                                           10 year average %
                                                                           matched by other
                                                                           funding (federal    10 year average %
                    LPBF Program                       10 year average %       and non-       matched by in kind
                                                         funded by PRP       governmental          donations
                                                                           funding) &/or fee
                                                                              for service
----------------------------------------------------------------------------------------------------------------
Coastal Sustainability..............................                10%                 80%                 10%
----------------------------------------------------------------------------------------------------------------
Water Quality.......................................                50%                 40%                 10%
----------------------------------------------------------------------------------------------------------------
Education & Outreach................................                60%                 20%                 20%
----------------------------------------------------------------------------------------------------------------
Public Access.......................................                75%                  0%                 25%
----------------------------------------------------------------------------------------------------------------
New Canal Lighthouse Museum \<dagger>\..............                70%                 20%                 10%
----------------------------------------------------------------------------------------------------------------
Other (includes development and operations).........                 0%                 90%                 10%
----------------------------------------------------------------------------------------------------------------
\<dagger>\ Museum opened in 2013; therefore, this is 2013 to date

    LPBF receives federal funding for our Water Quality program from 
two (2) geographic water programs under EPA: PRP and the Gulf of Mexico 
Program (GOMP). We have occasionally received pass-through PRP funds 
from another sub-recipient of PRP. We also have periodic contracts with 
the U.S. Coast Guard to provide additional water quality monitoring in 
the lake for use in their rescue drills and operations in the basin 
(approx. $15k per year). We have periodically had a contract with the 
City of New Orleans to perform sampling and analysis of their 
stormwater drains. There are no NGO sources of funding for our WQ 
program. We have collected samples around the Lake (called our Basin 
Wide Monitoring program) continuously since 2001. PRP has funded this 
activity with each grant year since 2001, except PRP FY 16 because we 
were awarded funding from the EPA GOMP for this task that year. In PRP 
17, the BWMP was again funded by PRP.
    LPBF's Education Program began diversifying its funding in 2018. 
Historically it was 80% funded by PRP. In 2019, it is approximately 50% 
funded by PRP.
    LPBF's Public access program is 75% funded by PRP.
    LPBF's NCLH Museum is 70% funded by PRP, and generates 20% of its 
needed revenue from event rentals, gift shop sales and tours. The 
museum opened in 2013. To date, 40,000 youth & adult, residents and 
visitors (from 40 states), learn about the Lake's recovery, 
stewardship, and coastal restoration.

    (d.)  a detailed description of the results the activity or 
project, including a description of how the activity or project is 
consistent with and furthers the statutory intent of section 121 to 
``restore the ecological health of the [Lake Pontchartrain] Basin''.
    Answer. To address the need to inform the public about the lake's 
current water quality, LPBF's Basin-wide Recreational Water Quality 
Monitoring Program (BWM) provides timely, scientific analysis and broad 
dissemination of information every week. This allows the citizens to 
make informed decisions about using the lake for recreation or fishing. 
In the case of environmental events and/or poor water quality, it warns 
the public against the use of the lake (or sections of the lake) for a 
specified time period. The need to reduce water pollution from sources 
upstream from the lake is addressed by LPBF's Sub-Basin Pollution 
Source Tracking Program, which has the goal of improving water quality 
so additional waterbodies are subsequently removed from the Clean Water 
Act's 303(d) list. The need to continue expanding capacity and 
strategies to address urban pollution and storm water volumes is 
addressed by LPBF's work in the Greater New Orleans area with non-
profit, government, and private sector entities engaged in policies, 
programs, collaborations and partnerships, all intended to help the 
citizens of Pontchartrain Basin's largest urban area ``live with 
water'' in ways that are healthier, safer, and benefit overall quality 
of life.
    This BWM program has provided tangible benefits in the past, and 
continued efforts should realize other benefits as well:

    <bullet>  This program allows LPBF to advocate for changes to water 
management practices or issues within the basin. In March of 2017, LPBF 
identified a sewage infrastructure failure at Bayou Castine because of 
upwardly trending data;
    <bullet>  In water bodies (e.g., lakes, rivers and beaches), EPA 
develops criteria for exposure to bacteria that may indicate viruses 
that cause illness in humans. LPBF monitors water in terms of criteria 
set by EPA for fecal coliform and enterococci as indicators of fecal 
contamination. EPA is also considering criteria for coliphages, which 
are viral particles associated with E. coli and are better indicators 
of viruses in treated wastewater than bacteria. This funding will allow 
for LPBF to gather data about coliphages and their usefulness as a 
viral indicator for the protection of public health in recreational 
waters.
    <bullet>  This program has an outreach to the local newspaper (The 
Advocate)'s readership exceeding 132,000 since our weekly water quality 
results are printed each week. In addition to LPBF's direct posting of 
results on the Water Quality webpage, this program allows folks who use 
the lake to make informed decisions about water quality.

    Measurable outputs and outcomes include semi-annual results, 
trends, and other statistical evaluation of the data collected within 
the basin; and outreach including newspaper readership, views tracked 
online, and other app-based dissemination measures.
    In the north and northwest portions of our basin, in rapidly 
developing parishes such as St. Tammany, Tangipahoa, Livingston, 
Iberville, and Ascension, some large wastewater treatment systems 
exist, but many homes and businesses are responsible for their own 
wastewater (mainly sewer) treatment, using small, individual wastewater 
treatment plants (WWTPs). Many times, these small WWTPs are not 
functioning properly and can release contaminated water into our bayous 
and rivers. LPBF provides education, advocacy and training to owners of 
residential and commercial WWTPs to better understand their system and 
reduce their contribution to downstream water pollution.
    These PRP-funds allow us to:

    <bullet>  Work with the WWTP owner to understand the parts of the 
plant and how it functions. LPBF will assess the facility to see if 
repairs are needed; we guide the plant owners as repairs are made. To 
date, we have worked with well over 1000 commercial and 1200 home 
WWTPs. They are now functioning properly and not contributing 
wastewater to the rivers;
    <bullet>  Note that several small-system WWTPs are not properly 
permitted with the Louisiana Department of Environmental Quality 
(LDEQ), and therefore, they are not regularly monitored, inspected, or 
improved. LPBF will continue efforts to inspect and permit these 
facilities in partnership with the LDEQ Small Business Assistance 
Program;
    <bullet>  Identify and correct sources that contribute to fecal 
pollution in the rivers as located through water quality monitoring and 
GIS analysis; and
    <bullet>  Document baseline conditions and tracks changes in water 
quality.

    These steps improve effluent discharge to waterways and streams to 
reduce waste load allocation burdens, and contribute to returning 
waterways to their full, intended use. Measurable outputs and outcomes 
include semi-annual reporting of facilities inspected, and repairs 
made. Reports also identify costs to make repairs, and facilities that 
applied for LPDES permits.
    Further, LPBF engages municipal, parish, and state officials in 
water quality task forces aimed at coordinating activities to reduce 
pollution in target areas of Orleans, Tangipahoa, St. Tammany, and 
Jefferson Parishes. The water quality issues of these areas are 
dependent on the development and environmental conditions. Across the 
board, these task forces build stakeholder partnerships to 
comprehensively address pollution issues revealed.
    LPBF's New Canal Lighthouse Museum (Lighthouse) and Welcome Center 
benefits the youth and adults of the Pontchartrain Basin, as well as 
thousands of visitors from across the U.S. The Lighthouse is an iconic 
symbol for LPBF. The museum offers students, locals, and tourists the 
opportunity to learn about the pressing problems and solutions 
regarding coastal sustainability and water quality through colorful 
images, narrative, and narrations. In the future, it is LPBF's top 
priority to optimize the museum exhibits and draw more people to 
experience the lakefront through the lens of environmental restoration 
and enjoying our natural assets.

    Question 2. If the Committee were to consider legislation to re-
authorize the EPA's Lake Pontchartrain Program, do you have any 
recommendations to improve the Lake Pontchartrain Program? Please 
explain.
    Answer. LPBF has encountered hurdles with this funding for many 
years, and we appreciate the opportunity to offer recommendations. 
Because we rely on continuous funding for our many programs, it is 
crucial to LPBF that this funding be considered a programmatic fund. In 
the current structure, there is uncertainty each cycle on when the 
funding will be available, which interrupts funding of our continuous 
programs. LPBF also offers a few additional recommendations:

    1)  Elimination of the Management Conference that works as a 
liaison between the EPA and grant recipients. This would eliminate the 
unnecessary time spent on communication and delays. Also, this would 
allow the grantee to work directly with the EPA staff that administer 
the program.
    2)  Currently, LPBF is forced to expend its own reserve funds to 
support these programs while the Management Conference and EPA work 
through a lengthy (currently 14-month) delay in disbursing funds. 
LPBF's major initiatives require ongoing/continuous programmatic 
funding, which is exactly what this funding stream was initially 
designed to do. Consistent, timely release of the PRP RFP annually 
would allow LPBF to continue the valuable work without any 
interruption.
    3)  Eliminate the 15% cap on Public Education & Outreach. Outreach 
& education is a critical component of LPBF's work. Currently, there is 
a 15% cap on the Public Education portion of the program as stated in 
40 CFR 1263(f)(2). The original authorization included $20 million in 
total funding over 5 years. With annual appropriations significantly 
reduced from the original amount, the 15% cap is now extremely 
limiting. Our education & outreach programs educate the community at 
large on water quality of the Basin. Through our work with local K-12 
schools, LPBF also identifies potential job paths related to water 
management, and ways to ignite interest in this sector.
    4)  Ensure funding is designed for LPBF's programs as outlined in 
LPBF's Comprehensive Management Plan, as stated in 40 CFR 1263(b).
    5)  Allow use of grantees' approved Negotiated Indirect Cost Rate 
Agreement (NIRCA). Currently the PRP management conference imposes an 
arbitrary indirect rate of 14% on sub-awardees. LPBF has an approved 
NIRCA from the U.S. Department of Interior, and recommends using that 
approved rate for the grant award approved indirect rate.

Questions from Hon. Garret Graves to Kristi Trail, Executive Director, 
                  Lake Pontchartrain Basin Foundation

    Question 1. The Bonnet Carre Spillway acts as the pressure relief 
valve to the Mississippi River system, releasing excess water from the 
River into the Lake Pontchartrain Basin. Could you describe the 
challenges of operating a restoration program in this system and how it 
differs from other estuaries and basins?
    Answer. Since the 1930s, whenever the spring floods on the river 
are great enough to threaten the New Orleans levees below Bonnet Carre 
(BCS), the BCS is opened to relieve the pressure of the high water by 
sending flood water into Lake Pontchartrain. The massive spillway 
structure made of 350 bays of reinforced concrete, stretches 7,000 
feet. In each bay are 20 timbers that must be individually removed by a 
crane to open the structure. The Spillway was opened once every 10 
years due to high river levels; however, it has been opened 4 times in 
the last 2 years, including twice already this year.
    In 2019, the Bonnet Carre Spillway (BCS) opening has drawn 
attention from scientists, environmentalists, and the general public. 
Large amounts of work and funding have been spent in the past three 
decades on the effort to improve water quality in Lake Pontchartrain. 
When the BCS is opened, approximately ten percent of the river's flood 
stage flow is directed into the Lake, which, because it is actually a 
shallow estuarine system, is very sensitive to sudden changes. The 
river water replaces the brackish water with muddy, cold fresh water, 
nutrients and other contaminants. It should be noted that the 
Mississippi River Basin is the third largest in the world, after the 
Amazon and Congo basins. Parts or all of 31 states plus two Canadian 
provinces drain into the Mississippi River, totaling 41% of the 
contiguous United States and 15% of North America.
    As the year has progressed, and as the temperatures rise, algal 
blooms have begun to occur in the Lake on a large scale. Due to the 
concerns about the toxicity of some of these algae, warnings against 
recreational use of Lake Pontchartrain have been issued by the State of 
Louisiana. After a typical Spillway opening, the Lake is typically able 
to rebound and restore its balance, but the short-term impact of 
spillway openings are great enough that future openings will raise many 
questions from all those concerned about the health of Lake 
Pontchartrain.
    Currently, the Army Corps of Engineers' (ACOE) authority precludes 
use of the BCS for any purpose other than river flood management, and 
so does not allow for the ACOE to even assess other uses. In fact, the 
guide levees are considered an extension of the Mississippi River & 
Tributary (MR&T) levees. One possible change to maintain the health of 
the estuary is to shunt water east or west from the BCS into adjacent 
wetlands. This would help revive and sustain wetland forests which help 
protects levees and communities. It would also reduce some amount of 
nutrient load to the estuary. In fact, diverting water from the west 
side of the BCS is included in LPBF's 2017 Comprehensive Management 
Plan (CMP). So the ``challenge'' is that under existing authority, the 
Army Corps of Engineers' and the State of Louisiana are precluded from 
using an existing BCS flood control structure for coastal restoration.
    Further, LPBF supports the use of the spillway for flood control 
rather than solely in response to Mississippi River levels flooding.
    The Pontchartrain Estuary system is different from other estuary 
systems because of the overlapping issues of flood management in a low 
landscape, with a major river, and a delicate a balance of the estuary. 
The wetland loss rate is also exceptional. Altogether, the perilous 
state of our coast requires use of new tools (e.g., sediment 
diversions) but also use of existing tools (e.g. considering the BCS as 
a tool).
    Other areas that affect the restoration of the Pontchartrain Basin 
are considering re-authorizing the Caernarvon and Davis Pond Fresh 
Water diversions for purposes of coastal restoration and not narrowly 
for salinity management.
    All of this is contingent upon solid, quality monitoring throughout 
the system, due to the unique hydrologic and water quality issues. 
Louisiana is challenged with unique problems around water flow and 
draining due to the geographic location. Lake Pontchartrain Basin 
Foundation is the premier entity working with the local, state and 
federal government agencies to combat the many issues faced.

 Questions from Hon. Frederica S. Wilson to Tom Ford, Director, Santa 
  Monica Bay National Estuary Program and Executive Director, The Bay 
   Foundation, also on behalf of the Association of National Estuary 
                                Programs

    Question 1. Twenty-eight estuaries have been designated as 
estuaries of national significance. However, Biscayne Bay which is the 
largest estuary on the coast of southeast Florida is not one of the 28. 
It shares its shoreline with the Miami urban area, supports a wide 
array of commercial and recreational activities.
    A University of Miami study suggests that degraded water quality 
conditions change how people use the bay, with significant implications 
for the local economy. More than 25,000 acres of seagrass meadows have 
vanished as Miami boomed, chronic pollution spread, and climate change 
drove seas ever higher.
    Given the environmental challenges Biscayne Bay is facing, wouldn't 
it make sense to add it to the National Estuary Program? Why haven't we 
expanded the program, many of our nation's waters need restoration?
    Comments from Mr. Ford. You are correct, there are 28 estuaries 
designated as estuaries of national significance. Those estuaries of 
national significance support a wide array of commercial and 
recreational activities such as you identify with Biscayne Bay in 
southeast Florida.
    Though I am not familiar with the study you reference from the 
University of Miami regarding changes in human use of the bay, the loss 
of seagrass meadows, the spread of chronic pollution, and rising seas 
driven by climate change are familiar themes. Indeed the 28 estuaries 
designated as nationally significant share similar threats or 
stressors. They also share many successes reversing these downward 
trends by increasing expanses of sea grasses and reducing the 
concentrations and/or spread of pollution.
    The National Estuary Program was intended to identify and inform 
these threats and stressors, protect public health, promote the 
preservation of habitats that support commercial and recreational 
activities and improve water quality. To accomplish these objectives 
the individual National Estuary Programs (NEPs) establish a 
Comprehensive Conservation and Management Plan (CCMP). This plan, is 
developed by the local community, informed by science, and conducted 
via annual work plans that accomplish actions addressing threats and 
improve the quality of the estuary. The CCMPs are subject to update and 
revision every five to ten years respectively, thus they are 
contemporary documents. I have attached the FY 2017-FY 2019 CLEAN WATER 
ACT Sec. 320 NATIONAL ESTUARY PROGRAM FUNDING GUIDANCE (4-17-2017) and 
Frequently Asked Questions on NEP Governance (2-19-15) for reference.

[FY 2017-FY 2019 Clean Water Act Sec. 320 National Estuary Program 
Funding Guidance (4-17-2017) is retained in committee files and is 
available online at https://www.epa.gov/sites/production/files/2020-02/
documents/nep_fy_2017-2019_nep_
funding_guidance_2_15_2017_1.pdf. Frequently Asked Questions on NEP 
Governance (2-19-15) is retained in committee files and is available 
online at https://www.smbrc.ca.gov/about_us/orientation/docs/
usepa_nep_governance_
faq.pdf.]

    (a.)  Given the environmental challenges Biscayne Bay is facing, 
wouldn't it make sense to add it to the National Estuary Program?
    Answer. Establishing a National Estuary Program to protect and 
restore Biscayne Bay could be very beneficial to reverse the persistent 
pollution, increase adaptation potential to address sea level rise and 
the loss of sea grasses amongst others. The Biscayne Bay NEP would 
direct local, state, and national agencies and interests to work 
comprehensively throughout, in this case, the Biscayne Bay Watershed 
and in its nearshore environments. Advised by technical experts, 
informed by local stakeholders, and realized via actions instituted 
through diverse partnerships, the CCMP for Biscayne Bay would be a 
productive action plan for the region. That has been our experience 
with the Santa Monica Bay National Estuary Program; I am confident 
you'd receive a similar response from the other 27 NEP directors 
throughout the country. It has been decades since a new NEP was added 
to the National Estuary Program. Meanwhile the pressures placed on 
these estuarine systems are increasing due to population related 
pressures, old and ineffectual infrastructure, and climate change 
related stressors such as sea level rise. The successes realized in 
other NEPs should encourage the expansion of this program to support 
other estuaries that deserve recognition as estuaries of national 
significance such as Biscayne Bay. In short, yes it would make sense.

    (b.)  Why haven't we expanded the program, many of our nation's 
waters need restoration?
    Answer. This is a challenging question and there are likely many 
reasons why ``we'' haven't expanded this program. From my perspective 
the successes of the National Estuary Program demonstrate the outputs 
and outcomes of an ideal model to put communities first and maximize 
federal investment in these places designated as nationally 
significant. NEPs have leveraged federal dollars more than ten times 
over with state, local, and private funds and resources contributing to 
this progress.
    That stated, increased funding to the National Estuary Program is 
essential to expand and administer the program. Funding for the NEPs 
has remained static for over a decade, with each NEP in the field 
receiving about $600,000 annually in federal support. In real terms 
this means that the NEPs are operating on significantly less funds than 
a decade ago, and in many cases are struggling to develop and implement 
their comprehensive plans with the current level of support.
    In order to not undermine the existing program, it is necessary to 
pair the addition of any new NEP with a commensurate increase in 
funding.
    The process for adding an NEP to the existing program is clearly 
articulated in Section 320 of the Clean Water Act as illustrated below:

        (a) MANAGEMENT CONFERENCE

                (1) NOMINATION OF ESTUARIES
                The Governor of any State may nominate to the 
                Administrator an estuary [https://www.law.cornell.edu/
                uscode/text/33/1330] lying in whole or in part within 
                the State as an estuary of national significance and 
                request a management conference to develop a 
                comprehensive management plan for the estuary. The 
                nomination shall document the need for the conference, 
                the likelihood of success, and information relating to 
                the factors in paragraph (2).

                (2) CONVENING OF CONFERENCE

                (A) In general
                In any case where the Administrator determines, on his 
                own initiative or upon nomination of a State under 
                paragraph (1), that the attainment or maintenance of 
                that water quality in an estuary which assures 
                protection of public water supplies and the protection 
                and propagation of a balanced, indigenous population of 
                shellfish, fish, and wildlife, and allows recreational 
                activities, in and on the water, requires the control 
                of point and nonpoint sources of pollution to 
                supplement existing controls of pollution in more than 
                one State, the Administrator shall select such estuary 
                and convene a management conference.

    Furthermore, the recently established estuary caucus within the 
U.S. House of Representatives is encouraging https://posey.house.gov/
estuaries/. This caucus provides awareness for the importance and 
benefits of healthy estuaries. Inherently, this is a recognition that 
many of our nation's waters need restoration. This caucus may prove 
useful to build support for increased appropriations necessary to 
bolster the resources required of the National Estuary Program, and in 
this specific case to expand and create a new NEP in southeast Florida.

                                    
</pre></body></html>
